<html>
<title> - MISCELLANEOUS NATIONAL PARKS BILLS</title>
<body><pre>[Senate Hearing 110-73]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 110-73

                   MISCELLANEOUS NATIONAL PARKS BILLS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   on
                                     

                           S. Con. Res. 6                        S. 444

                           S. 126                                S. 500

                           S. 257                                S. 637

                           S. 289                                S. 817

                           S. 443                                H.R. 512


                                     
                               __________

                             MARCH 20, 2007


                       Printed for the use of the
               Committee on Energy and Natural Resources














                      U.S. GOVERNMENT PRINTING OFFICE
36-341 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 



















               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    CRAIG THOMAS, Wyoming
TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          RICHARD BURR, North Carolina
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
KEN SALAZAR, Colorado                BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida
                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
            Frank J. Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                   DANIEL K. AKAKA, Hawaii, Chairman
BYRON L. DORGAN, North Dakota        CRAIG THOMAS, Wyoming
MARY L. LANDRIEU, Louisiana          LISA MURKOWSKI, Alaska
KEN SALAZAR, Colorado                RICHARD BURR, North Carolina
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BLANCHE L. LINCOLN, Arkansas         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             GORDON H. SMITH, Oregon
JON TESTER, Montana                  MEL MARTINEZ, Florida

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee

                      David Brooks, Senior Counsel
          Thomas Lillie, Republican Professional Staff Member
























                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Carlino, August R., President and CEO, Steel Industry Heritage 
  Corporation and the Rivers of Steel National Heritage Area, 
  Homestead, PA..................................................    37
Enzi, Hon. Michael, U.S. Senator from Wyoming....................     6
Esparza, Moctesuma, Film Producer, Los Angeles, CA...............    29
Kennedy, Hon. Edward M., U.S. Senator from Massachusetts.........     5
Lopez, Dennis J., on behalf of the Sangre de Cristo National 
  Heritage Area, Alamosa, CO.....................................    42
Martinez, Hon. Mel, U.S. Senator from Florida....................    26
Menendez, Hon. Robert, U.S. Senator from New Jersey..............     4
Nichols, Gary E., Director, Park County Tourism and Community 
  Development Office, Fairplay, CO...............................    48
Ostermiller, Jerry, President, Columbia River Maritime Museum, 
  Astoria, OR....................................................    35
Sakura, Dan, Director of Government Relations, The Conseration 
  Fund, Arlington, VA............................................    31
Salazar, Hon. Ken. U.S. Senator from Colorado....................     1
Smith, Hon. Gordon H., U.S. Senator from Oregon..................     3
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     3
Wenk, Daniel N., Deputy Director, National Park Service, 
  Department of the Interior.....................................     8

                                APPENDIX

Additional material submitted for the record.....................    59






















 
                   MISCELLANEOUS NATIONAL PARKS BILLS

                              ----------                              


                        TUESDAY, MARCH 20, 2007

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Ken Salazar 
presiding.

   OPENING STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR FROM 
                            COLORADO

    Senator Salazar. I'm calling to order the subcommittee 
hearing on National Parks this afternoon, and want to, with 
Senator Craig Thomas, welcome everyone who's here, including 
the witnesses who have traveled from so far to testify on these 
bills today.
    I'm going to give an opening statement, and then turn it 
over to Senator Thomas to give whatever opening statement he 
has, and then we'll proceed with the panel, starting with Mr. 
Wenk, then following him we'll have the witnesses testify on 
the specific bills that we're talking about today.
    The purpose of today's hearing is to receive testimony on 
several bills that are pending before the Subcommittee on 
National Parks. Senator Akaka who is the subcommittee 
chairperson was not able to be here today, and asked that I 
chair the meeting for him. I thank him for scheduling the 
hearing, and for giving us the opportunity to move these bills 
through the committee in a timely manner.
    The bills we will be considering this afternoon include the 
following: S. 126, which is to modify the boundaries of the 
Mesa Verde National Park; S. 257, which is to direct the 
Secretary of the Interior to conduct a study to determine the 
feasibility of establishing the Columbia-Pacific National 
Heritage Area in the States of Oregon and Washington; S. 289, 
to establish a journey through Hallowed Ground National 
Heritage Area; S. 443, to establish the Sangre de Cristo 
National Heritage Area in the State of Colorado; and S. 444, to 
establish the South Park National Heritage Area in the State of 
Colorado; S. 500, and a companion measure, H.R. 512, to 
establish a Commission to study the potential creation of the 
National Museum of the American Latino, and to develop a plan 
of action for the establishment and maintenance of a National 
Museum of the American Latino in Washington, D.C.; S. 637, to 
direct the Secretary of the Interior to study the suitability 
and feasibility of establishing the Chattahoochee Trace 
National Heritage Corridor in Alabama and Georgia; S. 817, to 
amend the Omnibus Parks and Public Lands Management Act of 1996 
to provide additional authorizations for certain National 
Heritage Areas; and, finally, S. Con. Res. 6, which expresses 
the sense of Congress that the National Museum of Wildlife Art 
in Jackson, Wyoming should be designated as a National Museum 
of Wildlife Art in the United States.
    I would like to take a minute to briefly talk about a few 
of these bills. S. 443 and S. 444 would designate two National 
Heritage areas in Colorado, the Sangre de Cristo and South Park 
areas. I would like to extend a special welcome to Gary 
Nichols, and Dennis Lopez who will be testifying on these 
bills. Gary has traveled from Fairplay, Colorado and Dennis, 
from my native San Luis Valley. Dennis is a principal of Sierra 
Vista High School in Blanca, and I hope that his students are 
watching the hearing today over the Internet.
    These two National Heritage area bills are the product of 
years of work in Colorado communities that are fighting to 
protect their culture, their landscapes, and their history. I 
am a fifth-generation native of the San Luis Valley, home of 
the proposed Sangre de Cristo National Heritage Area. Since 
people first settled in the San Luis Valley, over 11,000 years 
ago, the cultures, lifestyles and cosmologies of the Valley's 
settlers have converged, conflicted, and coalesced through the 
centuries.
    The Region was dubbed, long ago, ``The Land of the Blue Sky 
People,'' in honor of the Yutes, the oldest continuous 
residents of what is now Colorado.
    Seventeenth-century Spanish is still spoken today by about 
35 percent of the population of the Region, which testifies to 
the strong influence of the Hispanic settlers of the Narrow 
Gauge rails of the Rio Grande Railroad, we call America's Era 
of Westward Expansion.
    Like the Sangre de Cristo National Heritage Area, the 
proposed South Park National Heritage Area also reflects years 
of work among local citizens, to protect one of the most 
stunning landscapes and important historical legacies of the 
American West. The 900 square-mile proposed South Park National 
Heritage Area encompasses the South Park Basin, the Mosquito 
Range, and portions of the Pikes National Forest.
    The Heritage Area provides unparalleled opportunities for 
nature-based recreation. You can climb four 14,000 foot peaks 
in a single day, you can fish for trophy trout on 45 miles of 
gold metal streams. You can watch one of the largest herds of 
Rocky Mountain Bighorn Sheep in Colorado, or you can bird-watch 
in the rich, mineral-fed wetlands in the Valley floor.
    The third Colorado bill before the committee today is S. 
126, the Mesa Verde National Park Boundary Expansion Act of 
2007, which has been introduced by Senator Allard, and co-
sponsored by myself. I want to welcome Dan Sakura from the 
Conservation Fund, who will be testifying on this bill.
    Finally, I want to welcome Moctesuma Esparza, an award-
winning filmmaker and businessman who is here to testify in 
support of the proposal to create a Presidential Commission to 
study the creation of a National Museum of the American Latino, 
in Washington. This bipartisan legislation has been introduced 
for the past several years, and it was one of the first bills 
to pass out of the U.S. House of Representatives in the 110th 
Congress.
    At this point, I would like to recognize the ranking member 
of the subcommittee, Senator Craig Thomas, my neighbor to the 
North, for any statements he might care to make.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you, Senator Salazar, for holding 
this hearing.
    Congratulations, Mr. Wenk for your new career as Deputy 
Director of the National Park Service, we're delighted to have 
you here, and it's good to have somebody with your experience 
from the West.
    We have a full agenda, as has been pointed out here, S. 
Con. Res. 6 is to name the Wildlife Museum in Jackson as a 
National Museum of Wildlife. I'm personally familiar with this, 
of course, and so I think it's a remarkable treasure.
    The majority of the bills are studies, designations or 
reauthorizations for National Heritage Areas. The concept of 
Heritage Areas is a way to recognize and promote unique areas 
have been designated, and in some cases, helped local 
economies, but they're not units of the National Park System.
    When designated, the authorizing legislation holds funds to 
$10 million, and a time limit of 15 years for receiving Federal 
funding. That should be sufficient money and time for each to 
get up and running. I'm concerned that some of these areas have 
not found a way to be self-sufficient, and the one bright spot 
is in S. 817, where areas will not be extended beyond the 2012 
sunset.
    So, at any rate, I have sponsored legislation to designate 
National Heritage Areas, it's passed the Senate unanimously a 
couple of times, we'll try it again and see if we can define a 
little more clearly what they are in the future.
    So, Mr. Chairman, thank you for the time.
    Senator Salazar. Senator Smith, would you like to make an 
opening statement?

        STATEMENT OF HON. GORDON H. SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. I would, Mr. Chairman.
    I thank you, Senator Salazar, for holding this hearing, and 
also include Senator Thomas, and my appreciation for including 
S. 257 on today's docket.
    I also want to extend a warm welcome to Jerry Ostermiller 
who is here from Oregon. He's played a large role in the 
development of the bill, and is here today to testify.
    The concept of having a National Heritage Area on the Lower 
Columbia River came on the coattails of the Lewis and Clark 
bicentennial. In the years leading up to that event, this 
committee and Congress expanded Fort Clatsop National Memorial 
to include additional sites in both Oregon and Washington. My 
colleagues might remember that Fort Clatsop was the winter 
encampment of the Corps of Discovery sent by President Thomas 
Jefferson and the Congress to explore the Louisiana Purchase, 
and find a passageway to the Pacific Ocean.
    Coinciding with the bicentennial, Congress also 
appropriated funds for the acquisition of land around Fort 
Clatsop. This allowed the construction of a trail from the Fort 
to the Pacific Ocean, so that now, today, visitors can trace 
Lewis and Clark's steps, and repeat the famous words from 
Captain Clark's journal, ``Ocean in view, oh the joy.''
    The Lewis and Clark bicentennial spurred a renewed interest 
in the history of the region. My staff and I worked with local 
stakeholders to broaden the focus across the two centuries of 
history, since the rainy 106 days of the Corps of Discovery 
spent at Fort Clatsop, as well as the millennia beforehand.
    The findings section of my bill lay out some of the 
themes--the 6,000 years of habitation by Native Americans, 
early exploration by Sir Francis Drake, and Captains Cook and 
Robert Grey, whose ship became the namesake of the Columbia 
River. The settlement by John Jacob Astor, for whom the city of 
Astoria is named, and there's a hotel in New York City, the 
Waldorf-Astoria, that also bears that family name.
    Lighthouses and shipwrecks, the Coast Guard and its top gun 
training centers in the area, the long history of timber and 
fish harvest--these are but a few of the brushstrokes across 
the historic canvas of the Columbia Region of Oregon and 
Washington.
    I'm pleased with this bill, and specifically to have the 
support of Senators Murray, Wyden and Cantwell as co-sponsors 
of my bill. Congressman Barrett has introduced a companion 
legislation in the House, and so I hope we're able to move this 
quickly on, so we can designate this area.
    Senator Salazar. Thank you, Senator Smith.
    Senator Menendez.

STATEMENT OF HON. ROBERT MENENDEZ, U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman, I appreciate 
your including in today's hearing S. 500, which of course 
you're the lead sponsor of, I'm proud of co-sponsoring with 
you, and I appreciate the agenda before the committee.
    You know, S. 500, the National Museum of the National 
Museum of the American Latino Community Commission Bill is 
something that I am incredibly proud to be a co-sponsor of. I 
feel the bill is critical to recording and preserving the role 
that Latinos have played in our Nation's rich and diverse 
history.
    We have been a part of this history in the United States 
for quite some time. Latinos have founded some of the oldest 
cities in America--St. Augustine, Florida in 1565, Santa Fe, 
New Mexico in 1598. During the American Revolutionary War, 
General Washington's Army was successful at Yorktown, in part, 
because of support from troops led by Bernardo de Galves. So, 
those are parts of the early history.
    But often, we see that history not recognized in the 
critical elements of what children from across the country 
learn, and the critical opportunities as we visit the Nation's 
capitol. We almost see that that part of American history is 
just simply not etched as well as we have seen other parts of 
American history.
    And so, I think this is an incredibly important 
opportunity, to have an American Latino--a National Museum of 
the American Latino Community. I would note that not only have 
the three U.S. Senators of Latino descent serving in the Senate 
co-sponsored the bill, but so have 21 other Senators from both 
sides of the aisle, and of course, the House of Representatives 
passed the same bill just last month, so I believe the 
bipartisan nature of this bill speaks to the importance of 
celebrating and acknowledging the contributions Latinos have 
made to American life, in art, culture and industry.
    It's a community that today numbers almost 44 million, with 
the buying power of, not a million, not a billion, but nearly a 
trillion dollars in domestic marketplace spending. That is 
growing exponentially, in terms of its entrepreneurship of more 
than 2 million Hispanic-owned businesses, with Latino-owned 
firms being the fastest rate of growth in the country.
    And it's hard to imagine what our arts and entertainment 
industry would look like without entertainers such as Gloria 
Estefan, Marc Anthony, George Lopez, or artists such as Julia 
Alvarez and designers like Oscar de la Renta, and what baseball 
would be without Pedro Martinez, Alex Rodriguez, and Hall of 
Famer Roberto Clemente, just to mention a few.
    We also play a vital role in the Armed Forces of the United 
States. We have more than 22,000 of our sons and daughters 
fighting to protect our freedoms, and accounting for nearly 10 
percent of the total forces serving in Iraq and Afghanistan.
    As a matter of fact, Mr. Chairman, Latinos have received 
more Purple Heart medals in our Nation's history than any other 
ethnic group. Taken together, these numbers speak of a long-
term commitment to our country. And I think it's an appropriate 
opportunity to take a long-term commitment to the realization 
of that community's participation in the lifeblood of America, 
in its past and its present, and its future.
    And I look forward to having your bill become a reality, 
and being a strong supporter of it, and moving forward and 
looking forward to the day in which we open the doors of that 
museum, and being part of the life stream of America that we 
have been, be recognized by all.
    Senator Salazar. Thank you very much, Senator Menendez.
    Our first witness today is Dan Wenk, the--let me, I have 
one minor thing to do before I actually call on you, Mr. Wenk, 
and that is--we received statements on two of the bills, on S. 
817 from Senator Kennedy, and from Senator Enzi on S. Con. Res. 
6, and they will be included in the record.
    [The prepared statements of Senators Kennedy and Enzi 
follow:]
      Prepared Statement of Hon. Edward M. Kennedy, U.S. Senator 
                           From Massachusetts
    I commend Chairman Akaka and Senator Thomas for holding this 
hearing. Earlier this month, Senators Voinovich, Brown, Casey, Graham, 
Kerry, Specter and I introduced S. 817, and I appreciate the 
opportunity to state my strong support for it.
    Our bill authorizes a $5 million increase in funds for Heritage 
Areas in four states--Massachusetts, Ohio, Pennsylvania and South 
Carolina--which are approaching their funding ceiling. These Areas 
include some of the nation's most historic, scenic and culturally 
significant sites, and it's vital to preserve them. The bill also 
requires an evaluation of each Area to assess its progress in 
implementing its management plans and to make recommendations on the 
level of federal assistance in the future. The increased authorization 
paired with an evaluation of each Area is a balanced approach that will 
produce the best outcome for these national treasures and the most 
effective use of federal funds.
    I'm a strong believer in Heritage Areas, which now include more 
than 500 national historic landmarks and 13,000 national register 
properties. Their impact on the federal budget is a fraction of other 
units of the Park Service, since a basis responsibility of each Area is 
to leverage other sources of funding, rather than rely solely on 
federal aid.
    Over the last decade, Heritage Areas have had remarkable success in 
attracting non-federal funding. They've built strong partnerships in 
states and regions to protect nationally-significant resources.
    I'm particularly proud of the work of the Essex National Heritage 
Commission in Essex County, Massachusetts. Essex National Heritage Area 
is among the Heritage Areas that would receive a funding increase and 
be evaluated under the bill. So far, the Essex Commission has leveraged 
nearly two dollars for each dollar from the Park Service.
    Essex National Heritage Area includes some of the nation's most 
historic sites. Lowell's Boat Shop in Amesbury is the oldest 
continuously operating boat-building shop in the nation. The Peabody 
Essex Museum is the oldest continuously operating museum in the nation 
and the fourth largest museum in New England. Saugus Ironworks National 
Historic Site is the oldest integrated ironworks site in the nation, 
and the Schooner Adventure is the last of the Gloucester fishing 
schooners. Essex County was also home to some of the nation's greatest 
writers, including Nathaniel Hawthorne and John Greenleaf Whittier.
    I urge the Committee to approve S. 817, so that these magnificent 
Heritage Areas won't lose their leveraging power, and can continue to 
strengthen existing partnerships and build new ones to care for these 
important parts of the nation's history.
    I thank the Committee for scheduling this hearing and for the 
opportunity to testify in support of S. 817, and I look forward to 
working with the Committee to enact these important measures.
                                 ______
                                 
 Prepared Statement of Hon. Michael B. Enzi, U.S. Senator From Wyoming
    Mr. Chairman, thank you for holding today's hearing and allowing me 
to submit a statement for the record about S. Con. Res. 6. I am 
testifying in support of a resolution that I introduced that provides a 
national designation to the National Museum of Wildlife Art in Jackson, 
Wyoming. As it should, a national designation signifies something 
unique that belongs to all of the people of our nation. Just as 
President Theodore Roosevelt recognized the uniqueness of Devils Tower 
in Wyoming when he proclaimed it to be the first national monument, my 
resolution recognizes the uniqueness of the National Museum of Wildlife 
Art in Jackson, Wyoming. Wildlife museums are not unusual in the United 
States. Art museums are not unusual in the United States. This museum, 
however, sets itself apart from all the others as it focuses on 
wildlife art. This interdisciplinary approach fosters education as the 
museum uses art to teach people about wildlife and encourages wildlife 
lovers to explore art. The museum's educational focus is clear in their 
motto ``bringing people, wildlife and fine art together.''
    To date, I have not found another National Museum of Wildlife Art 
that would object to this designation. However, Congress through its 
committee hearings and deliberation can explore the justification for 
providing a national designation to the National Museum of Wildlife 
Art.
    The first question should be, ``Is this a reputable museum?'' The 
strongest voice answering ``yes'' to this question is the museum's 
accreditation from the American Association of Museums. Any serious 
museum strives for this accreditation and the National Museum of 
Wildlife Art is the only museum specifically focused on wildlife art 
that is accredited by the AAM. In addition, the designation accurately 
represents the museum. They have a broad, comprehensive, and national 
collection that considers the entire history of wildlife art in America 
and does not focus on any one type of animal.
    This resolution is not an attempt to covertly provide an avenue for 
federal appropriations to the museum. I do not intend to seek funding 
for the museum to accompany the designation. However, this designation 
will ensure the national reputation, awareness, and future of the 
museum. The designation would be significant on the state, national and 
international levels because it would mean that no other institution 
can claim the name National Museum of Wildlife Art. It is currently the 
premier museum dedicated to enrich and inspire public appreciation and 
knowledge of fine art related to nature and wildlife. The museum's 
mission is to explore humanity's relationship with nature by collecting 
fine art and presenting exceptional exhibitions and educational 
programs. The national designation would acknowledge that a major 
museum in Wyoming is the most important museum in the nation of its 
kind.
    The National Museum of Wildlife Art was founded in 1987 with a 
private gift of a collection of art and is accredited with the American 
Association of Museums. The National Museum of Wildlife Art features a 
collection of over 2,000 pieces of art portraying wildlife. Dating from 
2000 B.C. to the present, the collection chronicles much of the history 
of wildlife in art, focusing primarily on European and American 
painting and sculpture. The collection of American art from the 
nineteenth and twentieth centuries is particularly strong, recording 
European exploration of the American West. Many of these works predate 
photography, making them vital representations of the frontier era in 
the history of the United States.
    Using the collection as a base, the central themes to the museum's 
programming are connections between people, wildlife and fine art. Even 
before this designation, people from across the United States had 
discovered the National Museum of Wildlife Art. Since its inception, it 
has become an American West destination attraction with an annual 
attendance of 92,000 visitors from all over the world and an award-
winning website that receives more than 10,000 visits per week.
    These visitors find wildlife on the walls of the museum, but also 
outside of its doors. The National Museum of Wildlife Art is housed in 
an architecturally significant and award-winning 51,000 square foot 
facility that overlooks the 28,000 acre National Elk Refuge and is 
adjacent to the Grant Teton National Park. The museum displays and 
interprets this wildlife art in one of the few remaining areas of the 
United States where native wildlife roams abundantly.
    The works in the museum are united by their subject and their 
quality. The permanent collection of the National Museum of Wildlife 
Art has grown to more than 3000 works by important historic American 
artists including Edward Hicks, Anna Hyatt Huntington, Charles M. 
Russell, William Merritt Chase, and Alexander Calder, as well as 
contemporary American artists Steve Kestrel, Bart Walter, Nancy Howe, 
John Nieto, Jamie Wyeth, and others.
    The National Museum of Wildlife Art seeks to educate a diverse 
audience through collecting fine art focused on wildlife, presenting 
exceptional exhibitions, providing community, regional, national, and 
international outreach, and presenting extensive educational 
programming for adults and children. A national designation presents a 
great opportunity to use the invaluable resources of the National 
Museum of Wildlife Art to teach the Nation's school children, through 
on-site visits, traveling exhibits, classroom curriculum, on-line 
distance learning, and other educational initiatives.
    I look forward to officially recognizing the renown of the National 
Museum of Wildlife Art through this resolution.
    Thank you, Mr. Chairman.

    Senator Salazar. Our first witness today is Dan Wenk. Dan 
is the Deputy Director of the National Park Service and he 
appears here today to testify on behalf of the administration.
    Previously, Dan was a Director of the National Park 
Service's Denver Service Center in my State of Colorado. I 
understand that this is Dan's first appearance before the 
subcommittee since having been named Deputy Director for 
Operations earlier this month. We congratulate you, Dan, on 
your promotion, and we welcome you to the subcommittee today.
    Since you're testifying on several of the bills before us, 
I'd ask you to summarize your remarks on each bill as much as 
possible. Your full statement will be included as part of the 
record. Please proceed with your comments on all of the bills, 
and then we'll have a round of questions from the committee.
    Mr. Wenk.

  STATEMENT OF DANIEL N. WENK, DEPUTY DIRECTOR, NATIONAL PARK 
              SERVICE, DEPARTMENT OF THE INTERIOR

    Mr. Wenk. Thank you, Mr. Chairman.
    I thank you for the opportunity to appear before your 
committee to present the views of the Department of the 
Interior on eight bills in today's hearing agenda. I have 
submitted my written testimony on each bill, and will summarize 
the Department's position for the committee.
    Three of the bills would designate new National Heritage 
Areas--S. 289, the Journey Through Hallowed Ground National 
Heritage Area across the States of Virginia, Maryland, 
Pennsylvania and West Virginia; S. 443, the Sangre de Cristo 
National Heritage Area in the State of Colorado, and S. 444, 
the South Park National Heritage Area, also in the State of 
Colorado.
    Feasibility studies were completed on each of the three 
entities by a local entity, and in each case, the study found 
the area to be appropriate for designation, based on the 
criteria.
    However, we recommend that the committee defer action on 
all proposed Heritage Area designations, until program 
legislation is enacted that establishes guidelines, and a 
process for the designation of National Heritage Areas.
    If the committee chooses to move forward with the 
designation of these bills, the Department would recommend that 
each of the bills be amended to include an additional 
requirement for an evaluation of each Heritage Area, to be 
conducted by the Secretary 3 years prior to the cessation of 
Federal funding.
    Two of the bills on today's agenda would authorize the 
Secretary of the Interior to conduct studies to determine the 
feasibility of establishing National Heritage Areas. S. 257 
will study the Columbia-Pacific National Heritage Area in the 
States of Washington and Oregon, and S. 637 would study the 
Chattahoochee Trace National Heritage Corridor in the States of 
Alabama and Georgia.
    The Department supports the enactment of the two study 
bills, with some amendments to S. 257, but would again state 
that the Department believes that it would be beneficial to 
have program legislation that establishes guidelines for 
studies and a process for designation of National Heritage 
Areas.
    S. 817 is a bill to amend the Omnibus Parks and Public 
Lands Management Act of 1996, to provide additional 
authorizations for certain National Heritage Areas, to rename 
the Ohio and Erie National Heritage Corridor, to authorize a 
new management entity for the Delaware and Lehigh National 
Heritage Corridor, and to expand the Rivers of Steel National 
Heritage Area, and several other provisions.
    The Department has no objection to most of the provisions 
of S. 817, with several recommended amendments described in the 
written testimony. However, the Department is still considering 
its position with regard to the increase in the authorization 
ceiling for the four heritage areas, and the extension of 
funding for Delaware and Lehigh National Heritage Corridor.
    We are disappointed that the Heritage Areas that are 
nearing the end of their authorization period, or that are 
approaching their authorization ceiling did not better plan for 
this eventuality.
    We appreciate that the sponsors of the bill recognize this 
concern by requiring the preparation of a report to examine 
what role Federal funding should play in the future of these 
Heritage Areas.
    I will now move on to some non-Heritage bills. S. 126 is a 
bill that would modify the boundary of Mesa Verde National 
Park. This bill would adjust the boundary of the Park by adding 
approximately 360 acres, located near the Park entrance. This 
land is adjacent to the current Park boundary, and in full view 
from the entrance road into the Park.
    The land is also in the foreground of the view of Point 
Lookout, the promontory which Congress added to the Park in 
1931. The Department supports S. 126.
    Finally, S. 500 and H.R. 512 are bills to establish the 
Commission to study the potential creation of the National 
Museum of the American Latino Community in Washington, D.C. The 
Department has no objection to the concept of establishing a 
Commission to study the potential creation of a National Museum 
for the American Latino Community, and we suggest several 
technical corrections be made to the bill, as outlined in the 
written testimony.
    The location for a museum is of paramount importance to all 
Federal agencies, including the Department of the Interior. 
Congress adopted amendments to the Commemorative Works Act to 
preclude future memorials or museums from being located in the 
Reserve--an area described as the great cross-axis of the 
National Mall, extending from the U.S. Capitol to the Lincoln 
Memorial, and from the White House to the Jefferson Memorial. 
The amendments also preclude commemorative works, which are 
primarily designed as museums, from being located in the 
parkland, on parkland in Area 1, or East Potomac Park.
    Mr. Chairman, this concludes my oral statement, I'd be 
happy to answer any questions you or other committee members 
may have on these bills.
    [The prepared statement of Mr. Wenk follows:]
 Prepared Statement of Daniel N. Wenk, Deputy Director, National Park 
                  Service, Department of the Interior
                                 S. 126
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 126 a bill to modify the boundary of Mesa Verde 
National Park.
    The Department supports S. 126. This bill would adjust the boundary 
of Mesa Verde National Park (park) by adding to the park a total of 
approximately 360 acres, located near the park entrance. This land 
includes 324 acres currently owned by the Henneman family and 38 acres 
owned by the Mesa Verde Foundation. The Secretary is authorized to 
acquire the land by donation, purchase from a willing seller with 
donated or appropriated funds, or by exchange.
    We estimate that $45,000 would be required for closing and survey 
costs for the Henneman property. Acquisition is estimated to cost 
approximately $1.5 million. At this time, operational costs are 
estimated to be minimal and are not expected to exceed approximately 
$20,000 per year. This acquisition would have to compete with other 
Park Service priorities for funds.
    Mesa Verde was authorized as our nation's tenth national park in 
1906 and currently includes 52,122 acres. The resources preserved at 
Mesa Verde include more than 4,000 known archeological sites, three 
million objects in the park's collections, and natural resources that 
provided a rich environment and supported the lives of the Ancestral 
Puebloans who lived there for more than 700 years.
    The Henneman and Mesa Verde Foundation properties are adjacent to 
the current park boundary and in full view from the entrance road into 
the park. The property forms the foreground of the view of Point 
Lookout, the promontory which Congress added to the park in 1931. In 
addition to its strategic position at the park's entrance, the Henneman 
property possesses Ancestral Puebloan sites, a several-hundred-year-old 
pinyon-juniper forest, a major wildlife corridor and important winter 
habitat, and the largest recorded population of the globally imperiled 
Gray's Townsend daisy, a few of which are found within the current park 
boundary.
    The Hennemans approached Mesa Verde National Park in 2002 with 
their desire to protect their property through its inclusion in the 
park. Currently, the Henneman property could be developed and is zoned 
for subdivision into 10-acre lots and the Hennemans have received 
written offers from a developer interested in constructing a high-end 
RV park and convention center on the property. Rather than selling for 
development, the Hennemans have entered into a contract to sell their 
property to The Conservation Fund by November 15, 2007, contingent upon 
passage of this boundary legislation and the availability of funds to 
acquire the property.
    The Mesa Verde Foundation has been working with the park to provide 
a visitor information center adjacent to the collections facility being 
designed by the National Park Service for construction. The facility 
will be located in part on the Foundation property. The Foundation 
intends to donate their 38-acre parcel to the park, but cannot do so 
until the land has been included within the park boundary.
    We understand that the Hennemans have discussed their desire to 
include their property in the park with the Montezuma County 
Commissioners. The commissioners' position was neutral, stating that 
this is a landowner-initiated project, and it is the right of the 
landowner to exercise their property rights as they desire. They have 
also talked with their neighbors about the proposal and no opposition 
has been voiced.
    We recommend one amendment to correct the map reference in the 
bill. In section 3, paragraph 1 strike ``entitled `2006 Proposed Mesa 
Verde National Park Boundary Adjustment'.'' and insert ``entitled `Mesa 
Verde National Park Proposed Boundary Adjustment' numbered 307/80,180, 
and dated March 1, 2007.''
    Mr. Chairman, this concludes my testimony. I would be happy to 
answer any questions you or other members of the subcommittee might 
have.
                                 S. 257
    Mr. Chairman, thank you for the opportunity to provide the 
Department of the Interior's views on S. 257, a bill to authorize the 
Secretary of the Interior to conduct a study to determine the 
feasibility of establishing the Columbia-Pacific National Heritage Area 
in the states of Washington and Oregon.
    The Department supports enactment of S. 257 with amendments that 
are described later in this statement. These amendments would make the 
study requirements in S. 257 fully consistent with the criteria for 
National Heritage Area studies that were included in the 
Administration's proposal for National Heritage Area program 
legislation that was transmitted to Congress last July. Bills were 
introduced in the 109th Congress (S. 243, H.R. 760 and H.R. 6287) that 
incorporated the majority of the provisions of the Administration's 
proposal, and S. 243 passed the Senate. During the 110th Congress, a 
similar heritage area program bill, S. 278, has been introduced, and we 
look forward to continuing to work with Congress on this very important 
issue.
    While the Department supports the authorization of this study, we 
also believe that any funding requested should be directed first toward 
completing previously authorized studies.
    With 37 national heritage areas designated across 27 states, and 
more heritage area legislative proposals in the pipeline, the 
Administration believes it is critical at this juncture for Congress to 
enact national heritage area program legislation. This legislation 
would provide a much-needed framework for evaluating proposed national 
heritage areas, offering guidelines for successful planning and 
management, clarifying the roles and responsibilities of all parties, 
and standardizing timeframes and funding for designated areas. Program 
legislation also would clarify the expectation that heritage areas 
would work toward self-sufficiency by outlining the necessary steps, 
including appropriate planning, to achieve that shared goal.
    Where the mighty Columbia River meets the Pacific Ocean, a unique 
confluence of American history unfolds. For many millennia, the broad, 
fog-shrouded, and dangerous Columbia River served as the home to the 
Chinookan people. Over the years, the Chinook, Clatsop, Willapa, 
Wiakakum and Cathlamet people developed a rich and complex society 
based upon trade and the use of the abundant natural resources. These 
people continue to live and work to keep their culture alive throughout 
the region.
    The entrance yielded to 18th Century maritime and continental 
explorers after Captain Sir Frances Drake and Captain Cook sailed off 
the coast in search of the fabled Northwest Passage. In 1792, the first 
ship under United States command in the Pacific Ocean, the Columbia 
Rediviva, was the first non-native ship to enter the mouth of the great 
river of the west. Captain Robert Gray named the four-mile-wide river 
after his ship. Two months later, one of British Captain George 
Vancouver's ships sailed up the Columbia River and claimed both banks 
of the river for England. This created international tensions over 
disputed territory that would remain unresolved for over 50 years.
    International commerce flourished as American and European ships 
sought to trade with the Chinook for furs. Ships would travel around 
Cape Horn, trade for furs along the Columbia, then sail to China where 
the furs would be traded for silk, spices, porcelain, and other goods.
    In 1805, thirteen years after Captain Gray first entered the 
Columbia River, the Lewis and Clark Expedition made the first overland 
journey to the mouth of the Columbia, reaching their destination of the 
Pacific Ocean. The Expedition wintered at Fort Clatsop and successfully 
returned home. The Corps of Discovery's arrival and stay is 
commemorated at the sites of the Lewis and Clark National Historical 
Park and at state park sites in Washington and Oregon, which are 
working in partnership with the National Park Service to preserve and 
interpret the Corps of Discovery story.
    In 1811, John Jacob Astor established the first permanent American 
settlement west of the Rocky Mountains, in Astoria. At the outbreak of 
the War of 1812, Astoria was sold to the British Hudson's Bay Company 
and was not returned to America until the late 1820's. After more than 
50 years of contentious British and American ownership, possession of 
the region was not resolved until both banks of the Columbia became 
undisputed United States territory in 1846. Today, Astoria is known for 
its Historic Districts with Victorian and Craftsman-style homes stacked 
along its steep hillsides with an active working waterfront.
    The natural geography of the Columbia River provided a ready-made 
homeland defense for Native Americans. At the start of the Civil War, 
the United States Army followed the example of the native people and 
constructed forts and coastal defenses at the mouth of the Columbia. 
Fort Stevens, Fort Columbia and Fort Canby (at Cape Disappointment) 
remained in continuous operation guarding the Columbia River entrance 
from the Civil War through the end of World War II.
    The confluence of the Columbia River and Pacific Ocean has become 
known as the ``Graveyard of the Pacific.'' Hundreds of ships lay 
wrecked at the entrance and along the nearby coast. In order to further 
trade and commerce, the United States has worked for nearly 150 years 
to make navigation of the Columbia River safe for mariners. Today, the 
United States Coast Guard serves as the sentinels of the river, where 
every year they protect thousands of lives and millions of dollars in 
property.
    For the last 200 years, people from all over the world have settled 
in communities of the region to work in the industries in the area--
fishing, canneries, ship outfitting, timber harvesting, milling and 
transportation, and international trade. These resource-based 
industries have played and will continue to play a significant role in 
the region's heritage.
    The rich history of this region is set against a backdrop of rugged 
scenic beauty. It includes the headlands at Ecola and Cape 
Disappointment State parks, old growth forests in the Willapa National 
Wildlife Refuge, abundant wildlife in the Lewis and Clark and Julia 
Butler Hansen National Wildlife Refuges, and miles of gentle beaches on 
the Long Beach Peninsula and at Seaside, Oregon.
    The study authorized by S. 257 would cover four counties close to 
the confluence of the Columbia River and the Pacific Oceans where there 
is a strong, broad-based local support for protecting and promoting 
these resources. It is estimated to cost between $200,000 and $300,000.
    S. 257 contains most, but not all, of the criteria for National 
Heritage Area studies that the National Park Service believes is 
essential for evaluating the feasibility of designating a National 
Heritage Area. The bill omits criteria related to the identification of 
a local coordinating entity and its roles and responsibilities. It also 
omits criteria related to development of a conceptual boundary map. We 
would be pleased to work with the committee to develop amendments that 
would address these matters.
    Mr. Chairman, that concludes my testimony. I would be pleased to 
answer any questions you or other members of the committee may have.
                                 S. 289
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
289, a bill to establish the Journey Through Hallowed Ground National 
Heritage Area.
    While a national heritage area feasibility study by the Journey 
Through Hallowed Ground Partnership has found the Journey Through 
Hallowed Ground National Heritage Area appropriate for designation, we 
recommend that the committee defer action on S. 289 and all other 
proposed heritage area designations until program legislation is 
enacted that establishes guidelines and a process for the designation 
of national heritage areas. Last year, the Administration sent to 
Congress a legislative proposal to establish guidelines and a process 
for designation. Bills were introduced in the 109th Congress (S. 243, 
H.R. 760 and H.R. 6287) that incorporated the majority of the 
provisions of the Administration's proposal, and S. 243 passed the 
Senate. During the 110th Congress, a similar heritage area program 
bill, S. 278, has been introduced, and we look forward to continuing to 
work with Congress on this very important issue.
    With 37 national heritage areas designated across 27 states, and 
more heritage area legislative proposals in the pipeline, the 
Administration believes it is critical at this juncture for Congress to 
enact national heritage area program legislation. This legislation 
would provide a much-needed framework for evaluating proposed national 
heritage areas, offering guidelines for successful planning and 
management, clarifying the roles and responsibilities of all parties, 
and standardizing timeframes and funding for designated areas. Program 
legislation also would clarify the expectation that heritage areas 
would work toward self-sufficiency by outlining the necessary steps, 
including appropriate planning, to achieve that shared goal.
    The proposed Journey Through Hallowed Ground National Heritage Area 
would span a region of approximately 175 miles along Route 15 and part 
of Route 20, from Gettysburg, Pennsylvania through Maryland and West 
Virginia to Charlottesville, Virginia. The region is rich in historic 
and natural resources including the homes of Presidents Thomas 
Jefferson, James Madison, James Monroe, and Dwight David Eisenhower, 
and includes significant Revolutionary and Civil War sites. 
Revolutionary War sites include Willow Grove, the temporary 
headquarters of Generals Wayne and Muhlenberg; Point of Fork Arsenal; 
Castle Hill, home of colonial leader Dr. Thomas Walker; and the Hessian 
Barracks, used as a prison for British soldiers. Civil War sites 
include the battlefields of Gettysburg, Monocacy, Antietam, Brandy 
Station, and Chancellorsville, among others. The region is also crossed 
by numerous historic trails and byways relating to the Civil War and 
other scenic resources. All told, there are an estimated 7,000 
buildings in the area listed on the National Register of Historic 
Places, 13 National Historic Landmarks, and two World Heritage Sites.
    S. 289 would establish the Journey Through Hallowed Ground National 
Heritage Area and designate the Partnership as the management entity. 
The Partnership is a nonprofit corporation that has conducted a 
significant number of public meetings, an important requirement for 
evaluating local support for the designation of a national heritage 
area. The bill prescribes the duties of the management entity, requires 
the development of a management plan by the Partnership to be approved 
by the Secretary, and includes a 15-year authorization for up to $1 
million dollars per year not to exceed a total of $10 million. As this 
proposed heritage area would transverse four states, we strongly 
encourage the Partnership to represent the interests of all four 
states.
    If the committee chooses to move forward with this bill, the 
Department would like to work with the committee on some technical 
corrections to the bill. In addition, the Department would recommend 
that the bill be amended to include an additional requirement for an 
evaluation to be conducted by the Secretary, three years prior to the 
cessation of federal funding under this act. The evaluation would 
examine the accomplishments of the heritage area in meeting the goals 
of the management plan; analyze the leveraging and impact of 
investments to the heritage area; identify the critical components of 
the management structure and sustainability of the heritage area; and 
recommend what future role, if any, the National Park Service should 
have with respect to the heritage area.
    Mr. Chairman, that concludes my testimony and I am prepared to 
answer any questions that you or other members of the committee might 
have at this time.
                                 S. 443
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 443 a bill to establish the Sangre de Cristo 
National Heritage Area in the State of Colorado.
    Two grassroots organizations, the Los Amigos Caminos Antiguos 
Scenic and Historic Byway and the Sangre de Cristo NHA Steering 
Committee, collaborated on a 2005 study which found the Sangre de 
Cristo region appropriate for designation. Nevertheless, we recommend 
that the committee defer action on S. 443 and all other proposed 
heritage area designations until program legislation is enacted that 
establishes guidelines and a process for the designation of national 
heritage areas. Last year, the Administration sent to Congress a 
legislative proposal to establish guidelines and a process for 
designation. Bills were introduced in the 109th Congress (S. 243, H.R. 
760 and H.R. 6287) that incorporated the majority of the provisions of 
the Administration's proposal, and S. 243 passed the Senate. During the 
110th Congress, a similar heritage area program bill, S. 278, has been 
introduced, and we look forward to continuing to work with Congress on 
this very important issue.
    With 37 national heritage areas designated across 27 states, and 
more heritage area legislative proposals in the pipeline, the 
Administration believes it is critical at this juncture for Congress to 
enact national heritage area program legislation. This legislation 
would provide a much-needed framework for evaluating proposed national 
heritage areas, offering guidelines for successful planning and 
management, clarifying the roles and responsibilities of all parties, 
and standardizing timeframes and funding for designated areas. Program 
legislation also would clarify the expectation that heritage areas 
would work toward self-sufficiency by outlining the necessary steps, 
including appropriate planning, to achieve that shared goal.
    S. 443 would establish the Sangre de Cristo National Heritage Area 
(NHA) to recognize the outstanding and nationally significant natural, 
cultural, scenic and recreational resources found within the San Luis 
Valley of Colorado. The Department testified, in a hearing before this 
subcommittee, on S. 2037, a similar bill, in the 109th Congress.
    S. 443 contains safeguards to protect private property, including a 
prohibition on the use of federal funds to acquire real property. The 
bill proposes no new restrictions with regard to public use and access 
to private property and does not convey any water right or water 
restrictions to the federal government.
    S. 443 designates the Sangre de Cristo National Heritage Area Board 
of Directors as the management entity and outlines their duties. The 
Board represents a broad spectrum of the valley's residents, 
organizations, and agencies that were involved in the planning for the 
NHA. The bill also authorizes the development of a management plan 
within three years of enactment and authorizes the use of federal funds 
to develop and implement that plan. If the plan is not submitted within 
three years of enactment of this Act, the Heritage Area becomes 
ineligible for federal funding until a plan is submitted to the 
Secretary. Additionally, the Secretary may, at the request of the 
management entity, provide technical assistance and enter into 
cooperative agreements with other public and private entities.
    Exceeding 7,700 feet in elevation, the San Luis Valley is flanked 
by the Sangre de Cristo and San Juan Mountains and the geology and 
climatology within the valley have contributed to the formation of 
America's tallest Sand Dunes, part of Great Sand Dunes National Park 
and Preserve.
    The Rio Grande, the second largest river in North America, has its 
headwaters within the proposed NHA and twists its way through the San 
Luis Valley on a 1,900-mile journey, offering outstanding scenic and 
recreational opportunities, including trout fishing, rafting, and 
tubing. The availability of water in this largely arid and alpine 
environment tends to concentrate the abundant wildlife in highly 
visible and public preserves creating exceptional wildlife and bird 
watching opportunities.
    The area's rich natural resources include one National Park, three 
National Wildlife Refuges, one National Forest, two National Forest 
Wilderness Areas, six Areas of Critical Environmental Concern 
administered by the Bureau of Land Management, and 15 State Wildlife 
Areas. The cultural resources associated with the proposed national 
heritage are equally impressive. The San Luis Valley with its abundant 
natural resources may have been inhabited by native peoples including 
the Ute, Navajo, Apache, Tiwa, Tewa, Comanche, Kiowa, and Arapaho for 
more than 12,000 years.
    More recently, the San Luis Valley served as a crossroads for 
European exploration and settlement. Spanish explorers and Franciscan 
priests first entered the valley in 1776 in an attempt to strengthen 
Spain's weak hold on her remote empire. Captain Zebulon Montgomery Pike 
camped in the shadows of the Sangre de Cristo Range along the banks of 
the Conejos River and was captured by Spanish soldiers, arrested for 
trespassing on Spanish soil, and escorted to Mexico for questioning. 
His campsite is commemorated as a National Historic Landmark along with 
22 other properties that are listed on the National Register of 
Historic Places.
    Extensive Mexican land grants triggered the initial settlement of 
the area as families from northern New Mexico found enough water to 
support their sheep and water their crops. The proposed NHA contains 
the oldest continuously occupied town in Colorado, (San Luis), the 
oldest parish (Our Lady of Guadalupe), the oldest church (San Acacio), 
and the first water right (San Luis People's Ditch).
    The Hispanic cultural traditions associated with this first wave of 
European settlement can still be found in this isolated and 
predominantly agricultural region of Colorado where a version of 17th 
century Spanish is still spoken by about 35% of the population.
    The feasibility of recognizing the area's impressive cultural and 
natural resources as a national heritage area was the subject of a 
study produced in 2005 by two grassroots organizations, the Los Amigos 
Caminos Antiguos Scenic and Historic Byway, in conjunction with the 
Sangre de Cristo NHA Steering Committee.
    The feasibility study was largely based upon the results of a 
symposium held in the fall of 2002 where scientists, historians, and 
anthropologists from interested colleges as well as local ranchers, 
community leaders, and tribal elders presented papers on the history, 
natural resources and local culture of the San Luis Valley. The 
feasibility study identified four interpretive themes for the NHA and 
addressed the ten interim criteria that the National Park Service has 
developed for designation of national heritage areas. The study 
concluded that the area's cultural and natural resources met those 
criteria.
    All local governments within the proposed area have passed 
resolutions in support of the establishment of the proposed NHA. 
Moreover, State and federal land managers within the proposed NHA have 
expressed a willingness to work with the management entity in 
accomplishing their congressionally authorized conservation and 
education responsibilities.
    If the committee chooses to move forward with this bill, the 
Department would recommend that the bill be amended to include an 
additional requirement for an evaluation to be conducted by the 
Secretary, three years prior to the cessation of federal funding under 
this act. The evaluation would examine the accomplishments of the 
heritage area in meeting the goals of the management plan; analyze the 
leveraging and impact of investments to the heritage area; identify the 
critical components of the management structure and sustainability of 
the heritage area; and recommend what future role, if any, the National 
Park Service should have with respect to the heritage area.
    We also recommend that the bill be amended to remove paragraph 
5(d)(2) which would require 100 percent federal funding prior to 
completion of the management plan and to change the termination 
authority in Section 11 to expire 15 years after enactment. In 
addition, we would like to work with the Subcommittee to ensure that 
the management planning process is coordinated with the affected 
federal land management entities. These amendments would make S. 443 
consistent with other, similar, national heritage area establishment 
bills.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
Subcommittee may have.
                                 S. 444
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 444, a bill to establish the South Park National 
Heritage Area in the State of Colorado.
    Park County, Colorado prepared a feasibility study for the South 
Park National Heritage Area that determined that the South Park region 
is appropriate for designation. The Park Service is reviewing this 
feasibility study. Nevertheless, we recommend that the committee defer 
action on S. 444 and all other proposed heritage area designations 
until program legislation is enacted that establishes guidelines and a 
process for the designation of national heritage areas. Last year, the 
Administration sent to Congress a legislative proposal to establish 
guidelines and a process for designation. Bills were introduced in the 
109th Congress (S. 243, H.R. 760 and H.R. 6287) that incorporated the 
majority of the provisions of the Administration's proposal, and S. 243 
passed the Senate. During the 110th Congress, a similar heritage area 
program bill, S. 278, has been introduced, and we look forward to 
continuing to work with Congress on this very important issue.
    With 37 national heritage areas designated across 27 states, and 
more heritage area legislative proposals in the pipeline, the 
Administration believes it is critical at this juncture for Congress to 
enact national heritage area program legislation. This legislation 
would provide a much-needed framework for evaluating proposed national 
heritage areas, offering guidelines for successful planning and 
management, clarifying the roles and responsibilities of all parties, 
and standardizing timeframes and funding for designated areas. Program 
legislation also would clarify the expectation that heritage areas 
would work toward self-sufficiency by outlining the necessary steps, 
including appropriate planning, to achieve that shared goal.
    S. 444 would establish the South Park National Heritage Area to 
recognize the outstanding and nationally significant assemblage of 
natural, scenic, recreational and cultural resources found within South 
Park, which encompasses the largest mountain shortgrass grassland ever 
documented.
    S. 444 contains safeguards to protect private property owners, 
including a prohibition on the use of federal funding to acquire real 
property or any interest in real property. The bill imposes no new 
provisions to provide for public use and access to private property or 
any new liabilities to property owners. The bill also does not modify 
or enlarge the authority of the federal, State, or local governments to 
regulate land use.
    S. 444 would designate the Park County Tourism and Community 
Development Office, in conjunction with the South Park National 
Heritage Area Board of Directors as the management entity and outlines 
their duties. The Park County Tourism and Development Office has played 
a key leadership role in the conservation and interpretation of South 
Park's resources since the area was designated a Colorado State 
Heritage Area in 1997. The Board of Directors represents a broad 
spectrum of individuals, agencies, organizations and governments who 
have been actively engaged in the planning for the NHA. The bill 
authorizes the development of a management plan for the NHA within 
three years of the enactment of this Act, or risk becoming ineligible 
for federal funding until a plan is submitted to the Secretary.
    A feasibility study for the South Park National Heritage Area has 
been prepared by Park County, Colorado, which addresses the ten interim 
criteria used to assess National Heritage Area designations. That study 
determined that the area is appropriate for designation.
    South Park, a high mountain valley, or park, averages 9,000 feet in 
elevation and rises to more than 14,000 feet in the surrounding 
Mosquito and Tarryall Mountain ranges. These mountain ranges contain 
some of the most extensive bristlecone pine forests in North America 
and 41 rare plant species, three of which are found no where else in 
the world. The Tarryall Mountains also contain the Lost Creek Scenic 
Area National Natural Landmark, where geological forces have sculpted 
natural spires, pinnacles, narrow gorges, and subterranean channels 
that cause Lost Creek to disappear and reappear at least nine times on 
its cascading journey through the park.
    The mountainous region in the southwest corner of South Park also 
includes Porcupine Cave, one of the richest and most diverse 
paleontological sites in North America. At an elevation of 9,400 feet, 
Porcupine Cave contains a vertebrate faunal collection from the Middle 
Pleistocene Era in North America.
    Entering South Park from 10,000 foot Kenosha Pass, visitors 
experience one of the most dramatic and scenic views within the Rocky 
Mountains. Encompassing nearly 1 million acres, this unique high 
elevation steppe constitutes the most extensive montane shortgrass 
grassland ever recorded. South Park also contains a unique wetland 
ecosystem containing 15 rare plants, nine rare insects, and two 
globally rare plant communities
    Evidence of Native American habitation can be traced back nearly 
11,000 years to the end of the last ice age. South Park's high 
mountains, clear streams, expansive grasslands, and abundant wildlife 
also attracted pioneering settlers westward.
    South Park represented one of the last frontiers in the settlement 
of the continental United States, with hopeful prospectors arriving in 
the mid-19th century. Between 1859 and 1949, more than $250 million in 
gold and silver were produced within the Fairplay-Alma Mining District. 
At 14,157 feet, the Present Help is the highest mine ever to operate in 
the United States. Numerous other historic sites, mining towns, mills, 
and cultural landscapes exist within South Park including the Snowstorm 
Dredge, the last intact gold dredge in Colorado, currently on the list 
of Colorado's Most Endangered Places.
    Ranchers soon followed the miners into South Park, hoping to graze 
their cattle on the rich grasslands and capitalize on the hearty 
appetites of the miners. Many followed the famous Goodnight-Loving 
Trail up from Young County, Texas and eastern Colorado. The highest 
concentration of historic ranches can be found along the Tarryall River 
Corridor where a recent survey identified more than 32 historic sites 
associated with frontier ranching.
    An hour's drive from the Denver Metro area, South Park also offers 
abundant recreational opportunities. The South Park basin contains 
portions of two wilderness areas--Lost Creek and Buffalo Peaks--located 
on the Pike and San Isabel National Forests. The towering Mosquito 
Mountain range offers the only place in the United States where 
climbers can ascend four peaks above 14,000 feet in a single day. In 
addition, South Park contains over 45 miles of Gold Medal Trout streams 
available to anglers. At least six different driving tours have been 
developed to help travelers learn more about the cultural and natural 
heritage of South Park. Park County has identified four interpretive 
themes to assist communities and other partners with their education 
programs.
    Support for the South Park National Heritage Area comes from a 
broad spectrum of local, State and national governmental and non-profit 
organizations. In addition, all State and federal land management 
agencies with operations within South Park have endorsed the NHA and 
stated their willingness to work collaboratively with the management 
entity. In addition, a National Heritage Area Partnership has been 
established, including 21 distinct entities such as the Central 
Cattleman's Association and all local governments in Park County, to 
help achieve the Congressionally authorized conservation and education 
responsibilities.
    If the committee chooses to move forward with this bill, the 
Department would recommend that the bill be amended to include an 
additional requirement for an evaluation to be conducted by the 
Secretary, three years prior to the cessation of federal funding under 
this act. The evaluation would examine the accomplishments of the 
heritage area in meeting the goals of the management plan; analyze the 
leveraging and impact of investments to the heritage area; identify the 
critical components of the management structure and sustainability of 
the heritage area; and recommend what future role, if any, the National 
Park Service should have with respect to the heritage area.
    We also recommend that the bill be amended to remove paragraph 
6(a)(2) which would authorize the management entity to use federal 
funds to acquire conservation easements, paragraph 6(d)(2) which would 
require 100 percent federal funding prior to completion of the 
management plan, and to change the termination authority in Section 11 
to expire 15 years after enactment. In addition, we would like to work 
with the Subcommittee to ensure that the management planning process is 
coordinated with the affected federal land management entities. These 
amendments would make S. 444 consistent with other, similar, national 
heritage area establishment bills and would allow the management entity 
to use the limited funds available for purposes other than acquiring 
potentially costly land interests.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
Subcommittee may have.
                          S. 500 and H.R. 512
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 500 and H.R. 512, bills to establish the 
Commission to Study the Potential Creation of a National Museum of the 
American Latino Community (Commission) to develop a plan of action for 
the establishment and maintenance of a National Museum of the American 
Latino Community in Washington, D.C.
    The Department has no objection to the concept of establishing a 
commission to study the potential creation of a national museum for the 
American Latino community, and we suggest that a technical correction 
be made to S. 500 to make it consistent with the House-passed companion 
bill, H.R. 512. We note that other agencies, such as the Smithsonian 
Institution, may be able to provide more insight on the benefits as 
well as the significant budget implications of establishing and 
operating a separate museum in this time of constrained budgets. We 
suggest that the General Services Administration (GSA) rather than the 
Department of the Interior provide the administrative support, since it 
is our understanding that the GSA has an office set up to provide such 
services for other commissions.
    S. 500 and H.R. 512 would establish a Commission to study and 
report on the potential creation of a museum, the availability and cost 
of collections to be acquired and housed in the museum, possible 
locations, the organizational structure from which the museum should 
operate, and how to engage the American Latino Community in the 
development and design of a museum. The Commission would consist of 23 
voting and non-voting members appointed by the President and 
Congressional leadership. The legislation would require that the 
Commission convene a national conference on the museum no later than 18 
months after the commission members are selected and submit 
recommendations for a legislative plan to create and construct the 
museum based on the findings of its study no later than 24 months after 
the date of the Commission's first meeting. The bill would require the 
Secretary of the Interior to provide administrative services, 
facilities, and funds necessary for the operation of the Commission 
with funds made available prior to any meetings of the Commission.
    We suggest that S. 500 and H.R. 512 be amended to drop the 
requirement that the Secretary of the Interior provide administrative 
services, facilities, and funds necessary for the operation of the 
Commission as well as determine the daily rate of compensation for 
Commission members. The Department does not have available funds to 
provide such support. We suggest, alternatively, that the General 
Services Administration (GSA) provide such administrative support. We 
recommend a technical correction be made to S. 500 to specify the 
Committees to receive the report containing the Commission's 
recommendations for a plan of action and the report on issues.
    We appreciate that both S. 500 and H.R. 512 have been improved over 
the past versions of the legislation by providing the Commission with a 
full opportunity to consider a wide variety of potentially appropriate 
and worthy locations for the museum and directing the Commission to 
consult with the National Capital Planning Commission and the 
Commission of Fine Arts during such consideration. This requirement 
supports the purpose and follows guidelines provided by the ``Memorials 
and Museums Master Plan,'' described further below. Previous proposals 
contained provisions limiting the study to specific sites to be 
considered including locations on or near the National Mall.
    The location for a museum is of paramount importance to all federal 
agencies, including the Department of the Interior, the National 
Capital Planning Commission, and the Commission of Fine Arts. In 
September 2001, the Commission of Fine Arts, the National Capital 
Planning Commission, and the Department of the Interior through the 
Secretary's National Capital Memorial Advisory Commission, adopted the 
Memorials and Museums Master Plan (2M Plan) to guide the location of 
new memorials, museums, and related structures in the Nation's Capital. 
The 2M Plan states that future memorials and museums should be 
precluded from being located in ``The Reserve,'' an area described as 
the great cross-axis of the National Mall extending from the United 
States Capitol to the Lincoln Memorial and from the White House to the 
Jefferson Memorial. Congress concurred with the need to protect The 
Reserve from overdevelopment, calling this area ``a substantially 
completed work of civic art,'' and, on November 13, 2003, with 
enactment of amendments to the Commemorative Works Act, The Reserve was 
established by statute. The amendments also preclude commemorative 
works which are primarily designed as museums from being located on 
parkland in Area I or in East Potomac Park. In addition, the National 
Capital Planning Commission and the Commission of Fine Arts, in 
partnership with the National Park Service and other key federal and 
local agencies, are developing a National Capital Framework Plan that 
will facilitate use of some of the 2M Plan sites for nationally 
significant museums and memorials. Both the 2M Plan and the National 
Capital Framework Plan will provide useful guidance to the new 
Commission.
    The National Park Service is proud to be the steward of monuments 
along Virginia Avenue to commemorate Spanish General Bernardo de 
Galvez, ally to the American colonies during the American Revolution, 
and four South American heroes, Simon Bolivar, Jose de San Martin, 
Benito Pablo Juarez, and Jose Gervasio Artigas. All five statues were 
memorial gifts to the people of the United States from the people of 
Spain, Venezuela, Argentina, Mexico and Uruguay to recognize these 
liberators of Bolivia, Columbia, Ecuador, Peru, Venezuela, Argentina, 
Mexico, and Uruguay. These memorials celebrate the bonds between our 
nations; and while American Latinos have the opportunity to trace their 
ancestry back to these origins, there is no permanent historical 
context in Washington, D.C. that provides an opportunity to focus on 
the significant cultural events and contributions representing these 
citizens of the United States.
    We support, in concept, the proposal to further the education and 
interpretation of significant segments of American history and culture, 
however, we feel strongly that this Commission move forward in a way 
that does not contravene the thoughtful and comprehensive plans 
undertaken to govern the growth of the Nation's Capital or weaken the 
protections which Congress has provided to the National Mall.
    If the subcommittee decides to move S. 500 instead of H.R. 512, we 
recommend that the technical correction be made to S. 500 to make it 
consistent with the House-passed companion bill, H.R. 512. Mr. 
Chairman, this concludes my prepared testimony. I would be pleased to 
answer any questions you or other members of the subcommittee may have.
                                 S. 637
    Mr. Chairman, thank you for the opportunity to provide the 
Department of the Interior's views on S. 637, a bill to authorize the 
Secretary of the Interior to conduct a study to determine the 
suitability and feasibility of establishing the Chattahoochee Trace 
National Heritage Corridor in the states of Alabama and Georgia.
    The Department supports enactment of S. 637. Last year, the 
Administration sent to Congress a legislative proposal to establish 
guidelines and a process for designation. Bills were introduced in the 
109th Congress (S. 243, H.R. 760 and H.R. 6287) that incorporated the 
majority of the provisions of the Administration's proposal, and S. 243 
passed the Senate. During the 110th Congress, a similar heritage area 
program bill, S. 278, has been introduced, and we look forward to 
continuing to work with Congress on this very important issue.
    With 37 national heritage areas designated across 27 states, and 
more heritage area legislative proposals in the pipeline, the 
Administration believes it is critical at this juncture for Congress to 
enact national heritage area program legislation. This legislation 
would provide a much-needed framework for evaluating proposed national 
heritage areas, offering guidelines for successful planning and 
management, clarifying the roles and responsibilities of all parties, 
and standardizing timeframes and funding for designated areas. Program 
legislation also would clarify the expectation that heritage areas 
would work toward self-sufficiency by outlining the necessary steps, 
including appropriate planning, to achieve that shared goal.
    The study would focus on an area known as the Chattahoochee Trace, 
which lies in the lower Chattahoochee Valley in the states of Alabama 
and Georgia. This area includes eighteen counties, seven in Alabama and 
eleven in Georgia, which are located near or adjacent to the 
Chattahoochee River in the lower halves of the two states. The 
Chattahoochee Trace has an abundance of cultural, natural, 
recreational, and scenic resources. Much of the area's history revolves 
around the Chattahoochee River, which has long served as a food source, 
transportation route, and an engine for commerce. Centuries before the 
arrival of European settlers, the lower Chattahoochee Valley was 
inhabited by Native Americans that relied on the river for everyday 
life. The abundance of prehistoric archaeological sites indicates that 
humans lived along the banks of the river and its tributaries dating 
back thousands of years. From approximately 350 to 600 A.D., Kolomoki, 
near the present day town of Blakely, was one of the most populous 
settlements north of Mexico. Today, the seven mounds at Kolomoki are 
one of the impressive archeological sites that reflect upon the 
Chattahoochee Trace's ancient past.
    The area is layered with many other facets of American history. In 
the late seventeenth century Spanish monks built the mission and fort 
of Apalachicola on the west bank of the Chattahoochee River, in present 
day Russell County, Alabama, about fifteen miles south of Columbus, 
Georgia. In the early eighteenth century, merchants from French 
Louisiana began trading with the Native Americans in the lower 
Chattahoochee Valley, ushering in an era of great economic activity. In 
the years that followed, commercial enterprises flourished, including 
cotton plantations, textile mills, and riverboat companies. In the 
antebellum period, the river-borne cotton trade led to the emergence of 
a prosperous agricultural economy that was, regrettably, dependent on 
slave labor for its growth. During this era, the river served as the 
lower Chattahoochee Valley's outlet to the world, connecting the 
plantations in the region with the international cotton market via New 
Orleans and ultimately Liverpool, England.
    Heading into the twentieth century, hydroelectric power, which was 
first used in Columbus in 1882, emerged as an important industry in the 
lower Chattahoochee Valley. By the 1920s, dams on the Chattahoochee 
River near Columbus were providing electricity to thousands of 
customers, and the area quickly came to be recognized for its role in 
power generation. Columbus was so well-known for its hydroelectricity 
industry that it was dubbed the ``electric city'' in the early 1900s. 
One turbine at the Eagle and Phenix Mills powerhouse, installed in 
1898, still produces electricity today.
    The scenic beauty of the river has been showcased in such places as 
Columbus and Phenix City, Alabama, where recent redevelopment projects 
have emphasized a reorientation towards the river. A significant period 
of urban renewal and revitalization began in the mid 1990s and 
continues today. With these improvements, residents and businesses 
began moving back to formerly blighted areas. Examples of such 
municipal projects include the construction of the Columbus Riverwalk 
Park, the new Port Columbus Civil War Naval Museum, and the initial 
implementation of Phenix City's riverfront revitalization plan.
    Swimming, fishing, scenic drives, and strolls on the riverbank are 
just a few of the many recreational activities available to visitors to 
the Chattahoochee Trace. In the twentieth century, the creation of 
large lakes along the river further enhanced the Chattahoochee River's 
recreational opportunities. For example, Lake Eufaula, near Fort 
Gaines, Georgia, features 640 miles of shoreline. Last year, the lake 
attracted approximately 4.5 million visitors that engaged in such 
popular activities as camping, hunting, boating, and trophy fishing. 
The lake is managed by the U.S. Army Corps of Engineers and features 
several adjacent protected lands, including the Eufaula National 
Wildlife Refuge, Lakepoint State Park in Alabama, and Florence Marina 
and George T. Bagby State Parks in Georgia.
    Since 1970, the Historic Chattahoochee Commission (Commission) has 
been responsible for administering a variety of programs throughout the 
Chattahoochee Trace. For the first eight years of its existence, the 
Commission operated as an agency of the State of Alabama. In 1978, the 
Georgia General Assembly and the Alabama Legislature passed identical 
legislation to establish an interstate compact for operation of the 
Commission. Among its many functions, the Commission is responsible for 
promoting tourism, historic preservation, and recreational development 
throughout the Chattahoochee Trace. Through the years the Commission 
has undertaken a number of important projects to further its goals, 
including a historical markers program, development of theme-based 
tours, a photographic folk life project, production of educational 
materials, historical architectural surveys, and the distribution of 
preservation grants.
    The study that would be conducted under S. 637 is estimated to cost 
between $200,000 and $300,000. Mr. Chairman that concludes my 
testimony. I will be pleased to answer any questions you or other 
members of the committee may have.
                                 S. 817
    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
817, a bill to amend the Omnibus Parks and Public Lands Management Act 
of 1996 to provide additional authorizations for certain National 
Heritage Areas, and for other purposes. The Department supports the 
enactment of S. 817, but would like to work with the committee on 
several amendments to the bill.
    S. 817 has four main provisions. First, the bill expands the Rivers 
of Steel National Heritage Area by an additional county. Second, the 
bill makes several technical corrections to the Ohio & Erie Canal 
National Heritage Corridor including a name change for the area and the 
deauthorization of the Ohio & Erie Canal National Heritage Corridor 
Committee, whose duties have already been assumed by a non-profit 
management entity. Third, the bill names a new local coordinating 
entity for the Delaware and Lehigh National Heritage Corridor, it 
reauthorizes federal funding for the area for an additional five years, 
and gives the Secretary of the Interior several new authorities. 
Fourth, the bill increases the authorization ceiling for four existing 
national heritage areas by $5 million each and requires the Secretary 
to conduct an evaluation of each area three years before the cessation 
of federal funding.
    Currently, there are 37 National Heritage Areas designated across 
27 states with over 61 million people residing within one of these 
heritage areas. Responding to continued community and congressional 
interest in studying and designating new national heritage areas, the 
National Park System Advisory Board reviewed the program and prepared a 
report on the appropriate role of the National Park Service in 
supporting these areas. The Advisory Board's 2006 report, Charting a 
Future for National Heritage Areas, recognized the important role of 
national heritage areas in expanding conservation stewardship and in 
identifying and preserving significant historic resources. The report 
also recognized that national heritage areas need a legislative 
foundation that establishes a clear process for designation, 
administration, and evaluation.
    Among the Advisory Board's specific recommendations for program 
legislation was a provision to address the future of national heritage 
areas after an area reaches the end of its authorized funding level or 
time limits for funding. Before the publication of the Advisory Board 
report, most of the discussions on program legislation focused on the 
need to establish criteria for designating new areas and managing 
existing areas. The Advisory Board recognized that the National Park 
Service needed to take a more proactive approach by assisting national 
heritage areas in envisioning and planning for a sustainable future. 
For this reason, the report included a recommendation that the 
legislative foundation for the program require that ``three years prior 
to cessation of federal funding authority, a study be conducted to 
recommend the appropriate level of future National Park Service 
involvement in the National Heritage Area including but not limited to 
future federal funding''.
    In July 2006, the Administration transmitted to Congress a 
legislative proposal for national heritage area program legislation 
that included many of the recommendations of the Advisory Board's 
report. This proposal, which was introduced in the 109th Congress as 
H.R. 6287, incorporated the requirement for a study three years before 
cessation of funding in a slightly different format stating that the 
areas should ``conduct an evaluation and prepare a report on the 
accomplishments, sustainability, and recommendations for the future . . 
.''. The National Heritage Area Partnership Act (S. 243) introduced by 
Senator Craig Thomas during the 109th Congress and passed by the 
Senate, and a similar version of the bill (S. 278) recently introduced 
during the 110th Congress, also contain similar language. The 
Administration is currently working on a similar proposal for heritage 
area program legislation to be transmitted to Congress.
    In keeping with this recommendation for an evaluation, S. 817 
provides additional funding authorization for the Essex National 
Heritage Area, the Ohio & Erie Canal National Heritage Corridor, the 
Rivers of Steel National Heritage Corridor, and the South Carolina 
National Heritage Corridor, four areas that have almost reached their 
authorized $10,000,000 funding limit. Although the bill would not 
provide the areas with an extension of time beyond their sunset date of 
2012 for financial assistance, it would authorize an additional $5 
million per area. This extension of federal funding would allow for the 
continued operation and management of these national heritage areas, 
while providing the Secretary the necessary time to undertake an 
evaluation to assess the progress of the area in achieving its 
legislative purpose.
    These four national heritage areas have a commendable track record 
of partnership and project accomplishments. The Essex National Heritage 
Area commemorates 400 years of seafaring history and tradition and has 
enabled the Salem Maritime National Historic Site, a National Park 
Service unit that is only 9 acres in size, to play a far more prominent 
role in the region by harnessing the energy of volunteers in 
interpretation and fundraising.
    The Ohio & Erie Canal National Heritage Corridor preserves 110 
miles of towpath canal, historic communities, and what has been 
described as a ``biological mosaic of forest, marshes, streams, and 
lakes.'' Cuyahoga National Park, which encompasses 22 miles of the 
corridor, has taken advantage of the heritage area as a framework for 
large-scale regional collaboration to build partnerships and conserve a 
range of resources.
    The Rivers of Steel National Heritage Area celebrates the region's 
industrial legacy through its rich folklife traditions, opening doors 
to the past with driving tours, audio CDs, a local radio series, 
exhibits, and publications. This area celebrates a portrait of people 
working in one of the most important industries at the turn of the 
century, which helped form the economy of this country and continues to 
preserve this regional culture for the next generation.
    The South Carolina National Heritage Corridor helps rural 
communities thrive by promoting their place-based resources. For 
example, a new Heritage Corridor Farmers Association supports the 
agricultural heritage of the area by sponsoring regular promotions, 
tours and preservation initiatives.
    The proposed evaluation process would document these and other 
accomplishments and would give the areas the opportunity to develop a 
long-term plan for reducing or eliminating the future financial role of 
the National Park Service without penalizing the areas that were 
established in 1996 for changes in the agency's approach to evaluating 
the program.
    S. 817 has several other provisions. It would provide for a new 
local management entity for the Delaware and Lehigh National Heritage 
Corridor, replacing the existing Federal commission that has served as 
the local coordinating entity with a nonprofit corporation, the 
Delaware & Lehigh National Heritage Corridor, Incorporated. It also 
authorizes the new corporation to receive an additional five years of 
financial assistance. This recommendation comes in part from a 2006 
National Park Service technical assistance study entitled Connecting 
Stories, Landscapes and People: Exploring the Delaware & Lehigh 
National Heritage Corridor Partnership, which analyzed the strengths 
and challenges of the heritage area including critical ingredients for 
sustained success in the corridor. It identified options for the future 
including alternatives for a new management entity, the involvement of 
state, county and municipal governments, and the involvement of the 
National Park Service.
    The Delaware and Lehigh National Heritage Corridor has a strong 
record of accomplishments including the development of the 165-mile D&L 
Trail that forms the spine of the corridor, the innovative Corridor 
Market Towns program, the Two Rivers Landing project, which is a model 
of sustainable economic development, and the award-winning Lehigh Gap 
Wildlife Refuge reclamation project. We believe that the legislative 
language for the Delaware and Lehigh National Heritage Corridor should 
be amended to parallel that of the other four areas reauthorized in S. 
817. We also believe that the area should build on the existing study 
to develop recommendations on the role the National Park Service should 
play in the future including the reduction and elimination of federal 
funding.
    The Administration has no objection to the other provisions in the 
bill relating to a name change for the Ohio and Erie National Heritage 
Corridor and the deauthorization of the Ohio & Erie Canal National 
Heritage Corridor Committee, the addition of a county to the Rivers of 
Steel National Heritage Area, and other technical corrections to 
existing national heritage areas laws.
    The Department would welcome the opportunity to work with the 
committee to make some technical corrections to section 4 of the bill 
relating to the Delaware and Lehigh National Heritage Corridor. In 
addition, the Department would like to work with the committee on 
amending this bill to include a new section to make some conforming 
amendments to the National Coal Heritage Area that were inadvertently 
left out last Congress when S. 203 was enacted.
    In conclusion, the Administration notes the critical need for 
program legislation to establish a framework for the designation of 
national heritage areas and a process to evaluate the success of 
heritage areas in carrying out their approved management plan while 
also planning for their future as they approach the limits of their 
funding authorizations.
    Mr. Chairman, that concludes my testimony and I am prepared to 
answer any questions that you or other members of the committee might 
have at this time.

    Senator Salazar. Thank you very much, Mr. Wenk. What we'll 
do is we'll have rounds of questions for up to 5 minutes each.
    Let me ask you, first, a question with respect to the 
National Heritage Areas and this is specifically with respect 
to S. 443 and S. 444, the Sangre de Cristo and South Park 
National Heritage Areas.
    You have recommended in your testimony that we defer action 
on these two heritage areas, as well as other heritage areas, 
based on the need--as you assert--for the programmatic 
legislation which Senator Thomas has proposed, and which we 
passed unanimously in the Senate last year. And let me 
parenthetically say that I appreciate the leadership that 
Senator Thomas has shown on National Parks issues over the 
years.
    But what we have done with respect to, at least, these two 
pieces of legislation, is mirror the language that was used in 
the Thomas legislation, which we passed last year. In so doing, 
it was our hope that we would be able to get the Department of 
the Interior's NPS in support of our legislation. Do you have a 
problem with the language that was included in our legislation 
that mirrors the language that Senator Thomas proposed last 
year in his legislation?
    Mr. Wenk. We do not have a problem with the language that 
was included--our concern is that overall, programmatic 
language that would guide the, the studies and the 
establishment of Heritage Areas would be a useful tool in the 
future, as we move forward with evaluating Heritage Areas for 
inclusion into that system.
    Senator Salazar. Now, Mr. Wenk, last year I supported 
Senator Thomas's bill, we were able to get it through the U.S. 
Senate, unanimously. It is our hope that we'll be able to get 
that same legislation through the House of Representatives this 
year. And so, in the interim time, if we have that legislation 
moving, and we have this legislation moving, that essentially 
is consistent with each other--don't you think that that 
consistency there should impale the conclusion that they should 
be supported if the proposed Heritage Areas have the merit that 
would meet the standard of the National Park Service?
    Mr. Wenk. We recognize that you may choose to designate 
these areas, I think it does provide the consistency, we are 
hopeful that they will move in parallel, and that we will have 
overall programmatic legislation, as well.
    Senator Salazar. Thank you.
    As drafted, the Sangre de Cristo National Heritage Area 
bill requires that Federal funds be matched with local dollars 
after completion of the plan, but the area is a very poor area. 
Conejos and Costilla Counties on the southern part of this 
great valley--the San Luis Valley--are two of the four poorest 
counties in the United States of America.
    And so, my question to you is, given the economic realities 
of the San Luis Valley, and the economic circumstance relating 
to those counties, is it feasible--do you think--for the 
Department to take a second look at the matching fund 
requirement, prior to completion of the management plan?
    Mr. Wenk. We believe that the--currently, the way that the 
bills are established--we have potential for Federal funding 
over a 10-year period of time. During that 10-year period of 
time, it's our goal to collaborate with the management entity, 
and to look to have them reach a self-sufficiency.
    We're also looking in the program legislation to have an 
opportunity for a study within 3 years of that period of time, 
to see how we're doing, to look at how we're leveraging the 
money, to look at how we're using the funds that are coming in 
to assure that we--what the partnership will look like in the 
future, as we move forward.
    Certainly, it's in everyone's best interest if we 
established areas for them to be successful, and that's our 
intention--to work with the local community and the heritage 
area to make it successful.
    Senator Salazar. On the South Park National Heritage Area, 
you say in your testimony that the management entity not be 
allowed to use Federal funds to acquire conservation easements. 
Why is the Park Service recommending that this useful tool that 
has been so constructive in conserving lands across the West 
not be used here?
    Mr. Wenk. National heritage areas do not use Federal funds 
for the purchase of property rights. That's been a longstanding 
part of National Heritage Areas. And we believe that, they're 
set up to preserve the conservation, cultural heritage values, 
and that, we think that's the determinate that can be made by 
local communities and organizations through their work within 
the conservation or the Heritage Area, and that Federal funds 
should not be used for that purpose.
    Senator Salazar. And conservation easement sent from the 
point of view of the National Park Service is, would fall 
within that umbrella prohibition of using Federal funds for the 
acquisition of private property rights?
    Mr. Wenk. If you'll allow me to turn and make--to affirm 
that, I will. That's a correct statement. Conservation funds 
would be considered a property right that Federal funds cannot 
be used for.
    Senator Salazar. Okay.
    Thank you, Mr. Wenk.
    Senator Thomas.
    Senator Thomas. Thank you. The Mesa Verde boundary 
adjustment S. 126, what is the estimated cost of the 360 acres, 
do you know?
    Mr. Wenk. The 360 acres is in two parts, 324 of those acres 
are owned by, privately owned by the Henneman family, estimated 
cost is about $1.5 million for those. The other 38 acres, 
approximately, are owned by the Mesa Verde Foundation, those 
would be donated to Mesa Verde National Park.
    Senator Thomas. So, about a million and a half dollars.
    Mr. Wenk. Correct.
    Senator Thomas. Okay. How long do you estimate it will take 
to complete the study for the Columbia-Pacific National 
Heritage Area?
    Mr. Wenk. Typically, a study will take 2 to 3 years, and 
cost $200,000 to $300,000.
    Senator Thomas. Do you know how many studies the Park 
Service has conducted for National Heritage Areas? And how many 
times have you designated, or recommended non-designation?
    Mr. Wenk. I know that there's 35 studies that are currently 
underway, I know there has been the occasion where we have done 
a study, and it did not meet the criteria, but I believe that's 
five or less?
    We can submit it for the record, but there has been 
occasion where we have not recommended.
    Senator Thomas. Thirty-five you've just completed, or----
    Mr. Wenk. There's 35 studies that are underway.
    Senator Thomas. Do you know how many you've done over the 
years?
    Mr. Wenk. There are now 37 heritage areas that are--that 
have been designated.
    Senator Thomas. I see. Okay.
    Is there space on the Mall for the Latino Museum? Is that 
where it's being talked about? Or, what's the basis for that?
    Mr. Wenk. The determination had been made that the Axis 
that I talked about, the Reserve, from the White House to the 
Jefferson, the Capitol to the Lincoln Memorial, is basically a 
completed work of civic art. Certainly, we would recommend that 
areas be studied that do not include that Reserve for the 
museum, that is in response to the legislation that was enacted 
by Congress.
    Senator Thomas. So, it might still be on the Mall, though, 
is that what you're saying?
    Mr. Wenk. There are, the National Park, or, excuse me--the 
National Capitol Planning Commission, the Commission on Fine 
Arts, the National Park Service and others are all concerned 
about the location of facilities on the Mall. I know there have 
been other museums that have been recommended recently that 
have included recommendations for the Mall, I don't know what 
the final disposition of those recommendations are going to be.
    Senator Thomas. Okay.
    Mr. Wenk. But we're recommending it not be considered for 
the Mall.
    Senator Thomas. The Edison Electric Institute submitted a 
statement requesting legislation be allowed in the Hallowed 
Ground National Heritage Area for the potential for 
infrastructure installation and upgrades. Should the 
legislation be amended to allow for utilities and road 
construction? If so, can you provide specific language for that 
modification, or how would you handle that?
    Mr. Wenk. I'm not aware that the legislation would preclude 
those kind of developments. Those would have to be approved 
through, I believe, by local regulatory agencies that would 
look at those developments. I'm not aware, and if I'm in error, 
but I don't believe that's precluded within the designated 
area.
    Senator Thomas. So, it would be a local decision.
    Mr. Wenk. That's correct.
    Senator Thomas. I see.
    The National Heritage Reauthorization, S. 817, how does the 
National Park Service determine the amount of money that's 
necessary each year?
    Mr. Wenk. We try to balance the amount that is 
appropriated, we try to look at not only the historical 
allocations, but the work that they're doing, the requests that 
are made. We try to look at the totality of the circumstance of 
the National Heritage Area, as well as all of the other 
Heritage Areas that are in competition for that funding.
    Senator Thomas. But you don't know what's going to be 
allocated during the year, or----
    Mr. Wenk. Well, we try to make that decision at the 
beginning of each appropriations cycle, where we would 
designate the funds for each of the Heritage Areas.
    Senator Thomas. Yes.
    Mr. Wenk. It was based on previous funding, and how that 
funding's been used, and their request for new funds.
    Senator Thomas. If the bill authorizes it without study, it 
could be un-funded, is that right?
    Mr. Wenk. I may have misunderstood your question, I'm 
sorry, sir.
    Senator Thomas. If a bill sets it up for that year, that 
sets it up without being studied, then what do you do for the 
dollars?
    Mr. Wenk. The bills we are supporting for National 
Heritage, all have met the criteria of a National Heritage 
Area. The two other bills that are recommending studies, we 
have not, we have no determination of whether or not those meet 
the criteria of a National Heritage Area at this time.
    Senator Thomas. It's been known that they pass whether the 
Park Service recommends them or not.
    [Laughter.]
    Senator Thomas. Okay, well, in any event, would there be 
any cost to changing the name of the museum in Jackson Hole?
    Mr. Wenk. It does not affect the National Park Service, we 
don't have a position on that.
    Senator Thomas. Okay, thank you.
    Thank you, Mr. Chairman.
    Senator Salazar. Mr. Wenk, let me ask a couple of follow-up 
questions on the National Heritage Areas in Colorado.
    First, with respect to the Sangre de Cristo National 
Heritage Area--that's S. 443--that bill came through this 
committee last year, went through the Senate Energy Committee, 
and it was extensively commented on by the National Park 
Service at the time. As I recall, the testimony from the 
National Park Service is that it was a great proposal, or words 
similar to that.
    My question to you on the Sangre de Cristo National 
Heritage Area is whether it meets the suggested criteria for 
designation, as outlined by the Park Service.
    Mr. Wenk. We believe it meets the criteria, yes.
    Senator Salazar. I'll ask you the same question with 
respect to the South Park National Heritage Area--does it meet 
the suggested criteria of the National Park Service?
    Mr. Wenk. Yes, we believe it meets the criteria, as well.
    Senator Salazar. Thank you.
    Let me ask a question on the S. 126, the Mesa Verde 
expansion. I understand that the Park Service sees the 
acquisition of the Henneman property as a high priority. I also 
know there may be a short window of opportunity to complete the 
acquisition. If this bill passes, and I think you may have 
responded to the question that Senator Thomas asked you on this 
question already, but just to reinforce it--how much funding is 
needed in fiscal year 2008 to complete the acquisition of the 
Henneman property?
    Mr. Wenk. The estimated cost of the Henneman property is 
$1.5 million. There's an additional cost of about $45,000 in 
closing costs that would be estimated, as well.
    Senator Salazar. Are there opportunities for the Park 
Service to re-program existing funds to begin the process of 
acquisition?
    Mr. Wenk. We would look at this acquisition in terms of 
priorities of our land--or of the lands within the land 
acquisition funds that are provided in the overall priorities 
of the National Park Service.
    Senator Salazar. And within that process, is there a 
possibility that the funds could be identified to begin the 
acquisition?
    Mr. Wenk. The possibility is there, but I can not commit to 
that today, sir.
    Senator Salazar. Let me ask you a question with respect to 
the Latino Commission Museum build, S. 500. I understand that 
your only recommendation is to have the General Services 
Administration provide support for the Commission, instead of 
the Department of the Interior, my question is, why is that? 
And have you checked with the General Services Administration, 
and are they willing to assume that responsibility?
    Mr. Wenk. The reason is that, the GSA, or General Service 
Administration is, in fact, staffed, and provides that service. 
I have not checked with them, you know, specifically, if 
they're willing to take this on, but they have an office that, 
in fact, works with organizations to look at this, this 
opportunity.
    Senator Salazar. Has the Department of the Interior, in the 
past, provided those services with respect to other museums 
that have been established, such as the African-American 
Museum, or other museums on the Mall?
    Mr. Wenk. I know specifically, we did with the African-
American Museum.
    Senator Salazar. So, why is the National Park Service 
approaching this in a different position then it would, it did 
in the past, with respect to the other museums?
    Mr. Wenk. I'm not sure we didn't make the same 
recommendations, but I can get that for the record. We may have 
made the same recommendation at that time.
    The reason is, is we're not--that's not a, GSA has an 
office and a function that does that. We don't, obviously we 
have done it, and we can. But they're equipped to do it, and we 
believe that it may be a better way to proceed.
    Senator Salazar. You also said that at this point in time 
you were not recommending that a site be examined for this 
museum on the Mall. It's my understanding that the position 
that is vacant is one that had been contemplated for the 
National Arts and Industry Building, as a potential location. 
There were other museums, the African-American and Culture 
Museum, for example, that looked at that site, and decided to 
move elsewhere. So, is it possible that the Latino Museum could 
be located on the Mall?
    Mr. Wenk. I assume that is possible. We're recommending 
that it not be in the Reserve area. But, depending on the 
actions of Congress----
    Senator Salazar. And, is this a recommendation of the 
National Park Service and the Department of the Interior and 
Secretary Kempthorne?
    Mr. Wenk. The Department of the Interior had a Secretary's 
National Capitol Memorial Advisory Commission, they adopted the 
memorials and museum plan that was to guide the location of new 
memorials, museums and related structures on the Nation's 
Capitol. That plan states that the future memorials and museums 
should be precluded from being located on the Reserve, and I 
described the area previously. So, I believe that is the 
position of the Department, yes.
    Senator Salazar. Thank you, Mr. Wenk.
    Senator Martinez.

         STATEMENT OF HON. MEL MARTINEZ, U.S. SENATOR 
                          FROM FLORIDA

    Senator Martinez. Thank you, Mr. Chairman, I appreciate you 
holding this hearing today. Do I have a minute or two for me to 
say something? Or do you want to go----
    Senator Salazar. Whatever you want to do would be fine.
    Senator Martinez. Well, I think it's terribly important 
that you hold this hearing, and I appreciate it very, very 
much. I want to express my very strong support for S. 500, I 
was proud to co-sponsor the legislation with you last Congress, 
and I'm proud to do it again this Congress. The idea of 
creating a National Museum of American-Latino Heritage is an 
important one for our Nation.
    I would say that our history is one in which it would be 
difficult to overlook the significance of that history--
certainly your family is part of that history. My State is part 
of that history. The native State of your family is part of 
that history. And so, from the people of European descent who 
were the first to come into this continent--they were Spanish--
my State of Florida was a Spanish possession for many, many 
years, as I know New Mexico was, as well.
    And so, our history going back for many years has been 
there, but then now we have the more recent contributions of 
Hispanics who now constitute the largest minority group in this 
country, and I think recognition of that would be very, very 
important and fitting.
    I'm very proud to co-sponsor this with some excellent 
people on the House side, who have worked very diligently to 
see this happen as well, and I should also just take a moment 
here to highlight the significance of the fact that I'm proud 
to serve with you, Senator Salazar, in the Senate, you and I 
came in the Senate at the same time--I believe the first time 
in history that two Hispanics have been serving in the Senate 
at the same time. And now, shortly thereafter, we were joined 
by Senator Menendez. I'm very proud to serve with both of you, 
and I'm very proud to work with you on this important bill.
    Coincidentally, and interestingly enough, all three of us 
serve on this very committee, so at least we ought to get three 
votes out of the committee for it. So that should help.
    But I think it is something whose time has come. I'm 
looking forward to working with you, and others, to ensure its 
passage. Thank you.
    Senator Salazar. Thank you, Senator Menendez--or, Martinez. 
Menendez, Martinez, Salazar--let me just say that I, too, am 
equally proud of having the opportunity and privilege to walk 
on that blue carpet of the U.S. Senate floor with you, and to 
be able to refer to you as my good friend, and my colleague. 
And, I know your history well, too, and it's an important part 
of our history that we need to celebrate in terms of the 
diversity of America, and I appreciate all of the--your 
history, and the ability that you have brought to the U.S. 
Senate, as well, and I look forward to working with you on this 
bill.
    Senator Thomas.
    Senator Martinez. If I can just say one more thing, I'll 
never forget the first moments that you and I were on the 
Senate floor together, and we were kind of looking around in 
awe at that moment, that opportunity, but also reflecting on 
the significance to those who share our heritage at that moment 
we shared, so I'll always remember that.
    Senator Salazar. I remember, too, that both of us were 
assigned the corner desks--you in your caucus, and me in my 
caucus, I was number 100, and you were the most junior in your 
caucus, so in that big chamber, both of us had the corner 
desks. And since 2 years ago, we've moved up a little bit, so. 
That's the life of seniority in the Senate.
    Senator Thomas.
    Senator Thomas. No, thank you, I'm being left out of this 
conversation a little bit, so----
    [Laughter.]
    Senator Thomas. I have no more questions, thank you.
    Senator Salazar. Let me tell you that Wyoming will never be 
left out of the conversation, because there are ways in which 
we can hook you up to the diverse contributions that Hispanics 
have made into Wyoming, including the days where, I know 
families who were up there sheep herding for generation after 
generation in Wyoming, so--thank you, Senator Thomas.
    I have a couple of more questions for you, Mr. Wenk. I will 
check with Secretary Kempthorne with respect to this 
recommendation on the GSA versus the National Park Service 
being involved, it seems to me to be a difference in terms of 
how we've approached this, these possibilities in the past. At 
least my initial reaction is that it's not the right way to go 
on such a major initiative.
    Let me ask you a couple of other questions, if I may, Mr. 
Wenk, are there other museums or memorials located in 
Washington, D.C. that you are aware of that celebrate and 
commemorate the Hispanic history here in the United States?
    Mr. Wenk. Yes, there are. They're not on the Reserve. 
There's a, I believe, a total of five along Virginia Avenue, 
the Spanish de Goa Galvez, ally to the American Colonies during 
the American Revolution, and then for South American hero, 
Simon Bolivar, Jose de St. Martin, Juanito Pablo Juarez, and 
Jose Gervaso Artiguez.
    All five statues were memorial gifts to the People of the 
United States from the People of Spain, Venezuela, Argentina, 
Mexico and Uruguay to recognize their contributions.
    Senator Salazar. Are statues like that the same as museums, 
memorials or parks in the language of the National Park 
Service?
    Mr. Wenk. No, they're not the same. These memorials 
celebrate the bonds between our Nations. While they may provide 
an opportunity for American-Latinos to trace their ancestry 
back to these origins, there's no permanent historical context 
in Washington, D.C.
    Senator Salazar. Okay. If this Commission is established by 
this Congress, and the legislation is signed by the President, 
what kind of technical assistance would this Commission be able 
to expect from the National Park Service?
    Mr. Wenk. I will have to provide that for you. I may have 
it here in my notes, but I can't locate it quickly. But, 
certainly we would assist with the establishment, the 
management, the oversight and the work of the Commission, but I 
can provide you with a specific answer.
    Senator Salazar. Okay. Thank you, Mr. Wenk.
    On Senator Warner's bill on the Journey Through the 
Hallowed Ground National Heritage Area, once again, can you 
please clarify with respect to this particular bill--does the 
creation of the Heritage Area here, create new legal 
impediments to the construction of the new electric power 
lines, or other electric transmission facilities?
    Mr. Wenk. I believe that all of those things are still left 
to the State, local communities and regulatory agencies that 
would be involved.
    Senator Salazar. Okay. Mr. Wenk, if there are no other 
questions from either Senator Thomas or Senator Martinez, I 
think we are finished with your testimony.
    Mr. Wenk. Thank you for the opportunity.
    Senator Salazar. We very much appreciate you appearing 
before our committee, thank you very much, and we look forward 
to working with you on all of these bills.
    Mr. Wenk. Thank you.
    Senator Salazar. Thank you.
    At this point, what I'd like to do is to call up the next 
panel of witnesses, and while they are coming up, I will go 
ahead and just continue with the hearing by introducing them.
    I'd like to call the next panel of witnesses, they include 
Moctesuma Esparza, Dan Sakura with The Conservation Fund, Jerry 
Ostermiller with the Columbia River Maritime Museum, Augie 
Carlino with the Rivers of Steel National Heritage Area, Dennis 
Lopez with the Sangre de Cristo National Heritage Area Steering 
Committee, and Gary Nichols, the director of tourism and 
community development in Park County, Colorado.
    I'd like to ask each of you to please limit your remarks to 
no more than 5 minutes, your lights will go on with yellow, the 
yellow light that tells you, you have about 1 minute remaining, 
and then when the light turns red, that means that your time is 
up.
    Your complete statement will be included as part of the 
record, so you don't have to worry about not getting through 
your entire statement.
    I previously mentioned the two Colorado witnesses who will 
testify on this panel, and that's Gary Nichols and Dennis 
Lopez. I'd like to take a minute to introduce Moctesuma 
Esparza, who is here today to speak on behalf of the National 
Latino Museum.
    I have co-sponsored that bill with 24 of my colleagues, Mr. 
Esparza, here in the U.S. Senate, and they have included both 
the chairman of this committee, Senator Bingaman, and the 
ranking member of this committee, Senator Domenici. Perhaps it 
is of no surprise to anyone watching this hearing, because they 
both come from New Mexico, that Land of Enchantment.
    Mr. Esparza was born and raised in Los Angeles, Moctesuma 
has dedicated much of his career to promoting and documenting 
the American-Latino experience. I commend his efforts, and that 
of countless others. With over 45 million Latinos now residing 
in our Country, I believe it is time to have an institution in 
our Nation's Capitol, dedicated to honoring the rich, diverse 
National heritage, including the contributions of Latinos.
    And, with that, why don't we just move through the panel, 
starting with you, Mr. Esparza, and then we'll move from, to 
Mr. Sakura, and Ostermiller, Carlino, Lopez, and end up with 
Mr. Nichols.

        STATEMENT OF MOCTESUMA ESPARZA, FILM PRODUCER, 
                        LOS ANGELES, CA

    Mr. Esparza. Thank you very much, Chairman Salazar, ranking 
member Thomas, and Senator Martinez. I can't tell you what a 
pleasure it is to me to mention the names Martinez, Salazar, 
here in the U.S. Senate, and I know that Senator Menendez was 
here a moment ago, and it gives me great pleasure that we have 
now, representatives of American Latinos in this distinguished 
body.
    I'm very pleased to speak to you today. As has been 
mentioned, my name is Moctesuma Esparza, a wonderful American 
name, and by background, I'm a movie producer. I produce movies 
like the Milagro Beanfield War, Celina, Gettysburg, Gods and 
Generals, Introducing Dorothy Dandridge, Salma, Lord, Salma, 
Teddy Roosevelt and the Rough Riders, and a host of other 
movies about American history, and the heroes of America.
    I'm from Los Angeles, native of east Los Angeles, and I 
attended public schools there, graduating with a Master's from 
UCLA.
    I became involved in the film industry because I was 
extremely concerned about the negative images that were 
portrayed from Hollywood about Latinos. And I made a commitment 
that I would devote my life to transforming the image of 
Latinos to that of three-dimensional human beings that could be 
understood and appreciated, and certainly movies and television 
shows and books and other media are very important, so that 
Americans and American-Latinos can appreciate our contributions 
and who we are.
    However, I believe that a National institution that has the 
prestige and standing that is available to the millions of 
tourists who come to Washington is critical and fitting and 
something that must come to pass.
    By passing the National Museum of American-Latino Community 
Commission Act of 2007, Congress will take a very first step 
towards making that institution a reality. The bill will 
establish a Commission to study the potential creation of a 
National Museum of American-Latino Community. Those Commission 
members, selected by the President, members of Congress, will 
be tasked with studying the impact of that museum, developing a 
plan, fundraising plan, and prefacing the recommendations for 
action by Congress.
    The lack of Latino-focused institutions located in our 
Nation's Capitol has been a great concern to our community. 
While these museums that are here now purport to reflect the 
history, culture and achievements of the people of the United 
States, it is true that very few of them have ever had any 
permanent exhibits--or even temporary ones--representing the 
American-Latino community's role in our history, and 
participation. And I can say that, also, having been a member 
of the Smithsonian's Institute Latino Advisory Board, and I saw 
the meager support that was provided that center.
    Currently, in Los Angeles, and many parts of the country 
there are many thriving cultural and historic institutions that 
are laying down the groundwork for what can be a future, 
National museum. These local and regional institutions--I 
happen to be the chairman of the board of the Latino Theater 
Company that is planning a cultural center in Los Angeles--have 
gathered support from their local communities and governments, 
and my work with HBO, I've witnessed, firsthand, the 
willingness of corporations and mainstream entities to bring 
attention to the diverse American experience.
    As we engage in this discussion, I think it's important to 
highlight the interests of corporate America, who I know will 
support this museum.
    Even with the many challenges and opportunities facing 
Latino community, the importance of a proper representation of 
Latinos and their contributions in our Nation's foremost 
institutions cannot be underestimated.
    Given the continuing crisis in educational attainment for 
American-Latinos, and that we are the largest minority in this 
country, providing a National venue highlighting our 
contributions to the creation and the building of our country 
would be inspirational to our youth, and foster appreciation 
and goodwill from the rest of Americans.
    A little known fact is that the very birth of the United 
States was made possible by the military and financial 
contribution of 9,000 Hispanic-American troops--a larger 
contingent than George Washington had in the Continental Army, 
who fought under the command of Edward Bernardo de Galves, 
defeating the British throughout the Mississippi River Valley, 
past St. Louis to St. Joseph and Lake Michigan, and also in 
Mobile, Pensacola and Baton Rouge.
    The French Navy in Lafayette were operating under Galves' 
direct command, and millions of dollars that funded General 
Washington in the final push, came from Latinos. Twenty-five 
hundred dollars were collected in Los Angeles by Father Hanupa 
Lucera, who sent that money to George Washington.
    The final victory at Yorktown was made possible by 
Hispanics, who shed their blood and gave their money to found 
this Country. Money was collected by Cuban women in Havana, who 
gave their jewelry for George Washington's troops. Troops came 
from throughout Latin America, from what is now the United 
States, the Southwest, Mexico--this country is ours, we are its 
founders, we gave our money and blood.
    Little is known of American-Latino's contribution to the 
creation of 21st century American society. Our contribution to 
women's rights--far before the Suffrage Movement--the Treaty of 
Guadalupe Hidalgo gave equal property rights to all women. The 
California Constitution of 1849 propounded by Latinos gave 
equal citizenship, irrespective of race. Equal public schools, 
irrespective of race was the product of the desegregation 
school suit of Mendes v. Westminster in 1945, years before 
Brown v. Board of Education. The defeat of anti-miscegenation 
laws with the case of Perez v. Sharp in 1949--all of these 
things--thank you very much--are the product of our 
contribution, and these are just a few facts.
    I believe that this legislation will play an important role 
in American history, and it will prevent the kind of tremendous 
miscarriage that is about to occur--Ken Burns is about to make 
a 14-hour mini-series of the second World War--where we sent 
half a million soldiers--and there will not be one mention of 
American-Latino contributions to the second World War. Were 
there a museum like this, that kind of an oversight could not 
have occurred.
    I greatly encourage you to pass this, and I greatly support 
this effort. Thank you very much.
    Senator Salazar. Thank you, Mr. Esparza.
    Mr. Sakura.

STATEMENT OF DAN SAKURA, DIRECTOR OF GOVERNMENT RELATIONS, THE 
                CONSERVATION FUND, ARLINGTON, VA

    Mr. Sakura. Mr. Chairman, ranking member Thomas, members of 
the subcommittee--thank you for the opportunity to testify 
today in support of S. 126, the Mesa Verde National Park 
Boundary Expansion Act.
    My name is Dan Sakura, I serve as the director of 
government relations for The Conservation Fund, a National non-
profit land conservation organization, dedicated to protecting 
America's land and water legacy for current and future 
generations.
    The Conservation Fund works with landowners, Federal and 
State agencies, non-profit organizations, businesses, and other 
partners to conserve historic sites, fish and wildlife habitat, 
working landscapes, and community open space.
    Mr. Chairman, The Conservation Fund expresses our 
appreciation to you and Senator Allard, for your strong 
leadership and vision to help pass S. 126, to expand the 
boundary of Mesa Verde National Park to include two critically 
important tracts of land.
    By expanding the Park boundary by approximately 360 acres 
at the park entrance, S. 126 will enable the Park Service to 
protect a 324 acre tract of privately-owned land, with 
important archeological and natural resources along the Point 
Lookout Road Corridor, the main access for the Park.
    In conjunction with the Mesa Verde Foundation, S. 126 will 
also authorize the Park Service to accept a donation of a 38-
acre tract of land as a site for a new collection and research 
center, and visitor information center. These facilities will 
provide the public with expanded opportunities to learn about 
the parks internationally significant cliff dwellings, and the 
rich cultural heritage of the ancestral Puebloan people.
    I am very pleased that Mr. Justin Estoque, a board member 
of the Colorado-based Mesa Verde Foundation, is in attendance 
today. Mr. Estoque is available to answer questions that you, 
or the subcommittee may have, regarding the Foundation's work, 
and support for this legislation.
    Mr. Chairman, I ask that a letter of support from the 
Foundation be included in the record.
    The Conservation Fund is working very closely with the 
Henneman family to conserve their 324-acre tract, which is 
located outside of the Park boundary, adjoining parklands, and 
the 38-acre Foundation property. The Henneman's cherish their 
land. They have served as great stewards of the cultural and 
natural resources on their property, and they wish to have 
their lands conserved for future generations as part of the 
park.
    Because of the land's proximity to U.S. Highway 160, it 
faces significant development threats, including possible 
development of their property as a recreational vehicle park. 
For several years, the family has been working closely with the 
Park Service to sell their land for inclusion within the park. 
Because of financial reasons, unfortunately, the family must 
sell the property this year. Accordingly, The Conservation Fund 
has entered into a contract to acquire the tract by the end of 
the year, contingent upon the passage of boundary expansion 
legislation, and the availability of funding.
    Because of the short time period required to complete this 
acquisition, we respectfully request that Congress approve S. 
126 as soon as possible. Besides preserving the heritage of 
ancestral Puebloan peoples, and Mesa Verde's rich natural 
resources, S. 126 would conserve the park's outstanding scenery 
on the approach into the park, and along the Point Lookout 
Road.
    Our Congress added land in 1931, ``for the purpose of 
protecting the scenery along the Point Lookout Road.'' In 
keeping with the decades of partnerships between the National 
Park Service and non-profits, the Mesa Verde Foundation 
launched an effort to address critical needs at the park, to 
better manage the park's collection of priceless artifacts, and 
to provide the public with expanded opportunities to learn 
about the park's rich history.
    Several years ago, the Foundation committed to donating a 
38-acre tract to the Park Service for a new building to house a 
new federally-funded collections and research center, and a new 
Foundation-funded visitor center at the entrance of the park. 
The proposed new visitor center will provide visitors with 
improved opportunities to learn about Mesa Verde, plan their 
trip in the park, and purchase tickets for guided tours.
    Because S. 126 would allow the Foundation to donate the 
land to the park to support the construction of the building 
components, the bill is--your bill, with Senator Allard, is a 
critical step forward--for both the collections and research 
center, and visitor center.
    Mr. Chairman, this past year, Mesa Verde National Park 
celebrated the 100th anniversary of the establishment of the 
park. Over 575,000 people visited the park last year to mark 
its Centennial. With the bipartisan leadership of Colorado's 
congressional delegation, and the support of this committee, 
many more visitors will be able to experience the same sense of 
awe, respect and wonder.
    S. 126 is in keeping with over 100 years of congressional 
leadership to conserve Mesa Verde, and it will set the stage 
for the next 100 years for the park to be at the forefront of 
our Nation's commitment to honor our past by conserving our 
heritage for future generations.
    Mr. Chairman, I urge the committee and the Congress to pass 
this important piece of legislation, I would be pleased to 
answer your questions and provide additional information to 
you. Thank you.
    [The prepared statement of Mr. Sakura follows:]
  Prepared Statement of Dan Sakura, Director of Government Relations, 
                         The Conservation Fund
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify in support of S. 126, the Mesa Verde National 
Park Boundary Expansion Act.
    I serve as the Director of Government Relations for The 
Conservation Fund, a national, non-profit land conservation 
organization, dedicated to protecting America's land and water legacy 
for current and future generations. We work with landowners, federal 
and state agencies, non-profit organizations, businesses and other 
partners to conserve historic sites, wildlife habitat, working 
landscapes, recreational areas and community open space.
    Mr. Chairman, The Conservation Fund (TCF) expresses our 
appreciation to you and Senator Allard for your strong leadership and 
vision to pass S. 126 to expand the Mesa Verde National Park boundary 
to include two critically-important tracts of land in the Park. By 
expanding the boundary by approximately 360 acres at the Park entrance, 
S. 126 will enable the National Park Service (NPS) to protect 324 acres 
of privately-owned land with important archeological and natural 
resources along the Point Lookout Road corridor.
    In conjunction with the vision and work of the Mesa Verde 
Foundation, S. 126 will also authorize the NPS to accept a donation of 
a 38-acre tract of land as the site for a new Collection and Research 
Center and Visitor Information Center. These facilities will provide 
the public with expanded opportunities to learn about the Park's 
internationally significant cliff dwellings and the rich cultural 
heritage of the ancestral Puebloan people.
    I am pleased that Mr. Justin Estoque, a board member of the 
Colorado-based Mesa Verde Foundation, is in attendance today. The Mesa 
Verde Foundation is a non-profit organization dedicated to supporting 
the mission of Mesa Verde National Park. Mr. Estoque is available to 
answer questions that you or the Subcommittee may have regarding the 
Foundation's work and support for this legislation.
    Thanks to the support of Colorado's Congressional delegation, TCF 
has had the opportunity to work with landowners, the NPS and other 
partners to conserve lands at the Black Canyon of the Gunnison National 
Park, the Sand Creek Massacre National Historic Site, Rocky Mountain 
National Park and other sites in Colorado.
    Today, we are grateful for the opportunity to work in partnership 
with the Henneman family and NPS to conserve the family's 324 acres of 
land at Mesa Verde National Park for future generations. The Henneman 
tract is located outside the Park boundary, near the Park entrance, and 
adjoins Park lands and the 38-acre tract owned by the Foundation.
    The Henneman family has owned this tract for over 30 years. The 
Hennemans cherish their land and have served as excellent stewards of 
its archeological and natural resources and scenic values. Their land 
features important wildlife corridors for mule deer and other species, 
unique pinon juniper forests and the largest known colony of Gray's 
Townsend daisy, a globally imperiled species.
    Because of the land's proximity to U.S. Highway 160, it faces 
significant development threats, as Montezuma County has zoned the 
property for ten acre lots. While the family has not subdivided the 
property, it has received an offer from a third party to buy the 
property for development as a commercial recreational vehicle park.
    Unfortunately, the Henneman family faces a difficult dilemma. For 
several years, the family has been working to sell the land to the NPS. 
Because of financial reasons, the family must sell the property this 
year. Accordingly, TCF has entered into a contract to acquire the tract 
by the end of the year, contingent upon passage of boundary expansion 
legislation and the availability of funding.
    By authorizing the NPS to acquire the property, S. 126 provides a 
solution for the family to conserve their property as part of the Park. 
This legislation gives the family another option, besides selling the 
property to a developer. Because of the short time period to complete 
the acquisition, we respectfully request that the Congress approve S. 
126 as soon as possible. This will provide Congress with the 
opportunity to appropriate the necessary funds for the project this 
year and enable the NPS to acquire the property.
    If enacted, S. 126 will provide the public with substantial 
benefits. It would further the Park's mission to preserve and protect 
the heritage of ancestral Puebloan peoples along with Mesa Verde's 
wildlife and other natural resources. In addition, it would provide 
Park visitors with an opportunity to enjoy the scenery on the approach 
into the Park and along Point Lookout Road, once inside the Park. 
Visitors traveling west on U.S. 160 towards the Park can see Point 
Lookout, one of the Park's most prominent features. Because the 
Henneman tract is located at the base of Point Lookout, a commercial 
development would negatively impact the view looking towards the Park.
    Upon entering the Park, visitors proceed on Point Lookout Road to 
the Mancos Valley Overlook. Over 75 years ago, Congress added lands in 
this area to the Park ``for the purpose of protecting the scenery along 
the Point Lookout Road.'' Thus, S. 126 would further a Park purpose to 
protect the scenery along the road corridor. This legislation would 
also promote the local economy by ensuring continued opportunities for 
high quality visitor experiences at the Park.
    For over one hundred years, Mesa Verde's rich cultural history has 
captured the public's imagination and generated strong support in 
Congress and the non-profit community. The discovery of Mesa Verde's 
cliff dwellings, in the 1880s, and the ensuing publicity about the loss 
of priceless archeological treasures prompted the Colorado Federation 
of Women's Clubs and the Colorado Cliff Dwellings Association to lead a 
successful campaign to establish the Park. Soon after Congress passed 
the Antiquities Act of 1906, Congress passed legislation to establish 
Mesa Verde National Park as America's tenth National Park and the 
nation's first Park dedicated to preserving archeological resources.
    In keeping with decades of partnerships with the non-profit sector 
to preserve the Park's resources, the Mesa Verde Foundation launched an 
effort to address a critical need at the Park to better manage the 
Park's collection of artifacts and to provide the public with expanded 
opportunities to learn about the Park's history and story of Native 
Americans who lived at Mesa Verde centuries ago and who live in the 
Four Corners region today.
    Several years ago, the Foundation committed to donating a 38-acre 
tract to the NPS for a new building to house a new federally-funded 
Collections and Research Center and a new Foundation-funded Visitors 
Center at the entrance to the Park. As a result of this commitment, 
both components are currently under design in anticipation of the 
donation. The Foundation plans to donate the land when construction 
funds for the Collections and Research Center are appropriated in 
future fiscal years. The proposed new Visitors Center will provide 
visitors with improved opportunities to learn about Mesa Verde, plan 
their trip in the Park and purchase tickets for guided tours. 
Currently, visitor information facilities are located 15 miles inside 
the Park at the Far View Visitor Center.
    Unfortunately, the NPS does not have the authority to accept the 
donation of the land, which is outside the Park boundary. S. 126 would 
allow the Foundation to donate the land to the NPS to support the 
construction of both federal and Foundation building components. S. 126 
is a critical step forward in the process for the both the Collections 
and Research Center and the Visitor Center, which will provide for the 
protection of the Park's collection and introduce visitors to this 
magnificent Park.
    Mr. Chairman, this past year, Mesa Verde National Park celebrated 
the 100th anniversary of the establishment of the Park. Over 575,000 
visitors enjoyed the Park last year. With the bipartisan leadership of 
Colorado's Congressional delegation for this bill, millions more 
visitors will be able to experience the same sense of awe, respect and 
wonder.
    S. 126 is in keeping with over 100 years of Congressional foresight 
to pass legislation to conserve Mesa Verde, one of our nation's and the 
world's richest archeological and cultural treasures. This legislation 
will set the stage for the next 100 years for Mesa Verde to be at the 
forefront of our nation's commitment to honor our past by conserving 
our heritage for future generations.
    Mr. Chairman, I would be pleased to answer your questions and 
provide additional information to you and the Subcommittee.

    Senator Salazar. Thank you, Mr. Sakura.
    Mr. Ostermiller.

   STATEMENT OF JERRY OSTERMILLER, PRESIDENT, COLUMBIA RIVER 
                  MARITIME MUSEUM, ASTORIA, OR

    Mr. Ostermiller. Mr. Chairman and distinguished members of 
this committee, thank you for the opportunity to provide 
testimony on S. 257.
    I, and the communities I represent, want to respectfully 
urge the Senate to pass this legislation. Mr. Chairman, for 
nearly 20 years, I have served as the executive director of the 
Columbia River Maritime Museum, a 501(c)(3) educational 
institution, which was the first nationally-accredited maritime 
museum on the west coast.
    I am a past president of the National Council of American 
Maritime Museums, a member of the Oregon State Heritage 
Commission, a member of the Oregon State Sesqua Centennial 
Commission, and an accreditation reviewer for the American 
Association of Museums.
    Serving in these capacities has given me national 
perspectives regarding the significance of historical sites, 
and living and working in the Northwest has convinced me that 
the Columbia-Pacific Area is a spectacular and unique part of 
this country. Breathtaking in its physical beauty, and 
nationally significant in its history, and worthy of a National 
Heritage Areas designation.
    I'm here today to respectfully ask that Congress authorize 
a feasibility study to determine if a Columbia-Pacific National 
Heritage Area should be established in the region where the 
Great River of the West meets the Pacific Ocean.
    I am representing more than 100 organizations, businesses 
and citizens of our communities who have voiced support, or 
written to both the Oregon and Washington congressional 
delegations requesting this legislation.
    The list of Oregon supporters is extensive, and includes 
State Governor Kulongoski, the cities of Astoria, Seaside, 
Warrenton, Gearhart, the government of Clatsop County, Oregon 
State Parks and Recreations, Port of Astoria, the Astoria-
Warrenton Chamber of Commerce, Seaside Chamber of Commerce, and 
strong regional businesses, such as Astoria Builder's Supply, 
New Northwest Broadcasters, and the Bank of Astoria.
    The supporters from the Washington side of the Columbia 
River, include the cities of Long Beach, Ilwaco, Ocean Park, 
Cathlamet, the Port of the Peninsula, the Washington State 
Historical Society, Washington State Parks and Recreation 
Commission, and leading businesses, such as Sentry Markets and 
Shorebank Pacific.
    The designation as a National Heritage Areas is highly 
regarded by our communities as it signals national recognition. 
The many community supporters I'm here to represent, believe 
our heritage is of such National significance that the 
Columbia-Pacific region will easily qualify for designation as 
a National Heritage Area.
    This designation will certainly attract entrepreneurs, 
investors, and business owners, as well as vacationers, family 
groups and retirees, all of which will enhance our local, 
sustainable economic development.
    But more importantly, it will allow us to celebrate and 
share the area's diverse cultural, and historical significance, 
as well as the awesome natural beauty and grandeur of the 
Columbia-Pacific, with all of the citizens of the Nation.
    This idea began as a conversation among a few community 
leaders, and quickly advanced into frequent discussions at 
rotary clubs, city council meetings, chambers of commerce 
boards and visitor bureau's meetings. The momentum for this 
study has launched growing enthusiasm and the personal 
involvement of the people who live in our towns and surrounding 
communities, as they realize the merits of this designation.
    Their pride and enthusiasm has inspired a major commitment, 
to pursue the rigorous process of a thorough feasibility study. 
To move us closer to this goal, in early March 2007, our 
steering committee, ``Destination: the Pacific,'' hosted a 
multi-community, bi-State workshop, where virtually every 
community, business and civic leader in three counties came 
together. For 2 days, 80 community leaders all worked as 
neighbors and partners to develop plans that would encourage 
the retention of community character, and would enhance 
connections to our cultural and natural resources. Eleven teams 
representing seven communities and three large counties in the 
two adjoining States, along with the National and State parks, 
now have plans for the future that embrace the concepts and 
themes consistent with a National Heritage Area. More 
importantly, we have developed an even greater pride and 
appreciation for the National significance of the Columbia-
Pacific Region.
    For over 6,000 years, the Columbia River has served as a 
major conduit for commerce on the west coast, and today, 80 
percent of all of the grain that is exported from the United 
States to feed the world, is shipped by this great river. The 
location of the confluence of the Columbia River and the 
Pacific Ocean was the last great strategic mystery of the New 
World, sought by Russia, Spain, and Great Britain, but it was 
first discovered and claimed by American Captain Robert Gray 
and named after his ship, Columbia Rediva in 1792.
    It is here at the mouth of the Columbia River that the 
focus of President Thomas Jefferson's greatest ambition to 
expand the new country to the Pacific Ocean was expressed by 
the Lewis and Clark Expedition when he established Fort Clatsop 
in 1805.
    The Columbia River was the economic engine that jumpstarted 
our newly-emerging Nation, following the Revolutionary War, 
when ship owners of Boston created the Golden Triangle of 
Trade, trading first from this region, shipping them to China, 
and then bringing porcelain, silks, tea and other riches back 
to New England.
    Astoria became the oldest American city west of the Rockies 
when John Jacob Astor established a foothold that ultimately 
resulted in a present, international boundary between the 
United States and Western Canada, and it is no wonder, then, 
that NASA named the first great ship of our Nation's space 
shuttle fleet Columbia in honor of the National significance of 
the great river in its role of fulfilling America's destiny in 
the Pacific.
    In conclusion, the communities of the Columbia-Pacific 
Region are respectfully asking that Congress--both the House 
and Senate--pass this legislation so that the President can 
sign it into law.
    Mr. Chairman, this concludes my testimony, and I, too, will 
be happy to answer any questions.
    Senator Salazar. Thank you, Mr. Ostermiller.
    Mr. Carlino.

   STATEMENT OF AUGUST R. CARLINO, PRESIDENT AND CEO, STEEL 
INDUSTRY HERITAGE CORPORATION AND THE RIVERS OF STEEL NATIONAL 
                  HERITAGE AREA, HOMESTEAD, PA

    Mr. Carlino. Mr. Chairman, Senator Thomas, and other 
distinguished members of the subcommittee, my name is August 
Carlino, and I am president and chief executive officer of 
Steel Industry Heritage Corporation. We are the management 
entity of the Rivers of Steel National Heritage Area based in 
Homestead, Pennsylvania.
    I appreciate the opportunity to provide testimony to the 
committee today, and I urge your passage of S. 817. In the 
audience today are four of my colleagues who have language in 
this legislation, and ask permission for their testimony to be 
submitted to the record.
    I want to thank, also, Senators Voinovich, Kennedy and 
Specter and their staffs for their leadership in drafting this 
legislation, and your staff which worked with them. I also wish 
to thank the other co-sponsors of the bill.
    Each National Heritage Area in S. 817 has been designated 
with its own organic act, and their management plans are the 
cornerstone document for how they function, and how their 
programming is carried out. With these management plans, there 
is often limited timeframes focusing on a period of time, but 
they are not meant to be interpreted as the limitation of 
funding for the NHA. While the NHA is authorized in perpetuity, 
the management plan sets the stage for work to be accomplished 
over a finite period of time.
    In 2006, the National Park System Advisory Board issued a 
report, ``Charting the Future for National Heritage Areas.'' 
The Advisory Board stated, ``National Heritage Areas represent 
a significant advance in conservation and historic 
preservation,'' and made several recommendations including the 
need of legislative foundation, and the development of policies 
and performance measures to evaluate NHAs. It stressed the need 
for long-term commitment to NHAs, saying that a permanent home 
for them should be created within the National Park System.
    Overall, the Advisory Board recognized that National 
Heritage Areas are new, innovative conservation and 
preservation strategies, that encourage partnerships fostered 
by each NHA.
    This was a groundbreaking achievement. Up to that point, 
NHAs were looked at as being unwanted orphans of the National 
Park Service, misunderstood, and considered financial burdens. 
This attitude might have historic roots with the Park Service, 
which has always viewed new programs as problems, before fully 
embracing them.
    Other than the grand Parks like Yellowstone, Yosemite or 
the Grand Canyon, early in the Park Service life, it did not 
include other nationally-significant places in America. Yet 
Congress and past Presidents have expanded and evolved the role 
of the NPS and its system into what it is today.
    Each change in the system, whether adding new National 
battlefields, National scenic highways or cultural heritage 
sites was met with resistance. They are feared, not only as 
financial drains on the Park Service, but also as thinning of 
the blood.
    At times, that same terminology has been used to describe 
National Heritage Areas, that is, until of the publishing of 
the Advisory Board Report.
    S. 817 takes components of the Advisory Board's 
recommendations, and couples them with other language 
introduced in past bills that have proposed program 
legislation. I believe the bill, if passed, will represent the 
beginning of the institutionalization of steps necessary for 
evaluations and for reauthorization. Without S. 817, these five 
NHAs could most likely go out of business. Moreover, Congress 
will have permitted these NHAs to expire based on an arbitrary 
deadline, not on the effectiveness or performance of their 
work.
    S. 817 also establishes an evaluation and an analysis 
process, as called for in the Advisory Board's report. The Park 
Service has developed an evaluation process that is used with 
other Heritage Areas, including the Delaware and Lehigh 
National Heritage Corridor, and the other four Heritage Areas 
in the legislation will move forward with the Secretary, 
through the Conservation Study Institute of the Park Service, 
and complete a report that will be submitted to Congress.
    This is an important step in establishing the long-term 
need for NHAs, creating a process by which all other National 
Heritage Areas could follow. This report will evaluate the 
effectiveness of the NHA and the National Park Service and 
provide an analysis of future activities.
    Finally, S. 817 makes reauthorization for the NHAs a 
possibility with the completion of a favorable evaluation. 
Despite the 10-year vision of the management plan for the NHAs, 
there is often much more work that needs to be completed. 
Moreover, the National significance of the NHA does not end 
after 10 years. This language recognizes there is a long-term 
commitment to the NHAs and that historic and cultural resources 
will be protected.
    In closing, when the first National Heritage Area was 
designated in 1984, it was an experiment. Today, NHAs are no 
longer experiments, they're tried and tested strategies to be 
embraced as a permanent part of the National Park System. NHAs 
represent a new conservation ethic, and with the designation of 
their permanent establishment, and the management entity, long-
term funding, they can carry out their congressionally-mandated 
responsibilities of conserving and promoting historical and 
cultural resources.
    Mr. Chairman, thank you again for providing me this 
opportunity today, and I'm happy to answer any questions you or 
the other Senators may have.
    [The prepared statement of Mr. Carlino follows:]
 Prepared Statement of August R. Carlino, President & Chief Executive 
 Officer, Steel Industry Heritage Corporation and the Rivers of Steel 
                         National Heritage Area
    Mr. Chairman, Senator Thomas and other distinguished member of the 
subcommittee, my name is August R. Carlino and I am President and Chief 
Executive Officer of the Steel Industry Heritage Corporation. SIHC is 
the management entity of the Rivers of Steel National Heritage Area, 
based in Homestead, Pennsylvania. I appreciate the opportunity to 
provide testimony to the Subcommittee today on S. 817, a bill to amend 
the Omnibus Parks and Public Lands Management Act of 1996 to provide 
additional authorizations for certain National Heritage Areas, and for 
other purposes. In the audience today are four of my colleagues, each 
representing one of the National Heritage Areas included in S. 817. I 
know they have testimony, and I ask permission for a copy of their 
testimony to be submitted to the record of this subcommittee. I want to 
thank Senator Voinovich, Senator Kennedy and Senator Specter and their 
staffs for their leadership in drafting this legislation with the staff 
of the Subcommittee. I wish to also thank to Senator Brown, Senator 
Casey, Senator Graham and Senator Kerry for cosponsoring S. 817.
    Over the past six years this Subcommittee, and the House 
Subcommittee on National Parks, Forests and Public Lands, has examined 
National Heritage Areas. There is no doubt of the critical role they 
play in conserving the nation's historic and cultural resources. Today 
there are 37 National Heritage Areas. Thirty-one were designated in the 
past 12 years, including four of the five NHAs addressed in S. 817. 
Fourteen of those 31 NHAs were designated within the past six years. 
Clearly Congress recognizes the significance and the important role of 
NHAs in the conservation strategy of the United States.
    I should point out that Congress has also reauthorized National 
Heritage Areas during this time. The John H. Chafee Blackstone River 
Valley National Heritage Corridor and the Illinois & Michigan Canal 
National Heritage Corridor have each been reauthorized twice. The 
Delaware & Lehigh National Heritage Corridor, the Southwestern 
Pennsylvania Heritage Preservation Commission and the Quinebaug and 
Shetucket Rivers Valley National Heritage Corridor were reauthorized 
once before. Under S. 817, Delaware & Lehigh will be reauthorized a 
second time while Essex National Heritage Area, Ohio & Erie National 
Heritage Corridor, South Carolina National Heritage Area, and Rivers of 
Steel National Heritage Area each will be reauthorized for the first 
time.
    Each National Heritage Area in S. 817 has been designated with its 
own organic act, specific to the needs and priorities of the region of 
the country for which it was established. While there are similarities 
in philosophy, our management plans are the cornerstone document for 
how our NHAs function and how we conduct programming. Each management 
plan is a vision of what the NHA will strive to be, a snapshot looking 
into the future. While these management plans often have limited 
timeframes, focusing on a period of time over 10 to 16 years hence, 
they are not meant to be interpreted as the limitation of the life or 
funding of the NHA. While the NHA is authorized in perpetuity, the 
management plan sets the stage for the work to be accomplished over a 
finite period of time.
    In 2006 the National Park System Advisory Board issued the report 
Charting a Future for National Heritage Areas.\1\ The Advisory Board 
stated that ``National Heritage Areas represent a significant advance 
in conservation and historic preservation'' and made several 
recommendations. Upon examining the role and work of NHAs, the Advisory 
Board found that NHAs:
---------------------------------------------------------------------------
    \1\ The report may be viewed at www.nps.gov/policy/NHAreport.htm.

  <bullet> involve the diverse people of this nation to tell their 
        stories with integrity and authenticity;
  <bullet> weave together nature and culture and provide an integrated 
        approach to conserving resources;
  <bullet> work beyond park boundaries by offering the National Park 
        Service a new strategy to meet their stewardship mission;
  <bullet> conserve landscapes and traditions and make them available 
        for the enjoyment of future generations;
  <bullet> engage youth and people of all ages in our future by 
        providing them with opportunities for place-based education and 
        a forum for public engagement; and,
  <bullet> build new constituencies for the NPS and stay relevant by 
        examining issues not just in the past, but in the present and 
        in the future.

    The Advisory Board made several recommendations in its report, 
including the need for the establishment of a legislative foundation 
for National Heritage Areas, and the development of policies and 
performance measures to evaluate NHAs. The Advisory Board stressed the 
need for a long-term term commitment to National Heritage Areas, saying 
that a permanent home for National Heritage Areas should be created 
within the National Park System. Overall, the Advisory Board recognized 
that National Heritage Areas are new, innovative conservation and 
preservation strategies that encourage partnerships fostered by each 
NHA.
    This document was a groundbreaking achievement. Up to that point, 
NHAs were looked upon as being unwanted orphans of the NPS, 
misunderstood and considered financial burdens. This attitude might 
have historical roots within the National Park Service, which has often 
viewed new, cutting-edge programs as problems before fully embracing 
them. When the National Park Service was established in 1916, the focus 
of its conservation was on large-scale natural wonders like Yosemite, 
Yellowstone and the Grand Canyon. The system did not include other 
nationally significant places in America. Yet Congress and past 
Presidents have expanded and evolved the role of NPS and its system to 
what is today, as described by Dr. Lisa Benton-Short's testimony to 
this Committee as ``the world's leading system for designating, and 
protecting heritage at the national level.'' \2\ Each change in the 
system, whether adding national battlefields, national scenic byways, 
or cultural heritage sites, was met with resistance within the system. 
They were feared as not only a financial drain on the National Park 
Service, but also as thinning ``. . . the blood of the Park System,'' 
\3\ in the words of a past NPS Director. At times, this same 
terminology has been used to describe National Heritage Areas, until 
the publishing of the Advisory Board report.
---------------------------------------------------------------------------
    \2\ Dr. Lisa Benton-Short, ``Testimony of Dr. Lisa Benton-Short'', 
Oversight Hearing on National Heritage Areas, March 30, 2004, Committee 
on Energy and Natural Resources, United States Senate, 108th Congress, 
http://energy.senate.gov/public/index.cfm?FuseAction= 
Hearings.Witness&WitnessID=3202.
    \3\ Ibid.
---------------------------------------------------------------------------
    S. 817 takes components of the Advisory Board's recommendations and 
couples them with other language introduced in past bills that have 
proposed program legislation for NHAs. I believe S. 817, if passed, 
will represent the beginning of the institutionalization of steps 
necessary for evaluation and reauthorization of NHAs. Without S. 817, 
these five NHAs will most likely go out of business. Moreover, Congress 
will have permitted these NHAs to expire based upon an arbitrary 
deadline, not on the effectiveness or performance of their work.
    Each of the National Heritage Areas contained within S. 817 have 
existed for at least 10 years. Delaware & Lehigh in existence since 
1988, is the oldest. Each NHA has a remarkable track record of 
accomplishment, conserving historic and cultural resources. They have 
created partnerships with federal, state, local and private 
organizations, and raise funds to match the federal investment of the 
National Park Service money invested into the NHA. They create heritage 
development projects that help tell the story of America.
    An example of this work of the National Heritage Areas contained in 
this bill include:

  <bullet> the development of 73 miles of the multi-use recreational 
        Towpath Trail from Cleveland to New Philadelphia, Ohio in the 
        Ohio & Erie Canal National Heritage Corridor;
  <bullet> the Market Towns program of the Delaware & Lehigh National 
        Heritage Corridor, a technical assistance initiative designed 
        to stimulate economic investment in the small historic towns 
        along the canal. The program became a model of the 
        Pennsylvania's Department of Community and Economic Development 
        and was recognized statewide as a model economic revitalization 
        program;
  <bullet> a system of Discovery Centers in the South Carolina National 
        Heritage Corridor located throughout the NHA, greeting 
        visitors, interpreting local history and directing tourists to 
        nearby historic and cultural destinations;
  <bullet> an annual ``Trails & Sails'' event in the Essex National 
        Heritage Area, featuring a weekend full of walking and water-
        based excursions attracting thousands of visitors to museums, 
        trails, historic towns and sites;
  <bullet> the annual Heritage Area grants program of the Rivers of 
        Steel National Heritage Area, that has invested in more than 
        290 projects, including folk arts, educational and interpretive 
        exhibits in seven counties in southwestern Pennsylvania.

    National Heritage Areas build trails, protect historic buildings 
through restoration projects and National Register designations. They 
conserve cultural and living traditions, develop educational programs 
with schools and through interpretive exhibits at museums. NHAs 
contribute to a quality of life in communities where heritage becomes a 
building block for revitalization and tourism. In almost every 
instance, the NHA plays a role as the initiator, seeding projects that 
might never be funded in more traditional community or regional 
investment strategies. An NHA looks to use its unique heritage of a 
project as the foundation for its economic strategy. We often hear that 
historic preservation and economic development cannot coexist. I am 
here today to tell you that is not the case in National Heritage Areas. 
Some of our best partners are developers and property owners looking 
for ways to incorporate heritage resources into their plans.
    The investment strategy of NHAs is to pool money to make grants in 
heritage development projects that fit within the scope of the 
management plan. The initial, and most critical investment, comes from 
the appropriation that Congress provides each year to the NHAs. Without 
this investment from the National Park Service, the question that begs 
to be asked is: why would any other financial partner sit at the NHA 
table without the primary NHA partner? The Advisory Board recognized 
this as a part of its field visits to National Heritage Areas. It is 
the reason why the recommendation is made for a long-term commitment to 
NHAs.
    In the Rivers of Steel National Heritage Area, managed by the Steel 
Industry Heritage Corporation which I direct, considerable progress has 
been made over the past 10 years since our designation in 1996. Like 
Delaware & Lehigh, Rivers of Steel is one of Pennsylvania's six NHAs 
that also received state heritage area designation. The viability of 
our National Heritage Area depends upon the permanence of the NHA 
designation and the funding we receive with it. Without the NPS funds, 
other financial partners would have less incentive to participate, and 
our grants program would be severely reduced. Our 10 year report, 
Momentum, shows the results: with the 8.645 million dollars of National 
Heritage Areas funds received though our annual appropriations, more 
that 28 million dollars in additional funds have been raised and 
invested into projects by the Rivers of Steel National Heritage Area. I 
assure you this would not be the case if our authorization did not 
exist and funding were not provided. This is the story for each of the 
NHAs in S. 817. With the difficult budget decisions this Congress 
faces, it would seem logical to embrace programs like the NHAs with 
their successful record of leveraging federal investment. This report 
may be viewed at http://vvww.riversofsteel.com/pdffrenYearReport.pdf.
    S. 817 also establishes an evaluation and analysis process, as 
called for in the Advisory Board report. Building off the work that the 
Conservation Study Institute of the National Park Service has developed 
for the evaluation of the Delaware & Lehigh National Heritage Corridor, 
the other NHAs in the legislation will move forward with the Secretary 
of Interior, through CSI, and complete a report that will be submitted 
to the Congress. This is an important step in establishing the long-
term need of the NHAs in the bill, creating a process by which all 
other NHAs will follow. This report will evaluate the effectiveness of 
the NHA and NPS and provide an analysis of future activities. Given the 
intent of the legislation, I wish to point out that Section 5 (2) (D) 
might work better if placed under the Required Analysis, Sec. 5 (3) of 
the legislation. This will guarantee that the future role of NPS will 
be analyzed, along with the NHA.
    Finally, the S. 817 makes future, long-term reauthorizations of the 
NHAs a possibility with the completion of a favorable evaluation. 
Despite the 10 year vision of the management plan for the NHA, there is 
often more work to be completed. The national significance of the NHA 
will not end after 10 years. This language recognizes there is a long-
term commitment to the NHA. Historic and cultural resources will be 
conserved and protected for generations to come.
    In closing, when the first National Heritage Area was designated in 
1984, it was an experiment with a vision for public and private 
stewardship of nationally significant resources within the living 
landscape of the Illinois & Michigan Canal National Heritage Corridor. 
Today, National Heritage Areas are no longer experiments. They are 
tried and tested strategies to be embraced as a permanent part of the 
National Park System. NHAs represent a new conservation ethic, one 
where the National Park Service is the principle partner. With the 
National Heritage Area designation permanently established, the 
management entity, with long-term funding from the federal government, 
will carry out its congressionally-mandated responsibilities of 
conserving and promoting historic and cultural resources.
    Mr. Chairman, thank you again, for providing me this opportunity to 
testify today. I am happy to answer any questions that you or the other 
Senators might have.

    Senator Salazar. Thank you, Mr. Carlino.
    Mr. <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5e12312e3b24701e">[email&#160;protected]</a>

STATEMENT OF DENNIS J. LOPEZ, ON BEHALF OF THE SANGRE DE CRISTO 
              NATIONAL HERITAGE AREA, ALAMOSA, CO

    Mr. Lopez. Mr. Chairman, members of the subcommittee, I am 
Dennis Lopez, and I am here to testify in support of the Sangre 
de Cristo National Heritage Area. I am a member of a steering 
committee that developed a feasibility study, and which is 
cited in S. 443.
    I wish to thank the committee for inviting me to testify at 
this hearing. The bill to designate the Sangre de Cristo 
National Heritage Area is of vital importance to the three-
county region that lies at the southern end of the great San 
Luis Valley of southern Colorado.
    As part of today's testimony, I would like to emphasize the 
overwhelming local and regional support for designation of the 
identified area as a National Heritage Area. From the 
inception, our efforts have sought the support of the local 
residents, organizations, and governments. Those efforts began 
in 2002, with public meetings in each county as the first step 
in the process of developing the steering committee. The 
steering committee has been responsible for most of the work 
that has been done so far on the National Heritage Area 
designation efforts, and in the development of the feasibility 
study.
    Several of the original members of the steering committee 
are still actively involved in this work. For the past 5\1/2\ 
years, the steering committee and other interested parties have 
held numerous public meetings, and have encouraged individuals 
to become involved on the committee or in other pertinent ways.
    Individuals from the committee have presented at various 
meetings of other non-profit entities, special interest groups, 
civic groups, local governments and tourism boards. Resolutions 
have been received supporting the National Heritage Area from 
the counties and municipalities lying within the proposed area.
    Numerous letters of support have been obtained from 
businesses, non-profit organizations, and regional economic 
development entities and individuals. Friendly relations with 
other local public land agencies and organizations have been 
another area of focus for the committee. A close working 
relationship has been established with the Nation's newest 
National Park, the Great Sand Dunes National Park and Preserve.
    Individuals have contributed countless hours of research, 
which was the basis for a collaborative, scholarly symposium 
that was presented in 2002 by the steering committee. Over one-
third of the research was donated to the National Heritage Area 
effort. The greatest contribution that has impacted our goal of 
designation has been the overwhelming amount of work of 
professional volunteers.
    Partnerships with Adams State College and other entities 
were formed to present the one-day, multi-topic symposium on 
history, heritage, culture and natural recreational resources 
that are the unique characteristics of the proposed area. The 
symposium received valuable acclaim for the top-quality of 
information presented.
    The final feasibility study was researched and authored 
almost entirely by local historians, authors, scholars, 
business individuals, and residents of the proposed area. Our 
State Senator and State Representative have also shown their 
support for the project throughout our efforts. The 
comprehensive show of support from a multitude of people within 
the San Luis Valley and from around the State of Colorado for 
this designation is apparent. The Sangre de Cristo National 
Heritage Area is a crossroads of cultures where a unique blend 
of Native American, Hispano and Anglo-settlement converged in 
what was the 19th Century dynamic of westward movement, and 
today is reflected in the diversity of the people, art and 
traditions.
    The geographic isolation of this alpine valley and the 
people's enduring ties to the land have given rise to a rich 
cultural heritage. The spirit of independence and self-
reliance, an important National value, remain as the legacy of 
those first courageous settlers, who fought many odds to make 
this their home.
    The area's rich cultural heritage, remarkable natural 
resources, the mighty Rio Grande, the majestic Rocky Mountains 
and the Great Sand Dunes National Park and Preserve all lend 
this area an unparalleled beauty that offers a sense of well-
being and a powerful source of inspiration to all who visit 
this integral part of the national landscape.
    From the cultural treasure chest of living history to the 
abundance of natural resources and recreational opportunities, 
this unique locale is akin to a diamond among precious stones. 
This may be one of the few remaining places in our great 
country with a distinctive history worthy of national acclaim.
    Your designation of the three-county, Sangre de Cristo 
National Heritage Area as an important component of the 
tapestry of the American historical experience will be the 
recognition that is well-deserved. The steering committee 
encourages you to officially acknowledge the significance of 
this area, through the enactment of S. 443, establishing the 
Sangre de Cristo National Heritage Area in the great centennial 
State of Colorado.
    Again, thank you, Mr. Chairman, and I will be glad to 
entertain any questions that you may have.
    [The prepared statement of Mr. Lopez follows:]
   Prepared Statement of Dennis J. Lopez, on Behalf of the Sangre de 
                     Cristo National Heritage Area
    Mr. Chairman and members of the Committee, I am Dennis J. Lopez and 
I am testifying in support of the Sangre de Cristo National Heritage 
Area (SDCNHA). I am a member of the steering committee for the proposed 
National Heritage Area. I am a sixth generation native of the San Luis 
Valley and my ancestors were one of the original forty families who 
were grantees in 1843 of the Conejos Land Grant in Conejos County, 
Colorado. Raised in a bilingual, bicultural family, I have maintained 
the rich heritage of my Hispano ancestors as well as being fluent in 
the American mainstream culture. I am a member of Adobe de Oro Concilio 
de Artes, a local arts council that promotes the documentation, 
preservation and promotion of Indio-Hispano arts and traditions and a 
past member of the Sociedad Proteccion Mutua de Trabajadores Unidos 
(S.P.M.D.T.U.), an Hispanic farm labor workers union established in 
Conejos County in 1901. I received my post-secondary education at Adams 
State College in Alamosa County. My career of choice has been as an 
educator, for the past thirty three years teaching U.S. History of the 
Hispanic Southwest, Spanish, French and lately as a school 
administrator. I spent ten years as an administrator in Alamosa School 
District and I am currently the principal at Sierra Grande School 
District in Costilla County. As an historian, linguist, and educator I 
have gained valuable insight into the evolving diverse aspects of our 
national heritage.
    I wish to thank you for inviting me to testify at this hearing. The 
bill to designate the Sangre de Cristo National Heritage Area is one of 
high importance to the three county region which lies within the great 
San Luis Valley of Colorado.
    The San Luis Valley is located in the south central region of the 
State of Colorado surrounded by the Sangre de Cristo Range and northern 
Culebra Range of the Rocky Mountains to the east and the San Juan 
Range, which forms the Continental Divide, to the west. At 122 miles 
long and 74 miles wide, the San Luis Valley is Colorado's largest 
mountain park and has been labeled ``the highest, largest mountain 
desert in North America''. The proposed designation area is comprised 
of Costilla, Conejos and Alamosa counties in addition to the Great Sand 
Dunes National Park and Preserve, Baca National Wildlife Refuge and 
Monte Vista National Wildlife Refuge; all lying within the southeastern 
part of the San Luis Valley.
    With 11,000 years of documented human habitation, the Sangre de 
Cristo National Heritage Area is a crossroads of the centuries. Here a 
unique blend of Native American, Hispano and Anglo settlement is 
reflected in the diversity of the people, art and traditions. The 
geographic isolation of the alpine valley and the people's enduring tie 
to the land have given rise to a rich cultural heritage and ensured its 
preservation. The area's fertile cultural landscape is complemented by 
remarkable natural resources, including the mighty Rio Grande, majestic 
Rocky Mountain peaks, Great Sand Dunes National Park and Preserve, 
National Wildlife Refuges, and the high mountain desert, all of which 
lend the Sangre de Cristo National Heritage Area an unparalleled beauty 
that offers a sense of retreat and a powerful source of inspiration for 
visitors.
    For a century and a half the region has cultivated a rich heritage 
that is a living testament to the generations gone before us. Everyday 
life is endowed with traditions, both conscious and subconscious, that 
have been passed from father to son, mother to daughter and neighbor to 
neighbor. New neighbors learn traditional ways and over time, find 
themselves embracing these traditions either out of need or out of 
respect. This is a land that is essentially true to its roots.
    The history of the proposed area is marked by the dynamic encounter 
of three major cultures during a time when the nation's boundaries and 
flags were in a state of constant change. First Nations, or Native 
Americans, Indo-Hispanos and AngloEuropeans vied for the land. They 
held divergent views of the land and its resources. The Utes, who claim 
11,000 years of ancestry and occupation, like other First Nations had a 
unique and spiritual relationship with the land. They could never think 
in terms of owning it. That would have gone against all that they 
believed. The land was a friend, a provider, and a partner to all of 
nature. It fed and sheltered. It cared for the people and gave them 
everything they ever needed.
    Hispanos claimed territory for the motherland and God. Theirs was a 
communal self-sustaining system, which required the cooperation of 
everyone. Villages were born with extended families, building adobe 
structures which were connected and surrounded a town square called a 
plaza. Farming and ranching depended on the acequia* system of 
irrigation which functions well only when everyone is a participant. 
Land ownership was for the good of the family, the community and the 
Church.
    When Anglo-Europeans began to populate the land, they brought with 
them a system of deeds, surveys, titles, taxation and barbed wire to 
delineate and define. Mining, building railroads and big ranching were 
the goals. For the Anglo-Europeans, the land was not so much perceived 
as a place of sustenance, but seen more as a source of resources to be 
used and extracted.
    The U.S. military presence came in 1852 just one year after the 
first Hispano settlement in the region. Fort Massachusetts, built then, 
proved to be inadequate so the army replaced it with Fort Garland in 
1858. Fort Garland remained a fort for 25 years. Its mission was to 
protect settlers against hostile Indians. Hostilities were present 
among the three groups, but major battles never occurred.
    The distinguishing elements that set this region apart from others 
are the multitude of natural resources and incredible recreational 
choices that integrate with the distinctive cultural landscape. Early 
settlers found precious water in abundance and fertile soil in which to 
raise crops and graze livestock. Vast forests provided wildlife, wood 
for lumber, plants for medicines and forage for livestock.
    The designation area contains habitats and wildlife that are 
characteristic of the San Luis Valley, yet unique to Colorado and the 
West. A natural marvel, the Great Sand Dunes National Park and 
Preserve, lies to the north end of the designation area. The dunes, the 
tallest in North America, developed as a result of prevailing winds 
blowing across the valley.
    Despite the title of ``desert'', the San Luis Valley boasts one of 
the West's most prized natural resources--WATER. Two separate aquifers 
underlie the valley and both contain large quantities of water. Water 
from mountain drainages and ground water moving toward the valley 
filtrates down and recharges the aquifers. The range of wetland types 
in the designation area, each with varying degrees of water permanence, 
supports a diversity of plant and animal species, some of which are 
very rare such as the slender spiderflower. The SDCNHA provides a 
comprehensive sampling of the valley's intricate system of wetlands 
that is fed by watershed runoff, creeks, ditches, ground water and 
artesian wells.
    The amount of federally protected land within the proposed National 
Heritage Area attests to the natural resources within the southern 
portion of the San Luis Valley. The State of Colorado and the Nature 
Conservancy also protect substantial land holdings in the proposed 
area. These protected lands include a National Park and Preserve, three 
National Wildlife Refuges, a National Forest, two National Wilderness 
Areas, a proposed National Natural Landmark (Rio Grande), Bureau of 
Land Management lands, 15 State Wildlife Areas, a State Park and the 
97,000 acre Nature Conservancy Medano-Zapata Ranch.
    Plant species, wildlife and birds are abundant throughout the 
SDCNHA. A number of plant communities and bird and animal species found 
in this area have been recognized by the Colorado Natural Heritage 
Program as globally significant. Rankings of these particular plants, 
birds and animals put them in the category of vulnerable to extinction. 
For this reason, protected lands serve as last bastions in preserving 
species.
    Other wildlife in the area boasts large populations of deer, elk, 
Rocky Mountain sheep, and pronghorn. More common furbearers such as 
beaver are found throughout the region.
    Exceptional recreational opportunities abound in the Sangre de 
Cristo area. There are hundreds of square miles of public lands, 
thousands of acres of wildlife rich wetlands, marshes, and water bodies 
and two designated wildernesses that provide for highly diverse 
recreation experiences. While experiencing this unparalleled scenic 
beauty one can find solitude, absorb clean crisp air, gaze upon some of 
the clearest of night skies and bask in a climate that is dominated by 
sunlight.
    Nature based tourism includes recreational pursuits such as dune 
skiing, snowshoeing, snowmobiling, camping, biking, bird watching/
wildlife viewing, cross-country skiing, hiking, mountaineering, star 
gazing, fishing and hunting. Both the Sangre de Cristo Wilderness and 
the San Juan Wilderness areas provide excellent recreation 
opportunities for visitors seeking more remote backcountry hiking, 
camping, and mountain and ice climbing experiences.
    The Rio Grande and the diversity of ecosystems and life zones and 
the intricate system of wetlands that span the area, make wildlife 
viewing phenomenal. The valley is situated on a major flyway and sees a 
large number of species as great waves of birds pass through on annual 
migration. With further enhanced partnerships and interpretive tourist 
information, several of these areas could be organized into wildlife 
driving tours. Bird watching guides and tours have the potential to 
increase visitor traffic tremendously throughout the area.
    Cultural based tourism can be experienced through the architecture, 
development patterns, art, food, lodging and cultural events. Los 
Caminos Antiguos, the Ancient Roads, is a 129 mile stretch of Colorado 
highway that links many of the key resources in the proposed SDCNHA. 
The Byway provides visitors with panoramic views, a strong sense of the 
past and opportunities to experience the rich culture and traditions of 
the local people. Along this route one can see and feel the 
authenticity of the cultural landscape. Visitors can experience 
numerous historic Hispano communities such as San Luis, the oldest town 
in Colorado, listed as a National Historic District, with its plaza, 
vega,* adobe structures, mission churches, local artifacts, authentic 
restaurants, cultural museum and B&Bs. On the same trip, visitors can 
see historic Mormon villages that illustrate the tightly grided streets 
and clustered homes of the early settlers and pass through the numerous 
railroad towns that sprung up during the late 1800s. One of the largest 
railroad towns is Antonito where the Cumbres and Toltec Scenic 
Railroad, listed on the National Register of Historic Places, is 
located. This historic railroad has vintage steam-powered locomotives 
and wooden passenger cars that wind through spectacular scenery as it 
travels through the San Juan Mountains en route to Chama, New Mexico. 
Fort Garland, the once stronghold of protection for the settlers of the 
region, is now a fine museum offering interpretation of everyday life. 
Its one time commander, Kit Carson, and the regiment of buffalo 
soldiers who served at the fort are highlighted with interpretative 
signage, artifacts and special displays. Reenactment camps and living 
history events bring bygone times back to life. Many more recreation 
opportunities exist but are far too numerous for this testimony to 
list.
---------------------------------------------------------------------------
    * Acequia--ditch
     Vega--meadow
---------------------------------------------------------------------------
    Isolation within these valley walls has been the impetus that has 
kept the culture intact and the natural resources from being completely 
exploited. An archaic dialect of 17th Century Spain is still spoken by 
about 35% of the population, showing remnants of centuries past.
    In this high mountain valley, isolation has worked to our advantage 
and to our disadvantage. Although our heritage and culture have been 
well preserved, the population has remained relatively low. The exodus 
of our youth to more prosperous areas has left its mark on the ability 
of families to keep generations-held land. Our financial resources and 
tax base has not kept pace with urban areas or even with other rural 
communities. The counties of Conejos and Costilla are two of the 
poorest in the country. The struggling economies of these counties, as 
well as their sister county, Alamosa, are in desperate need of economic 
enhancement. Unemployment averages within these counties is high and 
per capita income, when compared to the Colorado State average, is low 
at 45-65%. As we search for ways to sustain our agrarian lifestyle, a 
National Heritage Area designation would compliment existing efforts of 
attracting heritage travelers through tourism. Heritage tourism and 
historic preservation are proven economic stimulators and a perfect fit 
for rural communities. Along with tourism, heritage education to 
include the traditional arts, language and local history would benefit 
tremendously from the national designation.
    I would like to include in this testimony the process of bringing 
this dream of National Heritage Area designation from beginning to 
present day and of the overwhelming support that exists for the 
designation.
    Los Caminos Antiguos Scenic and Historic Byway, a 501(c)(3) not for 
profit organization, is one of the 24 Colorado scenic byways and 
traverses three of the southernmost counties of the San Luis Valley. 
During the research the Byway conducted, while preparing interpretive 
material for production, the board of directors realized that there was 
a significant, important, and integrated story within the region that 
had not been told, nor had it been celebrated. The Byway holds a stake 
in the cultural and historical preservation of the area. It's not 
unusual for a byway, either a State Scenic Byway or National Scenic 
Byway, to lie within a National Heritage Area.
    A consensus of the Board of Directors instructed byway planners to 
include the formation of a National Heritage Area in the Strategic Plan 
for the Byway. Beginning with three public meetings, one in each of the 
Alamosa, Conejos and Costilla counties, the Byway assessed interest, 
attendance and the willingness of individuals to help move the project 
forward.
    Attendance and interest from these meetings encouraged us to 
organize interested parties to work on the designation. A volunteer 
steering committee was nominated and formed. Today, several of the 
original steering committee members of 2002 are still actively 
involved. The steering committee has been responsible for the majority 
of the work done thus far on the Heritage Area designation effort and 
in the creation of the feasibility study.
    From those first meetings, we've met regularly over the past five 
and a half years to plan, organize and take forward the concept. We've 
held several other meetings and have encouraged individuals to become 
involved whether on the committee or in other ways. Individuals from 
our committee have presented at various monthly and quarterly meetings 
of other non-profits, special interest groups, civic groups, local 
governments and tourism boards. We have periodically met with the 
County Commissioners of all three counties to update them on the 
progress of the designation process. Countless hours have been spent in 
research and building public support for the project.
    Resolutions supporting the National Heritage Area designation from 
all three Boards of County Commissioners have been received, as well as 
supportive resolutions from communities lying within the proposed 
region. Numerous letters of support have been obtained from local and 
regional governments, businesses, non-profit organizations, regional 
economic development entities and individuals. Our State Senator, Gail 
Schwartz, and our State Representative, Rafael Gallegos have also shown 
their support for the project throughout our efforts and have given 
letters committing their support.
    Financially, Los Caminos Antiguos has supported the efforts, and 
through their non-profit status, individuals and organizations have 
been able to make cash contributions. The greatest contributions that 
have impacted our goal of designation have been the overwhelming 
personal work of our professional volunteers. As I mentioned, countless 
hours of research have been contributed. That research had its roots in 
a collaborative scholarly symposium that our steering committee 
presented in November of 2002. Partnerships with Adams State College , 
Trinidad State Junior College, Adams State College Title V Office, 
Jalisco Inc. (a private business) and Los Caminos Antiguos were formed 
to present the full day, multi-venue symposium on the history, 
heritage, culture and natural resources that make up the proposed 
region. Over 31 presenters donated their time, travel costs and 
research to the National Heritage Area effort. Scholarly papers were 
presented at the symposium and then given to the steering committee to 
be used in the authoring of the feasibility study. Cultural groups 
donated performances during the lunch that was provided with funding 
from our partners. People from the San Luis Valley and other regions of 
Colorado and the state of New Mexico came to hear the presentations 
that were made through lectures and panel discussions.
    The feasibility study was researched and authored almost entirely 
by local historians, authors, scholars, business people and residents 
of the proposed region. This once again shows the overwhelming support 
for this designation from a multitude of people within the valley and 
around the state of Colorado. A well known landscape architecture firm 
Shapins Associates, specializing in heritage planning and research, 
contributed significantly to the completion and production of the final 
study.
    Within the planning process, partnerships with our local public 
land agencies and organizations have been a main focus. Our partners 
include the Rio Grande National Forest, the Bureau of Land Management 
and the U.S. Fish and Wildlife Service through the three National 
Wildlife Refuges within the SDCNHA boundaries. All of these agencies 
have been contributors to the research and writing of the feasibility 
study. A close working relationship has been established with the 
nation's newest National Park, the Great Sand Dunes. State agencies 
such as the Division of Wildlife and Colorado State Parks have all 
offered technical assistance along the way.
    Since the completion of the feasibility study, the group has sought 
to further Heritage Tourism by participating with other organizations 
to advance visitor readiness and increase the profile of the region. 
Preservation projects to protect some historic treasures include 
placing the original Antonito Train Depot circa 1880s on both the State 
and National Registers of Historic Places. Restoration work on the 
depot is being planned with a new coalition of partners and an 
interpretive center is under consideration.
    To further the cause of the Sangre de Cristo National Heritage 
Area's designation, financial contributions from the three counties, 
non-profit organizations, economic development agencies, chambers of 
commerce, and other interested parties have been made to fund the 
travel, lodging and additional expenses for the steering committee 
members to travel to Washington D.C. to attend the hearings for S. 2037 
on June 22, 2006 and again for this testimony on S. 443, today, March 
20, 2007. These trips to Washington D.C. to provide valuable testimony 
would not have occurred without these significant, invaluable 
donations.
    The recognition of the Sangre de Cristo National Heritage Area's 
three county region as an important component in America's history is 
long overdue. From the cultural treasure chest of living history to the 
abundance of unique natural resources and recreational experiences, 
this region sits as a diamond among gems.
    In conclusion, the Sangre de Cristo National Heritage Area is 
worthy of national designation and has met the criteria of the National 
Park Service. This may be one of the few remaining places in our great 
county with the integrity worthy of national acclaim. I urge you to act 
quickly to enact legislation establishing the Sangre de Cristo National 
Heritage Area. Thank you for the opportunity to address the committee 
and I would be happy to answer any questions that you may have.

    Senator Salazar. Thank you, Mr. Lopez.
    Mr. Nichols.

STATEMENT OF GARY E. NICHOLS, DIRECTOR, PARK COUNTY TOURISM AND 
           COMMUNITY DEVELOPMENT OFFICE, FAIRPLAY, CO

    Mr. Nichols. Mr. Chairman, and ranking member Thomas, on 
behalf of the Park County, Colorado Commission and our Heritage 
Area Partnership, I am honored and grateful for the opportunity 
to be here today to provide testimony on the South Park 
National Heritage Area bill, S. 444.
    The South Park Heritage Partnership was established in 
1994, after local ranchers, miners and community leaders 
approached me with their vision to preserve South Park's unique 
heritage resources, and utilize them to generate new economic 
opportunities. Shortly after which, the Governor of Colorado 
designated South Park as the State's second official State 
Heritage Area.
    Our National Heritage Area bill recognizes the importance 
of developing a strategic management plan that engages all 80 
partners, and 90-plus heritage sites in South Park. It also 
addresses key elements of Senator Thomas' proposed NHA bill, by 
establishing definitive resource criteria and budget 
guidelines, by limiting our funding requests to what is 
required and can be matched locally, and by providing specific 
language that protects the rights of individual private 
property owners, many of whom are longstanding partners in our 
program. No where else in the Nation is the Nation's heritage 
preserved in such an extraordinary high-altitude landscape.
    At two miles above sea level in South Park, archeologists 
have documented human occupation over the last 8,000 years 
nearly continuously. As the highest elevation Pleistocene 
fossil site in North America, Porcupine Cave is also one of the 
world's most important sites for the study of Ice Age animals.
    South Park is home to a rare grassland community, the 
largest remaining natural grassland of its type on earth. South 
Park also contains the greatest concentration of rare and 
significant wetlands known as fens, in the lower 48 States, as 
well as the oldest trees in the Rocky Mountain Region. Growing 
at elevation above 11,000 feet, South Park's Bristle Cone pine 
trees are over 2,000 years old.
    At 14,000 feet above sea level, in the Mosquito Range, the 
Present Help Mine is still the highest mine ever to operate in 
the United States. This ancient mountain range contains several 
rare plants found no where else in the world.
    Designated by Congress in 1966, the Lost Creek National 
Natural Landmark Area in South Park protects stunning rock 
formations in a stream that disappears and reappears at the 
surface at least 9 times.
    Over the last 12 years, our partnership has raised $17 
million to preserve a multitude of historic properties, secure 
conservation easements on agricultural land, establish new 
heritage tourism facilities and programs, and develop a variety 
of educational and promotional media. As a result, we are now 
positioned to showcase this 900-square mile mountain basin 
through the National Heritage Area Program.
    With a recent Preserve America grant from the White House, 
we are currently preparing adaptive-use plans for several key 
historic sites. We therefore, propose applying 87 percent of 
our NHA budget to our implementing site-specific plans on 
participating properties with their landowners. The estimated 
budget to accomplish our highly-targeted goals, amounts to 
$12.2 million over the term of the National Heritage Area, half 
of which will be provided by the local partnership.
    Again, thank you so much for the opportunity to comment and 
provide testimony on South Park's National Heritage Area Act. I 
would be glad to answer any questions you may have about our 
program and bill.
    [The prepared statement of Mr. Nichols follows:]
Prepared Statement of Gary E. Nichols, Director, Park County Tourism & 
                      Community Development Office
    Mr. Chairman and Ranking Member Thomas, thank you very much for 
holding a hearing today on S. 444, the South Park National Heritage 
Area Bill of 2007.
    On behalf of the Board of Park County Commissioners and the South 
Park Heritage Area Partnership, I am honored to be here today to 
provide our testimony on the South Park National Heritage Area in the 
State of Colorado. We appreciate the time and effort the Committee, its 
staff, Senator Salazar, and his staff have committed to the development 
of this bill.
    To retain the authenticity of their home place in the face of 
growth and change, cattle ranchers, miners, business leaders, and local 
government officials came together in 1994 to conserve South Park's 
unique heritage resources and utilize them to generate a new 
sustainable economy. Shortly thereafter Colorado's governor designated 
South Park as the second official State Heritage Area.
    Over the last twelve years our 80 program partners have worked 
diligently to survey and preserve a multitude of significant historic 
properties, secure conservation easements on 25,000 acres of 
agricultural land, restore thirteen miles of impaired stream and 
riparian habitat, establish new heritage tourism facilities and 
programs, and develop a variety of educational and promotional media. 
To date the South Park Heritage Area partnership has raised $17 million 
in grants and matching funds for these purposes. As a result of our 
collective efforts, we are now poised to showcase this thousand-square-
mile mountain landscape through the National Heritage Area Program.
    With a recent Preserve America grant from the White House, we have 
retained planning professionals to prepare master plans for a number of 
key historic properties in the South Park basin, in cooperation with 
their (private) owners. These sites are culturally significant, 
representing the pioneer industries of ranching, mining and railroading 
at high altitude in the central Rocky Mountains. These plans will 
provide the local partnership with a blueprint for preserving and 
preparing each site for appropriate types and levels of adaptive use, 
including but not limited to heritage tourism.
    This milestone planning project entails 1) assessing, 2) 
stabilizing, 3) restoring, 4) rehabilitating, 5) protecting, 6) 
enhancing, 7) interpreting, 8) managing, 9) branding, 10) marketing, 
and 11) adaptively using each of the target sites. However, strategies 
contained in each of these master plans will require significant 
additional funding for implementation. Consequently, we propose to 
apply the majority (87%) of our NHA budget toward implementing site-
specific recommendations on participating properties within the South 
Park NHA boundary. Moreover, half (50%) of our $12.2 million budget 
will be provided by the local partnership. Thus, the estimate of 
Federal funding required to accomplish our targeted heritage area 
strategies amounts to $6.1 million over the ten-year period.
    Nowhere in the United States will you find the centennial ranches, 
prehistoric sites, steam locomotives, and forgotten gold mines 
preserved in a setting as extraordinary as South Park, at elevations 
exceeding two miles above sea level. The altitude of South Park and 
surrounding mountains define our heritage and attract individuals who 
value the authenticity of this proposed National Heritage Area. As they 
have for centuries, local residents still depend on the land for their 
livelihood and quality of life. As America's population grows and other 
places lose their traditional industries and identity, places like 
South Park become increasingly rare and more intriguing.
    Despite our extreme elevation, or perhaps because of it, rare and 
abundant natural resources have attracted people to the South Park 
basin since 7,000 B.C. Ute and Arapaho peoples frequented the same high 
altitude hunting and gathering sites that prehistoric peoples used 
8,000 years before. Grazing animals first established the trails that 
indigenous peoples eventually followed. The same trails were used by 
guides and government explorers like Kit Carson, John Fremont and 
Zebulon Pike. Members of these early expeditions first documented the 
fossilized remains of animals found in South Park, including an extinct 
North America cheetah. Located at 9,400 feet in the proposed National 
Heritage Area, Porcupine Cave is the highest Pleistocene fossil site in 
North America, and its wealth of animal fossils makes it one of the 
most important sites in the world for the study of Ice Age vertebrates.
    Second only to Lewis and Clark in the annals of frontier 
exploration, Pike's 1806 expedition marked the first official American 
exploration into South Park. One of the most famous early explorers, 
John C. Fremont, led multiple expeditions into South Park in the 1840s. 
Like Pike, Fremont was tasked by the US government with securing, 
surveying, and opening up the western territory for development in the 
name of Manifest Destiny.
    During the famous Pikes Peak Or Bust gold rush of 1859, pack trains 
and freight wagons turned buffalo trails into rutty roads, which rail 
companies then graded to supply early miners with supplies. Cattle 
ranches sprang up across this high altitude prairie to feed the miners. 
The same ranches that supplied world-class hay to England and Russia a 
century ago still support a globally rare grassland community, the 
largest remaining natural grassland of its type on earth.
    Democratic traditions that are fundamental to our country's 
governance were underscored in remote outposts like South Park. Lacking 
even common law principles, the early miners had to establish customs 
based on elementary rules of property and equity. In 1859 bylaws were 
enacted for the ``Buckskin Joe Mining District'' near Alma, which is 
now the highest incorporated town in the United States. These laws 
represent some of the earliest legislation in the region; birthed among 
the hardscrabble mining camps of that period.
    The challenges of mining at high altitude in the 19th Century were 
incredible, and the mines above Alma are higher than any others in 
North America. At 14,157 feet near the summit of Mount Lincoln, the 
Present Help Mine is still the highest mine ever to operate in the 
United States. Mount Lincoln was named in 1862 for our 16th President. 
Immediately following President Lincoln's 1865 assassination, thousands 
of Americans trekked westward to pay tribute to ``our dead but immortal 
President'' by ascending its summit ``so near the heavens.''
    By far the most unusual ``mining'' enterprise in South Park, 
Colorado Salt Works (National Register) is the only surviving example 
of an 1860s kettle and pan salt production facility in the United 
States. Drawing from surrounding salt springs, the facility extracted 
salt between 1862 and 1870. Also on the National Register, Salt Works 
Ranch is among Colorado's oldest continuously operating cattle ranches 
(five generations) and is still owned by the same family.
    The Mosquito Range is the only place in the United States where 
hearty climbers may ascend four peaks above 14,000 feet in a single 
day, including Mount Lincoln and Mount Democrat. This ancient mountain 
range contains 33 rare plant species, collectively representing one of 
the highest concentrations of rare plants in the Rocky Mountains. 
Several of these species are found only within the Mosquito Range and 
nowhere else in the world. One species is currently listed as 
``Threatened'' in its entire range by the U.S. Fish and Wildlife 
Service.
    At 13,188 feet, Mosquito Pass is the highest motor vehicle pass in 
North America. But it's only one of many mountain passes into South 
Park. Much to his satisfaction, Walt Whitman was once detained for an 
hour at Kenosha Pass summit. From this lofty vantage point along the 
South Park Railroad, Whitman wrote: ``At this immense height the South 
Park stretches fifty miles before me. Mountainous chains and peaks in 
every variety of perspective, every hue of vista, fringe of view, in 
nearer, or middle, or far-dim distance, or fade on the horizon . . . As 
afternoon advances, novelties, far reaching splendors, accumulate under 
the bright sun in this pure air.''
    Helen Hunt Jackson has been described as the most brilliant woman 
and one of the most successful writers of her day. During a week in 
Colorado, she reported, ``we found ourselves on a true summit at last, 
on the [Kenosha] summit of the eastern wall of the great South Park . . 
. nowhere else in the world are there mountains fourteen and fifteen 
thousand feet high which have all the room they need--great circles and 
semicircles of plains at their feet and slopes a half continent long!''
    The sentiments expressed by Whitman, Jackson and many others are 
echoed by contemporary visitors who cross into South Park over one of 
nine mountain passes for the first time: ``it's hard to believe that a 
place like this still exists within an hour of Denver!''
    The South Park basin supports some of the most extensive 
bristlecone pine forests in the world. Bristlecones are the oldest 
known living trees on earth. The bristlecone pines in South Park took 
root during reign of the Roman Empire and are the oldest trees (2400 
years) in the Rocky Mountain region. South Park's ancient pine forests 
are complemented by rare and unusual wetlands called fens. These 
wetlands are comparable to few others in the United States. South Park 
contains more of these nationally significant wetlands than any other 
region in the lower forty-eight states. Situated at just under 10,000-
feet above sea level, High Creek Fen is an astonishing vestige of the 
last Ice Age that has been identified as the most ecologically diverse, 
floristically rich fen known to exist in the Southern Rocky Mountains. 
Now managed by the Nature Conservancy, High Creek Fen is open daily to 
the public for photography and nature study.
    In 1966 Congress designated the Lost Creek National Natural 
Landmark Area along the eastern edge of South Park. Forty miles 
southwest of Denver in the proposed NHA, the Area's stunning rock 
formations include spires, pinnacles, narrow ridges, and narrow gorges. 
Another marvel of the Landmark Area is Lost Creek, which disappears and 
reappears at the surface at least nine times. The last wild herd of 
bison in Colorado ranged near Bison Peak in the Landmark Area.
    Sixteen properties in South Park are currently listed on the 
National Register of Historic Places. More than 75 additional sites are 
officially eligible for the National Register according to the National 
Park Service. It is also worth noting that, since most of the NHA has 
yet to be excavated, countless undiscovered prehistoric and 
paleontological sites may also prove to be eligible.
    Our South Park NHA bill recognizes the importance of developing a 
strategic management plan that engages all 80 partners and 90+ heritage 
sites. It also addresses key elements of Senator Thomas' proposed NHA 
bill by establishing definitive criteria and budget guidelines for 
heritage resources in the South Park NHA; limiting our federal funding 
request to what is actually needed and can be matched locally to 
accomplish our annual goals; and providing specific language that 
protects the rights of individual private property owners, many of whom 
are longstanding partners in the South Park State Heritage Area 
Program.
    Again, thank you for the opportunity to provide comment and 
testimony on the South Park National Heritage Area Act. I would be 
happy to answer any questions you may have about our heritage area 
program and bill, or and any other questions you may have.

    Senator Salazar. Thank you very much, Mr. Nichols, and 
thank you, again, to all of the panel for your testimony this 
afternoon.
    We'll have 5 minutes of questions each, and we'll see how 
long we'll keep you here this afternoon.
    My first question is to you, Mr. Esparza, concerning the 
National Latino Museum. You commented on the contributions of 
Latinos to the United States, and commented on some of the 
military contributions, especially in World War II. I will note 
at the outset of my question here that both Senator Bingaman, 
our chairman, and Senator Domenici, the ranking member, are 
sponsors of our bill, along with approximately another 30 
sponsors, both Democrats and Republicans, of this legislation. 
And, I think it is part in recognition of that history of 
contribution that Latinos have given to this country from its 
very beginning, and even before.
    I will note that the founding of the American GI Forum, 
essentially came out of a very painful part of our history as 
you well recall, and that is that in 1948, Dr. Hector Garcia 
decided to found the National, the American GI Forum, because 
of the fact that Mexican-American soldiers were being returned 
as casualties back into south Texas, were not being allowed to 
be buried in cemeteries. In that specific case, it was in Three 
Rivers, and it was part of an effort on the part of Dr. Garcia 
to try to make sure that the Hispanic contributions in the 
military were, in fact, recognized.
    Would you comment, just briefly, from your knowledge of the 
historical information on the Hispanic contributions to the 
military of our country?
    Mr. Esparza. Certainly, Senator.
    We have more Congressional Medal of Honor winners, per 
capita, than any other group in the country. And, we have 
contributed our manpower, our blood to every single engagement 
of defending this country from its very beginning, and continue 
to be over-represented in the military. It is something that 
our community is very proud of, and has always supported our 
military men and women.
    We particularly take pride in our contributions in this 
area. And, you mentioned the case of Private Longoria, who of 
course, President Lyndon Johnson, then-Senator, from Texas, 
took the step of having him, interred in Arlington National 
Cemetery to overcome the great injustice of him being denied 
burial there in Texas, in his home town.
    And that, of course, became one of the very first steps 
towards creating a barrier to discrimination in public places, 
which is again part of our legacy of fighting for civil rights 
and pursuing equality for all people.
    Senator Salazar. I thank you, Mr. Esparza, and I'm certain 
you're aware that I think it is somewhere around 17.5 percent 
of the men and women who are currently serving in Iraq are from 
the Hispanic community here in the United States, so I think 
the continuing contribution is there today, as we hold this 
hearing here in the U.S. Senate.
    Let me ask you a second question, and that is with respect 
to the funding of a National Latino Museum, in your history as 
part of the New American Alliance and others, do you think 
there is corporate support out there that we could identify to 
help us in the construction and maintenance of a National 
Latino Museum?
    Mr. Esparza. There is growing wealth in our community, and 
I know that our philanthropists in our community and the major 
corporations view the value of creating an institution of this 
nature, and will step forward to support it.
    Senator Salazar. Thank you, Mr. Esparza, for your 
contributions to our Nation, and to preserving the history of 
our heritage and culture, as well.
    Mr. Sakura, I had a question for you on the expansion on 
the Mesa Verde National Park. If the funds are not appropriated 
in fiscal year 2008 for this acquisition, is there a risk that 
this project will never be completed?
    Mr. Sakura. Senator, there is that risk, yes.
    Senator Salazar. Question for you, Mr. Ostermiller, and 
that is that the administration's testimony noted that the 
proposed study doesn't include the necessary criteria for the 
study to assess the conceptual boundary map of the Heritage 
Areas. You have to understand that the bill identified certain 
coastal areas of Oregon and Washington, and other areas along 
the Columbia River. Is there a general agreement, locally, 
among those who have been involved in this project about the 
geographical extent and boundaries of the area?
    Mr. Ostermiller. Senator, there is general agreement. One 
of the topics of our 3-day gathering was to come to some 
consensus of what that boundary might look like. There is still 
work to do with all of the neighbors in that area, but 
essentially we're looking at the three-county area, north from 
Long Beach, Washington, south into Oregon to around Cannon 
Beach and up the river as far as Okaicum County. That is a 
natural geographic area, as well as the center of gravity for 
all of the different cultural activities of the area as well.
    Senator Salazar. I have questions for the rest of you, but 
I will hold off until after Senator Thomas goes.
    Senator Thomas. Okay. Mr. Esparza, how will this museum 
that you talked about be funded?
    Mr. Esparza. Well, certainly I would expect that the same 
way that other museums that have been part of our Nation's 
history have been funded, through a combination of private and 
public support. We certainly feel that we're meritorious of 
following the same tradition of how other museums have been 
funded.
    Senator Thomas. So, some of each, private and public.
    Mr. Esparza. It is my understanding that many museums have 
had private support, as long as the Government has stepped 
forward to enable that private support can be marshaled. If we 
see that the Government is stepping forward, we believe that 
our community and that other corporations will step forward and 
provide what is necessary.
    Senator Thomas. We've had some discussion about the site, 
do you have any feeling about that?
    Mr. Esparza. We certainly feel that we should be there 
alongside the other main museums, absolutely.
    Senator Thomas. On the Mall.
    Mr. Esparza. On the Mall.
    Senator Thomas. Okay, have a little discussion about that, 
won't we?
    Mr. Esparza. I'm sure that General Washington appreciated 
our support several hundred years ago, and we could see that 
that support might have some benefit today.
    Senator Thomas. I'm sure. And I'm sure General Washington 
would like to see the Mall stay open for people to visit, as 
well.
    Mr. Esparza. So that we can be there to visit.
    Senator Thomas. Mr. Ostermiller, how much money do you 
expect from the Park Service for the study of this Heritage 
Area?
    Mr. Ostermiller. Senator Thomas, we are hoping for a 
partnership relation, for the study, but in anticipation of the 
fact that this is very important to us, and we are a community 
of people who feel very independent in our self-determination. 
We've already raised over $150 million, and we're very anxious 
to proceed.
    Senator Thomas. Approximately how many people live within 
the boundaries of this study area, do you know?
    Mr. Ostermiller. In the Clatsop County in Oregon, it's 
about 35,000 people, and in Pacific County in Washington, it's 
20-some thousand, I believe. And then Wahkiakum County is 
perhaps 10,000, but we have hundreds of thousands of people 
from throughout the United States every year.
    Senator Thomas. No, I mean, live there.
    Mr. Ostermiller. That's just the resident population, sir. 
Excuse me, the three counties I described.
    Senator Thomas. That's a little unusual, isn't it? To have 
that many people in a Heritage Area?
    Mr. Ostermiller. It's always been a high activity area for 
people, it's very rich in Scandinavian populations, there's 
certainly some Native American folks that live there.
    Senator Thomas. But aren't there areas you're trying to 
preserve that are somewhat unique, and not populated?
    Mr. Ostermiller. Yes, sir. The counties are quite large, 
and there's wetlands, mountain ranges, certainly the large 
estuary area and the beaches.
    Senator Thomas. I see.
    Mr. Carlino, you're aware that the Congress provides $10 
million over a period of 15 years for these projects.
    Mr. Carlino. Yes, sir, that was in our founding 
legislation.
    Senator Thomas. And what is your request now?
    Mr. Carlino. Well, we would like to have a reauthorization 
of the full amount, but recognizing that the committee would 
like to evaluate the Heritage Areas, and this bill, as it's 
proposing, it wouldn't add any more time to it, but it would 
add an additional authorization of appropriations of $5 
million.
    We're one of the Heritage Areas that have been able to 
receive a larger amount of funding, so we've got time left in 
our authorization, but we will max out on our appropriations at 
the end of the next fiscal year.
    Senator Thomas. Did you have any plans, at the beginning of 
the period that you knew you were going to get $10 million, and 
that you would have to raise your own money?
    Mr. Carlino. Well, we are raising our own money, and when 
we started this planning, actually, 17 years ago, Heritage 
Areas did not have that limitation that it does now. 
Recognizing that at the time when the Park Service evaluated 
our plan, there was never any indication at that point that 
after 10 years, or $10 million and 15 years, it would be 
nothing after that point.
    Our concern, and our partner-funder's concern is that any 
funder in a systematic relationship that is built within the 
Heritage Area, if any funder walks away from the table, it 
could create a situation that other funders would seem less 
likely to contribute to the project.
    Senator Thomas. But I think there's been a pretty good 
understanding for some time that the amount of money was 10 
years, $10 million over 15 years.
    Mr. Carlino. I don't doubt that, sir, but with all due 
respect, there have been Heritage Areas that have been 
reauthorized, too.
    Senator Thomas. Well, I think we're evaluating that, very 
much, at the moment.
    Thank you very much, all of you, for being here, and we 
appreciate your work on these things.
    Senator Salazar. Thank you, Senator Thomas.
    Mr. Carlino, you are seated at the table next to other 
proponents of other National Heritage Areas and so my question 
to you is, given the fact that your Heritage Area has already 
been authorized, has been funded, how is it that you would want 
us to provide additional money for your Heritage Area, when we 
have all of these other Heritage Areas that have lined up to 
try to receive a similar designation to what you received years 
ago?
    Mr. Carlino. Well, Senator, Heritage Areas have 
demonstrated a remarkable ability to raise money with the money 
that this Congress provides them through the Park Service. So, 
I would say to you that the funding relationship between us and 
the proposed sites for your consideration, shouldn't be an ``us 
or them.'' It actually, to me, would seem to me that this is a 
type of program that should be embraced by the Congress in a 
tight budget situation, and that having Heritage Areas which 
can demonstrate remarkable track records of additional funding, 
would be something that we would want to implement, Park 
Service-wide, and especially in the other Heritage Areas to 
help bring other people to the table.
    I can't speak for the others, but I would guess that absent 
a Heritage Area designation, some of my colleagues, not 
necessarily at the table, but that are designated as Heritage 
Areas now, could be units of the Park Service. And, if that 
were the case, the cost to the Federal Government would be a 
lot more than the appropriation that has been provided to them 
as a National Heritage Area.
    Senator Salazar. Thank you.
    Thank you, Mr. Carlino.
    Mr. Lopez, I know you've brought with you a number of 
letters of support, and those letters will be made a part of 
the record in connection with S. 443.
    My question to you has to do with financial assistance for 
the National Heritage Area from the local communities. Is there 
a willingness on the part of the local communities to provide 
some contribution to making the National Heritage Area a 
reality for the San Luis Valley?
    Mr. Lopez. We have received that type of support and 
commitment from both public and private groups. We have also 
investigated some private corporations and asked them if they 
would be willing to support our efforts, and willing to 
contribute to the parks, to the National Heritage Area, and we 
have received very favorable response from both public and 
private entities.
    Senator Salazar. Thank you, Mr. Lopez.
    Mr. Nichols, let me commend the work of Park County, and 
your vision and the vision of so many people who worked on the 
creation of this Heritage Area. You have asked in S. 444 that I 
have included in there an authorization of $6.1 million over 
the next 15 years, that's a lower level than is typically 
authorized for a National Heritage Area, and you tell me, why 
it is that that number is sufficient for your plans, and what 
you intend to so with it?
    Mr. Nichols. Yes, sir. Part of the answer relates to the 
efforts that we've been pursuing over the last 12 or so years, 
in fundraising and partner-building, and we have very solid 
experience with what it takes to actually accomplish our, both 
preservation and promotional goals of our heritage resources. 
And that $6.1 million reflects the realistic amount that, No. 
1, that we need to accomplish the goals that are identified in 
our feasibility study, and No. 2, what can realistically be 
matched, on a one-to-one ration, which we feel is important. 
So, two-fold answer there.
    Senator Salazar. Thank you very much.
    Mr. Nichols. Thank you.
    Senator Salazar. Mr. Nichols.
    Let me just make a concluding remark here. And that is, 
that this is the first subcommittee hearing that I get to 
chair, in my history. And it is an impressive group of 
witnesses that we have here, I support all of the legislation 
that all of you have testified to today.
    I want to just make a personal comment, and that is, in 
your testimony I see a lot of my own history in the testimony 
supporting the wilderness expansion of Mesa Verde National 
Park, the bill that I am sponsoring with Senator Allard. I see 
us preserving the rich heritage of the settlement of Native 
Americans of the southwestern part of our State, a very rich 
history that really does, in fact, belong to our entire Nation. 
The designation of Park County as a National Heritage Area, I 
see the rich history of our ranching communities in that part 
of Colorado, and the great beauty of that State being 
preserved, and I honor and give my best wishes to all of the 
local community that have, that has led that effort.
    In the Sangre de Cristo National Heritage Area, I see very 
much the history of our people. I very often describe my native 
valley as a valley that is a very big valley, it's 140 miles, 
south to north, 70 miles east to west. The river that traverses 
our ranch is named the San Antonio River. If you look off to 
the east, you see the Sangre de Cristo Mountains, the Blood of 
Christ Mountains, and if you look to the west, you see the San 
Juan Mountains. And to be able to preserve that history and the 
heritage and to demonstrate to the Nation its importance, I 
think, is important and I'm very hopeful that we'll be able to 
get the legislation through this year.
    With respect to the Latino Museum, Mr. Esparza, I recognize 
the huge contribution that Hispanic-Americans have made to this 
country for a very long time. I often say in many of my 
speeches that I give around the country that we've been very 
much an America in progress, and sometimes that progress has 
come as a result of pain--the founding of the American GI 
Forum, in 1948 was really a painful experience, when even our 
dead soldiers were not being allowed to be buried in cemeteries 
because of the kind of segregation that existed in the South. 
And even in those times, it was people like our parents, my 
parents who were very proud veterans of World War II, my mother 
working in the War Department, my father working in, or being a 
soldier in World War II, my uncle losing his life in the soils 
of Europe, and yet, our country has been a country that has 
been in progress, has recognized those contributions. Sometimes 
it's taken awhile, but we've gotten to a point where those 
contributions have been recognized.
    So, I make that comment only to let you know that I'm very 
proud of the legislation that all of you have helped craft, and 
that you're helping us move forward, and I'm hopeful that we 
will see a successful end to that legislation.
    At this point, I'd like to thank each of you, because I 
know you have traveled far, you've worked hard in preparing 
your testimony that you presented here to the committee, the 
committee members will all get a copy of your testimony, and 
your testimony will be included in the record, along with all 
of the letters of support that you've brought in for each of 
your specific projects.
    It is my hope that working with Senator Thomas, and with 
Senator Akaka, and the chairman and the ranking member of the 
full committee, that we will be able to move these bills 
through the committee as quickly as possible. If we receive any 
questions in writing from other members of the committee who 
could not be here today, we will forward them to you, and ask 
for your response for the record.
    We will keep the hearing record open for 1 week from today 
to receive additional comments on any of these bills. And if 
there are no other statements at this time, the subcommittee 
stands adjourned. Thank you.
    [Whereupon, at 4:15 p.m., the hearing was adjourned.]
                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

                                     Mesa Verde Foundation,
                                        Denver, CO, March 16, 2007.
Hon. Wayne Allard,
Dirksen Senate Office Building, U.S. Senate, Washington, DC.
Hon. Ken Salazar,
Hart Senate Office Building, U.S. Senate, Washington, DC.
    Dear Senator Allard and Senator Salazar: On behalf of the Mesa 
Verde Foundation, I am writing to express our strong support for your 
important legislation, S. 126, the Mesa Verde National Park Boundary 
Expansion Act, and to commend your leadership to pass this bipartisan 
legislation. The Mesa Verde Foundation is a Colorado-based non-profit 
organization with a mission to support the education and preservation 
efforts of Mesa Verde National Park.
    Several years ago, the Foundation committed to donating a 38-acre 
tract to the NPS for a new building to house a new federally-funded 
Collections and Research Center and a new Foundation-funded Visitor 
Center at the entrance to the park. As a result of this commitment, 
both components are currently under design in anticipation of the 
donation. The Foundation plans to make the donation when construction 
funds for the Collections and Research Center are appropriated.
    Currently, the NPS does not have the authority to accept the 
donation of the land, which is outside the park boundary. Your bill 
would allow the Foundation to donate the land to the NPS to support the 
construction of both federal and Foundation building components. 
Specifically, it would authorize a boundary expansion at the entrance 
to the park, on the northeast edge, to include the Foundation's 38-acre 
tract and the Henneman's 324-acre tract. We support your proposal to 
include additional lands in the park boundary.
    This bill will enable the NPS to preserve critical wildlife 
corridors and habitat and protect views into the park. Your legislation 
is also a critical step forward in the process to construct both the 
Collections and Research Center and the Visitor Center, a facility 
which will provide for the protection of the park's collection and 
introduce visitors to this magnificent park.
    We would be pleased to provide additional information or assistance 
to you in support of this important legislation.
            Sincerely,
                                            Ellen Anderman,
                                    Vice Chair, Board of Directors.
                                 ______
                                 
                     Property Rights Foundation of America,
                                       Trenton, NJ, March 19, 2007.
Hon. Daniel Akaka,
U.S. Senate.
    Dear Senator Akaka: I wish to bring comment on Nat'l. Park Service 
``The Journey Though Hollowed Ground'' National Heritage Area Act Bill.
    As a New Jersey resident, and a board member of Property Rights 
Foundation of America, I attended three (3) public meetings for NPS 
``Crossroads of the American Revolution'' National Heritage Area in 
2001, and saw first hand how NPS set up public meetings that the public 
had no knowledge of, and had invited persons and organizations to 
attend.
    The pitch by NPS was that if established, ``Crossraods'' NHA would 
bring in to N.J. Revolutionary sites $100 million, $10 million per year 
for 10 years.
    NPS ``Crossroads'' NHA passed Congress in 2006 with only $10 
million in ten years, $1 million a year not $100 million in ten years.
    NPS ``Crossroads of the American Revolution'' NHA covers into 14 of 
the New Jersey counties.
    98% at least of the property owners in the 14 New Jersey counties 
have no knowledge their property is in a NPS NHA.
    NPS ``Crossroads'' NHA put New Jersey at 100% covered in Federal 
areas.
    National Park Service trails, areas, rivers, US Fish & Wildlife 
refuges, U.S. Forest Service Stewardship Area on the N.J. Highlands 
which is now being promoted by
    NGO environmental groups to become a United Nations International 
Biosphere Reserve, just as our N.J. Pinelands is thanks to National 
Park Service.
    These Federal areas trails, rivers, and refuges violate the 10th 
Amendment, states rights, and Article 1, Sec. 8 of the U.S. 
Constitution.
    The National Park Service is terrible in responding to 
correspondence.
    I ask that you and the Committee oppose ``The Journey Though 
Hollowed Ground'' Nat'l. Heritage Area Act!
    Thank You!
            Sincerely,
                                       William J. Opferman,
                                                      Board Member.
                                 ______
                                 
                                      Leesburg, VA, March 16, 2007.
Hon. Daniel Akaka,
Chairman, Subcommittee on National Parks, U.S. Senate, Washington, DC.
    Dear Senator Akaka: I hope you will oppose Journey Through Hallowed 
Ground because of its side effects.
    JTHG will make millions of acres of land into a protected island. 
It is too much preservation. Houses and businesses all need land. JTHG 
restrictions will drive up the cost of land that already costs too 
much.
    It is very difficult to own land in Hawaii. That should not be the 
case for the four states that JTHG will affect. They are not islands 
but will be protected to give the rich their sought-after goal--privacy 
from others not like them. (I have lived in Loudoun for a long time.)
    I hope you will demand an economic impact statement. JTHG will 
create building land shortages that will harm the rising middle class. 
Many historic areas are already adequately protected. Ordinary people 
need an affordable place to live and a job to pay for it. JTHG will 
conflict with those human goals.
    I hope your choice will be to strengthen the middle class. Allow 
them to make new history. Do not take away the chance for them to own 
land.
    JTHG is overkill. The Park Service is already overburdened.
    Thank you for your consideration.
            Sincerely yours,
                                                    Rose Ellen Ray.
                                 ______
                                 
                                       Madison, VA, March 19, 2007.
Hon. Daniel Akaka,
Chairman, Subcommittee on National Parks, U.S. Senate, Washington, DC.
    Dear Sir: Allow me to qualify myself. I served as a trustee of the 
Virginia Outdoors Foundation under then Governor George Allen. I hold a 
Ph.D. in Foundations of Education and for two decades, I have 
researched the history of National Park Service practices and abuses in 
Virginia.
    I am deeply concerned about the Journey Through Hallowed Ground 
bill that appears to be moving forward at breakneck speed and without 
due deliberation. It is a highly controversial bill because it contains 
no system of accountability and transfers democratic powers that 
constitutionally rest with the voters to a government agency and a 
private non-profit organization.
    I supported Senator Allen since he entered the U.S. House of 
Representatives because he promised to protect property rights. 
However, I opposed him when he attempted to convince his constituents 
that this bill contained all the appropriate safe guards against abuses 
of property rights. Many other voters were not convinced. This is part 
of the reason why Mr. Allen is job-hunting. Now, as was predicted, the 
party in power has fulfilled all our worst fears and removed those 
safe-guards.
    This bill gives ALL planning authority to the National Park Service 
and the Hallowed Ground Project, (Read Piedmont Environmental Council) 
with no mechanism for accountability whatsoever. Even if these entities 
were reliably considerate of the rights of voters and property owners, 
this tact would be unconscionable! But the fact is (and I have 
documented proof) that both entities have a less than desirable track 
record with private citizens, courts at all levels, and governing 
bodies where fundamental rights and stakeholder input are concerned.
    The proponents of this bill claim that it will enhance economic 
development in the region, but their prospectus consists of prosaic and 
empty rhetoric totally void of facts and statistics. No self-respecting 
business would endorse a project that failed to offer supporting 
documentation.
    The proponents of this bill neglected to furnish local governing 
boards of supervisors with fundamental details of this bill, much less 
maps depicting the geographic areas that are involved by this bill.
    The proponents of this bill claim to be interested in protecting 
open space whereas some of them and the VOF are directly involved in 
easements that literally override the very mission and stipulations of 
open space protection by retaining mining rights. Others have 
approached the Virginia Outdoors Foundation expecting special favors, 
and still others have literally taken undue advantage of the 
Foundation.
    The proponents of this bill claim to be the preservators of open 
farm land, when in reality they support the creation of cluster housing 
which crowds the middle classes, inflates the crime rate, and clogs our 
highways.
    Our government rests on the principle of checks and balances. I 
urge you clarify where those exist in this bill and to reconsider 
passage of this bill as it is written. It is an arrogant product of a 
mentality that promotes history at the expense of principles. Do you 
really want history to recount your role in the destruction of 
fundamental rights?
            Sincerely,
                                                    Leri M. Thomas.
                                 ______
                                 
                                   Graves Mill, VA, March 19, 2007.
Hon. Daniel Akaka,
Chairman, Subcommittee on National Parks, U.S. Senate, Washington, DC.
    Dear Senator Akaka: We are writing to express our opposition to S. 
289, The Journey Through Hallowed Ground National Heritage Area.
    Our concern is endangerment of Private Property Rights as provided 
for by our U.S. Constitution. The Constitution does not refer to rights 
of tourism or historic preservation. We support historic preservation 
but we feel very strongly that it should be done privately and/or by 
local government. Above all, it should not be financed by the federal 
government and managed by NONELECTED special interest groups.
    In addition to the Hallowed Ground bill, the JTHG Partnership is 
asking that Rt. 15 be designated as a National Scenic Byway. While this 
is a separate issue, it is important to note that the two entities 
together will have much more control over our local property owners.
    We respectfully ask that you do not support this bill.
            Sincerely,
                                    Randall A. and Ruth A. Lillard.
                                 ______
                                 
                                  South Riding, VA, March 19, 2007.
Senator Daniel Kahikina Akaka,
U.S. Senate.
Re: S. 289 The establishment of the ``Journey Through Hallowed Ground'' 
National Heritage Area

    Dear Honorable Senator Akaka: I write to you today to implore you 
to protect the sacred property rights of ALL persons by denying the 
request to establish the so called Journey Through Hallowed Ground 
National Heritage Area. This is a feel-good proposal whose costs will 
be great even if born by a few. Worse it is an unnecessary and 
pernicious land grab, the purposes of which extend beyond historical 
preservation.
    Although this ``heritage area'' is planned to traverse several 
states, it is appalling to me that the proposal comes from a Senator 
representing the great Commonwealth of Virginia, home of the great 
bastions of individual liberty, Thomas Jefferson, George Washington, 
James Madison and George Mason to name but the most famous.
    George Mason, the author of the Virginia Bill of Rights from which 
the US Bill of Rights is derived knew and declared the importance of 
property rights when he wrote ``. . . all men are by nature equally 
free and independent, and have certain inherent rights, of which, when 
they enter into a state of society, they cannot, by any compact, 
deprive or divest their posterity; namely, the enjoyment of life and 
liberty, with the means of acquiring and possessing property, and 
pursuing and obtaining happiness and safety.''
    How do we justify the trampling of the property rights of those 
persons who own land in the area that we would now ``hallow''? As 
Abraham Lincoln himself so eloquently acknowledges in the deeply moving 
Gettysburg Address ``we can not dedicate--we can not consecrate--we can 
not hallow--this ground. The brave men, living and dead, who struggled 
here, have consecrated it, far above our poor power to add or 
detract''. We surely fail in our efforts to hallow an arbitrarily 
labeled corridor if in doing so we take that land either in deed or in 
value from those who own it. The action proposed to you in this 
legislation would make you thieves. How can stealing bring honor to 
those who gave their lives for the very rights you would now set aside?
    Can it ever be right for us to diminish the value of another man's 
land by deciding now that we have a use that is somehow greater than 
any he might have? If we will take either the land or the value how can 
we ever do so without recompense?
    James Madison understood that the protection of property is the 
foundation of all freedoms. He said, ``. . . a man is said to have a 
right to his property, he may be equally said to have a property in his 
rights. Where an excess of power prevails, property of no sort is duly 
respected. No man is safe in his opinions, his person, his faculties, 
or his possessions''.
    Much more contemporarily, in reaction to the maddening indifference 
to property rights meted out by the narrowest of Supreme Court margins 
in Kelo v New London, your brethren in the House passed H.R. 4128 (the 
Private Property Rights Protection Act) in 2005 by an overwhelming 
majority (376-38). This action withholds federal money from state and 
local governments that use powers of eminent domain to force businesses 
and homeowners to give up their property for commercial uses. How can 
the states and localities reasonably be punished for their takings 
while the Federal Government would now seemingly sanction such takings 
themselves? Is your taking justified because what you would TAKE you 
would then GIVE to all citizens through a national preservation area?
    I do not own any land in the affected area. I live nearby on a 
suburban lot that is less than 1/6 of an acre. I speak today for those 
property owners who are affected. I speak because I think sometimes 
that nobody cares about them anymore, most of all the government. At 
every level government agents have abandoned the defense of property 
rights. There are few persons who own significant parcels of land and 
those who choose anything other than perpetual preservation of the land 
are often vilified without mercy. Indeed many of the affected 
landowners have been characterized as people without respect for 
history. I respect history but never more so than I respect the 
individual rights of others. I beseech you to show the same respect and 
especially not to delude yourself into thinking that you would be 
acting as an agent of good by designating this land as hallowed.
            Respectfully,
                                                Stephanie L. Smith.
                                 ______
                                 
               Property Rights Foundation of America, Inc.,
                                   Stony Creek, NY, March 21, 2007.
Hon. Daniel K. Akaka,
Chairman, Subcommittee on National Parks, Senate Committee on Energy 
        and National Resources, Washington, DC.
Re: ``The Journey Through Hallowed Ground National Heritage Area Act''

    Dear Senator Akaka: This letter is to urge you to reject the ``The 
Journey Through Hallowed Ground National Heritage Area Act.''
    Those of us who have been opposing the National Heritage Areas 
since the early nineties are deeply concerned that the results of this 
National Park Service program so far are exceeding the negative 
predictions that we made early on. A multiple-channeled river of 
federal and state moneys to land trusts and zoning and planning 
agencies has brought preservation planning and zoning regulations; 
acquisition of valuable land that could have been enjoyed for many uses 
diverted to preservation by the federal, state and local government and 
land trusts; and the implementation of numerous devices, especially new 
trails, that strip away private property rights and private property 
ownership.
    For years we have urged that the impacts of National Heritage Areas 
on private property rights be studied, but our pleas have fallen on 
deaf ears. A pretense of a study was done to discredit our protests, 
with a false and misleading so-called ``record'' created and worthless 
conclusions reached.
    From the beginning, it was crystal clear from a reading of the 
preservationist literature that National Heritage Areas were for the 
purpose of creating a grid of greenways for landscape preservation 
throughout the areas of the United States where private land 
predominated. It is strikingly true that, if viewed from the point of 
view of preservationists, this perverse vision is doing well, and whole 
riverine areas are being struck from human use and development, except 
by the wealthy and land trusts, even though historically having enjoyed 
a variety of intensive use.
    Anyone with an open mind can see, certainly at this point, roughly 
two decades into the serious creation of the National Heritage Areas 
and similar regional greenways, that the National Park Service is 
succeeding in surreptitiously implementing national zoning, a goal that 
failed to pass Congress when it was bluntly presented during the 
seventies.
    Even our efforts to persuade Congress to give the local property 
owners a fair shake against this behemoth, have been rejected. ``What 
about giving personal, mailed notice to all property owners in the 
National Heritage Area before Congressional Hearings and Congressional 
passage of such bills?'' we asked.
    ``Too cumbersome,'' is the reply.
    But, such notice is given before eminent domain proceedings, even, 
now, in New York State, that bastion of rathertoward private property 
rights. And, for eminent domain, rather than regulatory restriction 
through preservation zoning, a property owner is actually compensated.
    Written, mailed notice is given when raising real estate tax 
assessments, also, in New York State. But the financial impact of an 
incremental tax increase is quite a lot less than facing a zoning 
change from, say, one-acre per house, to twenty or forty acres, or 
more, per house.
    Wouldn't an honorable Congress want property owners to know of a 
potential ``benefit'' to their area? If, indeed, National Heritage 
Areas can be presented as a benefit.
    Of course not, because Congress knows that there are many threats 
presented by National Heritage Areas. Secrecy is essential to keeping 
the lid on potential, very reasonable opposition.
    We have longed for an accounting of all funds toward each National 
Heritage Area through various federal and state appropriations and 
discretionary expenditures. I sought in vain for this accounting for 
the Erie Canal National Heritage Area and was personally insulted in 
public by officials of the National Park Service when I asked for this 
information at a meeting. As all involved U. S. Senators and Members of 
Congress know, the moneys flowing to National Heritage Areas come from 
many agencies and through many advocacy organizations. But there has 
never been a clause added to a bill to create transparency for funding 
of National Heritage Areas.
    You of course know all of this. Unless there is some important 
change of heart in Congressional leadership, I fear the worst. Will you 
choose to flaunt your power, to deny the historic prerogative of a 
Member of Congress who has voiced his opposition to the Journey Through 
Hallowed Ground National Heritage Area though his district, to deny 
your responsibility to the general citizenship and private property 
owners, to play pork barrel dispenser so that you can look beneficent 
in some newspaper article or on some television footage, and to buy 
power from the endorsement of the radical environmental organizations, 
particularly the land trusts?
    Again, I'd like to urge you to reject this National Heritage Area. 
Whatever your disposition, I'd like my opposition to be incorporated 
into the record, if you so please, so that as I answer the requests for 
assistance from private property owners from New York to Hawaii in the 
face of hardship caused by preservation zoning, federal trails, eminent 
domain, government and not-profit land acquisition with the resultant 
impact on the tax base and local economy and culture in the many 
National Heritage Areas, I can have the small personal satisfaction 
that the basis of my opposition was made clear at this juncture.
            Respectfully,
                                         Carol W. LaGrasse,
                                                         President.
                                 ______
                                 
                                     Keysville, VA, March 18, 2007.
Hon. Daniel Akaka,
U.S. Senate.
    Dear Senator Akaka: As a Virginian living on US 15 I am writing to 
oppose approval of S. 289, The Journey Through Hallowed Ground National 
Heritage Area Act, that your Sub-Committee will hear this week.
    Two weeks ago the House Resources Committee saw fit to strip all 
property rights protections from this bill, and so effectively negated 
the promises of property protection made by Representative Wolf and the 
JTHG Partnership in their campaign for the project.
    These protections were nominal at best and I hope you will not 
follow the example of the House in giving an unelected management 
entity license to acquire private lands with or without direct use of 
taxpayer funds. S. 289 allows the Partnership to disburse funds to 
local governments that agree with their management plan. Typically this 
leads to downzoning, housing and business restrictions, and loss of 
livelihood.
    The people of Yuma, Arizona, learned about zoning restrictions the 
hard way when the the Yuma Crossing Heritage Area came to their town in 
2001. Citizen outrage led to the US House passing HR 326 only 4 years 
later to restrict the area, with the report stating, ``The fear of 
adverse impacts on private property rights were realized when local 
government agencies began to use the immense heritage area boundary to 
determine zoning restrictions.''
    My fears for property rights go even farther in that the Board of 
the Hallowed Ground Partnership is composed of those outspokenly 
opposed to private land use by others than themselves. The Piedmont 
Environmental Council, which administers the Partnership website, is 
now raising money to oppose the Dominion-Allegheny power line to the 
Washington-Baltimore area because it (from their website) ``would cut 
through private land . . . historic sites . . . magnificent 
viewsheds.'' If they would prevent energy for the metropolitan public, 
what will they do to the livelihoods of farmers, small businessmen and 
working people in the wide heritage area which takes in historic sites 
and all the land in between?
    With overwhelming citizen support legislatures all over the country 
are passing ``Kelo'' reform to prevent the taking of property for 
private use. Will you please ask your Committee to reject S. 289 until 
it is re-drafted to prevent property from being acquired by an 
unelected management Partnership with the help of federal funds.
    With many thanks and best wishes,
            Sincerely,
                                                        Jane Hogan.
                                 ______
                                 
                                  South Riding, VA, March 21, 2007.
Hon. Daniel Akaka,
Chairman, Senate Subcommittee on National Parks, U.S. Senate.
    Dear Chairman Akaka: I am a ten-year resident of Loudoun County 
Virginia, and a lifelong northern Virginian. As a lifelong resident of 
this wonderful and historic state I have a keen interest in and love of 
history, and consequently hate to see history re-imaged and rewritten 
for political purposes.
    I believe this is what is occurring with the proposed Journey 
Through Hallowed Ground, and other projects, in Loudoun County. Loudoun 
is home to several sites designated National Historic Landmarks, only 
one of which involves an event of historically significant action, and 
that is the Ball's Bluff Battlefield and Cemetery.
    All other landmarks within the county are either the retirement 
homes of people who were historically significant in other venues, or 
``vernacular sites'' such as the village of Waterford, in which nothing 
historically significant happened (hence its remarkable preservation in 
a border Civil War state).
    Waterford is often touted for the status of its historic 
designation as a 17th century Quaker village (that was likely/probably/
surely/definitely a station on the Underground Railroad), and as a 
student of local history I always find it fascinating that this hamlet 
of the predominately wealthy and second homes for the wealthy shares 
equal historic status on this side of the Potomac with the North 
Terminal of National Airport, the George Washington Memorial Parkway, 
the Pentagon, and a condominium complex in Rosslyn.
    Prominent Waterford resident and leader of the push for Hallowed 
Ground Cate Magennis Wyatt usually only references the shared glory 
with Monticello and Mount Vernon.
    Routes 15 and 50, both designated US Highways, are primarily 
historic for being ROADS, and both are under assault from 
``preservationist'' NGOs whose mission is to reduce their viability in 
transportation. These roads claim lives each year in my county. It 
might be reasonable to suggest turning over all land use decisions in 
these corridors to these self-proclaimed nanny stewards if the same 
individuals who comprise the groups did not also work diligently to 
block any and all improvements that might offload traffic from these 
arteries.
    The ``historification'' process for these two US Highways is in 
high gear in Loudoun. Route 50 is now the home of three ``cavalry 
battles'' that were formerly skirmishes. ``Skirmish'' is an appropriate 
designation for the inevitable clashes along what was the major ROAD 
between Alexandria and the Shenandoah Valley. The ``preservation'' 
group for Route 50 (itself the recipient of huge government grants) has 
totaled all troop movement to and from major battles along this road 
together to create ``the largest cavalry action of the Civil War'', 
which is starting to be imaged as ``the precursor to Gettysburg''. Here 
is history rewritten on behalf of the horse estate district of Loudoun 
and Fauquier, at the expense of public safety along a US Highway.
    The Unison Historic District, a recent designation in horse country 
promoted by a retired Washington Post editor (which paper provides most 
of the advertising for these efforts, disguised as news) has much in 
common with Waterford; it is a ``vernacular site'' in a good state of 
preservation because absolutely nothing happened there.
    The original documents submitted for the creation of the Unison 
district actually say that. I have a hard copy of those documents, 
which seem to no longer be available online at the NPS site. However, 
they state that the only activity during the Civil War was the pursuit 
of a caisson through Snickers Gap from the battle of the Shenandoah. 
The caisson was caught and destroyed three miles north of the hamlet of 
``Union'', as it is referenced in the one document that the report 
notes.
    This has now been re-imaged into ``the three day battle of 
Unison'', and the reason that President Lincoln fired General McLellan. 
Honest Abe sure must have been attached to that particular wagon!
    A particularly egregious example of the misinformation that is 
being used to promote the Journey and related projects can be viewed on 
our own federal government websites.
    The NPS website, which links to (and apparently swallows whole) 
JTHG wishful historic thinking, promotes the idea that the Monroe 
Doctrine was written south of Leesburg at Mr. Monroe's Oak Hill estate. 
However, if one visits http://www.cr.nps.gov/nr/travel/journey/oak.htm 
the first paragraph admits that Monroe lived at Oak Hill FOLLOWING his 
Presidency.
    Of greater interest and concern to me is the information I learned 
last summer during a tour of the fine Adams National Historical Park in 
Quincy MA: John Quincy Adams, Monroe's Secretary of State, actually 
wrote the Doctrine. It is credited with the President's name because it 
was presented by him as policy during his tenure. The State 
Department's website section Basic Readings in U.S. Democracy at http:/
/usinfo.state.gov/usa/infousa/facts/democracy/50.htm states in 
paragraph 8 that ``in truth it should have been called the Adams 
Doctrine''. The Library of Congress website at http://
www.americaslibrary.gov/cgi-bin/page.cgi/aa/presidents/jqadams/
secretary_1 states in paragraph one that ``Adams suggested and outlined 
the Monroe Doctrine''.
    Yet on the National Park Service website all JTHG material promotes 
the fantasy that this seminal document was written by James Monroe at 
his retirement home in Loudoun.
    I have no problem with recognizing and promoting legitimate 
history. I have severe problems with my tax dollars being used to allow 
private individuals with much to gain in terms of lifestyle protection 
to hold sway over the private property of others, all land use 
decisions, and any road improvements on these vital roads.
    In closing, I ask you to research exactly what ``history'' you are 
promoting, and how it is changing. There are currently 51 recognized 
historic sites in Loudoun County. Go to http://www.hallowedground.org/
component/option,com_jthg/theme,region/task,view/county,Loudoun/
Itemid,l/id,56/ for a sobering map. This JTHG site (which links to the 
tax-funded NPS site) shows literally hundreds of dots shadowing 
Loudoun, billed uniformly as ``historic sites''.
    Be aware that they may be such things as the site of the demolition 
of the caisson that ``caused the firing of McLellan, thus changing the 
course of the war!'' Thank you for your time.
            Sincerely,
                                                    Barbara Munsey.
                                 ______
                                 
                                 Edison Electric Institute,
                                    Washington, DC, March 16, 2007.
Hon. Daniel K. Akaka,
Chairman, Subcommittee on National Parks, Senate Committee on Energy 
        and Natural Resources, Washington, DC.
Hon. Craig Thomas,
Ranking Member, Subcommittee on National Parks, Senate Committee on 
        Energy and Natural Resources, Washington, DC.
Re: Submission of written testimony for the March 20 hearing on S. 289

    Dear Senator Akaka and Senator Thomas: The Edison Electric 
Institute is pleased to submit the attached written statement with 
regard to the Subcommittee's consideration of S. 289, a bill to 
establish The Journey Through Hallowed Ground National Heritage Area.
    We appreciate the opportunity to do so and look forward to further 
discussion with you regarding the concerns we have raised with respect 
to the legislation.
            Sincerely,
                                            Thomas R. Kuhn,
                                                         President.
[Attachment.]
               Statement of the Edison Electric Institute
    The Edison Electric Institute (EEI) appreciates the opportunity to 
submit written testimony regarding S. 289, a bill to establish the 
Journey Through Hallowed Ground National Heritage Area.
    Edison Electric Institute (EEI) is the association of United States 
shareholder-owned electric companies, international affiliates and 
industry associates worldwide. Our U.S. members serve 92 percent of the 
ultimate customers in the shareholder-owned segment of the industry, 
and 67 percent of all electric utility ultimate customers in the 
nation. They generate almost 60 percent of the electricity produced by 
U.S. electric generators.
    The United States has a rich and diverse cultural heritage and a 
distinctive history that is important to our identity as a nation. The 
National Heritage Area program is emerging as an important means for 
recognizing an area where ``natural, cultural, historic, and 
recreational resources combine to form a cohesive, nationally 
distinctive landscape'' that can serve to remind Americans of our 
diverse background and rich history. It also can contribute to the 
economic vitality of an area, especially where there is a desire by 
local governments to expand the opportunity for tourism and recreation.
    As more areas are set for designation as national heritage areas, 
the challenge for Congress is to assure that the value of a heritage 
area designation can be realized without becoming an impediment to 
meeting the needs of this and future generations who are in or near the 
area affected by the designation, including the need for clean, safe 
and reliable electric service. We believe that Congress should give 
careful consideration about how to strike the balance on what would 
appear to be potentially conflicting needs. Doing so will serve the 
long term interest of the National Heritage Area program and will be 
important to preserving public support for the program.
    EEI would like to note that many of the national heritage areas 
that have previously been designated have been established during a 
period of relative quiet as to the siting and construction of new 
infrastructure. Notwithstanding the electric utility industry's 
increasingly aggressive promotion of energy efficiency, the Energy 
Information Agency continues to forecast a pronounced need for new 
baseload generation and to project that increased reliance on renewable 
technology will expand the need for new transmission to bring 
electricity from high wind areas to metropolitan areas.
    The North American Electric Reliability Council and the U.S. 
Department of Energy (DOE) have both acknowledged the need for 
additional transmission throughout many areas of the nation, including 
into the Eastern metropolitan corridor. In August, 2006, DOE completed 
a nationwide transmission congestion study required by the Energy 
Policy Act of 2005. The study identified the mid-Atlantic region of the 
United States as a critically congested area, with reliability emerging 
as a significant issue. The mid-Atlantic region is experiencing 
significant growth that is driving demand for electricity and is an 
area that is vital from a homeland security perspective. Electric 
utilities have an obligation to provide reliable service to their 
customers, as is evidenced by the final rule recently issued by FERC 
implementing 83 mandatory reliability standards and subjecting 
utilities to $1 million per day per violation fines. In order to 
continue to provide reliable service and keep pace with recent and 
forecasted growth, new facilities will be needed. As a result of such 
national needs, the annual investment in new transmission by 
shareholder owned electric utilities is now projected to be $8.4 
billion annually between 2006 and 2009.
    With these factors in mind, EEI has reviewed S. 289, which would 
establish The Journey Through Hallowed Grounds National Heritage Area, 
and is concerned that the bill does not sufficiently address the 
potential for conflict between the important and valuable goals of the 
heritage area designation and the need to assure that existing and long 
term needs for basic and critical utility infrastructure can be met. It 
is not unusual for the siting of a new transmission facility to take 5 
years or considerably longer. The process has become so difficult and 
contentious that often times consumers experience the costs of 
transmission congestion long before a solution can be implemented. EEI 
therefore recommends that--prior to the designation of this or any 
other national heritage area--steps be taken to assure that the 
designation, if it takes place, will be implemented in a manner 
consistent with the need for vital projects. In this regard, S. 289 
already acknowledges and addresses the potential for a problem to arise 
with respect to road construction. Utility infrastructure should be 
treated no differently.
    With respect to the specific text of S. 289, EEI has particular 
concerns with Sections 8 and 11, as well as Section 4 regarding the 
composition of the board of trustees. Section 4 designates broad 
geographic areas for inclusion in the new heritage area and limits 
participation on the heritage area management entity's board of 
directors to only those who are ``partners'' of the management entity. 
The term partners is undefined but would appear to confine 
participation to a relatively small ``club.'' These provisions become 
especially sensitive, given the consultation and conformity 
requirements of Section 8, which would appear to raise the bar for any 
federal authorizations that might be required for a project in the 
heritage area, absent clear direction that the heritage designation 
shall not impede the siting, permitting and construction of basic and 
critical infrastructure. As to Section 11, EEI is concerned that the 
absence of a provision for utility infrastructure similar to that 
provided for roads will be interpreted as constituting an express 
intent by Congress to modify ``Federal, State or local government 
authority to regulate land use'' within the boundaries of the heritage 
area or its viewshed as it pertains to the siting of new utility 
infrastructure, or the upgrading of existing infrastructure.
    EEI understands and appreciates the important historic, cultural 
and recreational values present in the area that would form the 
boundaries of the Journey Through Hallowed Grounds National Heritage 
Area. We urge the Subcommittee to recognize also the important 
infrastructure needs of the mid-Atlantic region. State, local, and 
federal governments--together with electric utilities and regional 
planning bodies--have a responsibility to assure that the electricity 
needs of the mid-Atlantic region can be met. Their authorities to 
accomplish this task while respecting Heritage values need to be 
preserved.
    In support of our member companies, EEI would be pleased to work 
with the Subcommittee and the full Committee, as well as the sponsors 
of S. 289, to address the issues and concerns that we have raised 
regarding S. 289.
                                 ______
                                 
             Statement of Allegheny Energy, Greensburg, PA
    Allegheny Energy, an investor-owned electric utility headquartered 
in Greensburg, Pennsylvania, with customers in Pennsylvania, West 
Virginia, Maryland and Virginia, appreciates the opportunity to submit 
this statement for the record on S. 289, the ``Journey Through Hallowed 
Ground National Heritage Area Act.'' S. 289, introduced by Senator John 
Warner of Virginia, would establish a roughly 175-mile corridor 
generally following U.S. Route 15 from Adams County, Pennsylvania to 
Albemarle County, Virginia, with a loop off Route 15 to include 
Brunswick, Maryland and Harpers Ferry, West Virginia, as the Journey 
Through Hallowed Ground National Heritage Area.
    Allegheny Energy applauds Senator Warner's efforts to pass 
legislation designed to preserve and promote the many historically 
significant landmarks within the four-state corridor defined in his 
bill. We agree that an appropriately drafted heritage area bill could 
yield great benefits to the area. We appreciate the opportunity to work 
with Congress to ensure passage of the Journey Through Hallowed Ground 
National Heritage Area Act that accomplishes these goals.
    The stated purposes of the bill include ``to preserve, support, 
conserve and interpret the legacy of the American history created along 
the Heritage Area'' and ``to promote heritage, cultural and 
recreational tourism and to develop educational and cultural programs 
for visitors and the general public.'' While these goals are certainly 
laudable, Allegheny Energy believes that the legislation as currently 
drafted might cause unintended consequences that would impede or 
complicate the development of infrastructure necessary to serve public 
needs within the designated Heritage Area. Allegheny Energy and other 
providers of essential services, including public utilities with the 
obligation to serve customers, must maintain the ability to plan, 
construct and improve infrastructure. Any legislation that interferes 
with a utility's ability to do so, within existing regulatory 
frameworks, could prevent the delivery of essential services.
    Allegheny Energy will focus specifically on two sections of the 
bill, Sections 8 and 11(c), which we believe could be interpreted in 
the future in a manner that might unreasonably impede critical 
infrastructure development.
    Section 8--Duties of Other Federal Entities. This section of the 
bill would require any federal entity conducting or supporting 
activities directly affecting the Heritage Area to (1) consult with the 
Secretary of the Interior and the Heritage Area's management entity 
with respect to such activities. It would further require any federal 
entity to (2) cooperate with the Secretary and the management entity in 
carrying out their duties under the Act and (3) to the maximum extent 
practicable, conduct or support such activities in a manner that the 
management entity determines shall not have an adverse effect on the 
Heritage Area. These directives are subject to interpretation. We're 
concerned, however, that across a diverse four-state, 175-mile 
corridor, these provisions could be interpreted so as to impede 
critical infrastructure development by parties who oppose such 
projects.
    At the very least, Section 8 provides significant authority to the 
management entity, the makeup of which is not well defined in the bill. 
We concede that Section 8 is not an obvious or absolute deterrent to 
development of essential public utility infrastructure. However, we 
believe that it could create a duplicative, conflicting, and 
unnecessary review process for infrastructure projects, based on poorly 
defined criteria.
    Recommended amendment:

  <bullet> Amend Section 8[3] as follows:

          ``Any Federal entity conducting or supporting activities 
        directly affecting the Heritage Area shall--[1] consult with 
        the Secretary and the management entity with respect to such 
        activities; [2] cooperate with the Secretary and the management 
        entity in carrying out their duties under this Act and, to the 
        maximum extent practicable, coordinate such activities with the 
        carrying out of such duties; and [3] to the maximum extent 
        practicable consistent with applicable law, conduct or support 
        such activities in a manner that minimizes [start line type] 
        the management entity determines shall not have an [end line 
        type] adverse effects on the Heritage Area.''

    Section 11(c) Recognition of Authority to Control Land Use. Last 
year's version of the Journey Through Hallowed Ground Heritage Area 
legislation (S. 2645/H.R. 5195 in the 109th Congress) stated ``Nothing 
in this Act shall be construed to modify the authority of Federal, 
State or local governments to regulate land use.'' We understand that 
because of concerns voiced by interested parties about the potential 
for the bill to impede or complicate the construction of new roads or 
the improvement of existing roads, the following language was added to 
this year's bill--``, including the authority of Federal, State, and 
local governments to make safety improvements or increase the capacity 
of existing roads or to construct new ones.'' Allegheny Energy, as a 
provider of essential services with the obligation to serve within its 
territory, shares a similar concern about the current language in S. 
289. Therefore, we would support similar language to preserve the 
existing authority of Federal, state, and local governments to regulate 
utility services.
    Recommended amendment:

  <bullet> Amend Section 11(c) as follows:

          ``Nothing in this Act shall be construed to modify the 
        authority of Federal, State, or local governments to regulate 
        land use, including, but not limited to, the authority of 
        Federal, State, and local governments and utilities to make 
        safety improvements or increase the capacity of existing roads 
        or utility facilities or to construct new roads or utility 
        facilities.''

    Allegheny Energy supports the goal of preserving and promoting our 
nation's unique historical and cultural landmarks. We welcome the 
opportunity to work with the authors of the Journey Through Hallowed 
Ground National Heritage Area Act to ensure that passage of the bill 
does not threaten the ability of essential service providers, including 
public utilities, to fulfill their obligation to serve. Allegheny 
Energy is required to provide safe and reliable electric service to 
every customer in our service territory, which contains much of the 
proposed Heritage Area.
    We appreciate the opportunity to submit our statement for your 
consideration.
                                 ______
                                 
                        The Virginia Land Rights Coalition,
                                      McDowell, VA, March 21, 2007.
Senator Daniel K. Akaka,
Chairman, Subcommittee on National Parks, U.S. Senate Energy and 
        Natural Resources Committee, Dirksen Senate Building, 
        Washington, DC.
Re: S. 289, Journey Through Hallowed Ground National Heritage Area Act

    Dear Senator Akaka: I appreciate your concern on this issue and am 
providing these comments for inclusion in the record of yesterday's 
hearing on the Journey Through Hallowed Ground National Heritage Area 
Act (JTHG).
    The Virginia Land Rights Coalition was formed over ten years ago as 
a private, not-for-profit, educational coalition of property rights 
advocates working mainly in Virginia. We provide assistance to and 
cooperate with other groups and individuals across the country on a 
variety of property rights related issues. We do not engage in partisan 
political action nor do we accept any public or corporate funding.
    During the past several weeks, particularly since an amendment to 
the House version of the bill stripped out all private property rights 
protections with Congressman Frank Wolfs approval, numerous people from 
across Virginia and from other states have been contacting us about 
this legislation. Almost every person with whom we have spoken has been 
very disturbed to learn of the manner in which it has been handled so 
far, that is, with an almost arrogant disregard for the rights of 
individual property owners within the proposed JTHG boundaries.
    Many of Virginia's citizens are particularly taken aback by the 
unethical--and what some are calling illegal--$1 million `earmark' to 
the Journey Through Hallowed Ground Foundation, allegedly secured by 
Congressman Frank Wolf. These funds apparently have been used to lobby 
for the legislation. If the allegations are true, the ethical 
violation/conflict of interest is very serious and casts a shadow on 
the legitimacy of support for the measure.
    Last year, we published a report, available at our website, on this 
National Heritage Area plan in which we detailed some of the proposals 
of the JTHG Foundation's executive director, Cate Magennis Wyatt. As a 
result, more and more people are raising questions about the 
credibility and propriety of her organization's intentions in regard to 
the formation of a Real Estate Investment Trust (REIT). Its purpose 
would be to purchase and tie up large tracts of desirable land within 
the proposed NHA, then to encumber the land with restrictive 
conservation servitudes which would limit or preclude development, and 
then resell the land.
    Her statements imply the REIT would buy out farmers, for instance, 
who for various reasons felt they needed to sell. One is left with an 
uneasy but distinct impression of vultures sitting on a fence waiting 
to pick the bones of a struggling or aged agricultural landowner.
    Mrs. Wyatt claims the REIT would be funded by ``socially conscious 
investors'' for the purpose of land ``preservation.'' We believe every 
Senator and Congressman should be exploring exactly what she and her 
unnamed supporters have in mind for the Piedmont of Virginia and for 
portions of three additional states. She has repeatedly stated nothing 
being planning would adversely affect private property rights, yet her 
REIT plan does indeed adversely affect private land by restricting its 
future uses, thus having the potential to negatively impact the growth 
and tax bases of local governments.
    While the details have not been made public, it seems the REIT 
would be controlled by or would operate under the auspices of the non-
profit JTHG Foundation. I am sure you are cognizant of the implications 
of such a federally-funded, non-profit organization being involved in a 
scheme such as this.
    Numerous individuals, organizations, municipalities and state and 
federal officials were `sold' on the JTHG concept with the assurance of 
protections for the rights of individual landowners. The assurances 
were a major inducement of support throughout the region. Cate Wyatt, 
Congressman Frank Wolf, former Senator Allen and many others made the 
point. Yet every indication so far in this process, including the anti-
property rights protection amendment in the House, screams those 
assurances are absolutely worthless.
    Local governing bodies and the millions of people in those 
jurisdictions already included should be outraged by this act of bad 
faith. We hope Subcommittee members will be asking hard questions about 
the real intent of the people pushing this bill; and about lack of 
protections for the average working families, farmers, and for the 
small business owners who do not have powerful, wealthy and well-
connected friends lobbying for and supporting their interests.
    Simply stated, after careful examination of the total JTHG 
proposal, it appears to us to have every hallmark of an elitist scam 
where a relatively few individuals would be able to reap huge financial 
gains and would secure protection for the gentry's exclusive `estates' 
in the Piedmont's `hunt country'--all on the backs of the working man 
and woman.
    The claims of ``historic preservation'' and ``heritage tourism'' 
are simply ruses designed to funnel federal and state funds into the 
hands of special interests. They, in turn, would use those funds to 
further their own political and economic agenda. This has been exactly 
the case in other National Heritage Areas, such as the Shenandoah 
Valley Battlefields NHA, where favoritism, unethical conduct, 
dishonesty and `pork' have made a mockery of ``heritage'' and have led 
to the largest federally-funded land grab in Virginia since the 
creation of the Shenandoah National Park.
    Frankly, Senator Akaka, it's time to get the federal government 
totally out of the National Heritage Area business. The abuses, 
corruption and waste are becoming far too obvious and too widespread. 
This National Park Service scheme has become a subject of cynicism and 
derision and is fast becoming a political liability, especially in 
Virginia and other parts of the nation where the rights of private land 
owners are guarded and respected by the citizens. George Allen's 
support for it was a major factor in the loss of his Senate seat.
    Historic preservation and tourism should be handled privately, or 
in certain, very limited cases, at the state or local government level.
    If you have any questions or would like further information or 
documentation, please do not hesitate to contact me.
            Respectfully submitted,
                                                    L. M. Schwartz.
                                 ______
                                 
                         U.S. Hispanic Chamber of Commerce,
                                    Washington, DC, March 19, 2007.
Hon. Ken Salazar,
U.S. Senate, Hart Senate Office Building, Washington, DC.
    Dear Sen. Salazar: On behalf of the U.S. Hispanic Chamber of 
Commerce, the largest and most influential advocate for the nation's 2 
million Hispanic-owned businesses, we write to lend our wholehearted 
support for Congress to approve S. 500/H.R. 512, legislation that would 
allow for a commission to study the establishment of a national museum 
dedicated to the contributions and history of the American Hispanic 
community.
    As you well know, the House of Representatives passed this 
legislation by voice vote in the 109th Congress, and it enjoyed broad 
bipartisan support. The sponsors are Rep. Xavier Becerra (D-CA) and 
Rep. Ileana Ros-Lehtinen (R-FL). We appreciate the leadership you and 
Sen. Mel Martinez (R-FL) have shown in advancing this legislation in 
the Senate.
    We would like to point out to any Member of Congress with concerns 
over the bill that this bill adopts a judicious approach to the 
consideration of a national museum. It only authorizes a study 
commission; no authority is provided for the establishment or 
construction of such a museum. Congress would have to act once again to 
do so after receiving the commission's recommendations on potential 
locations, fundraising sources, available collections, and community 
involvement. Many potential contributors from the private sector are 
committed to ensuring that a museum dedicated to American Hispanic 
history and cultural contributions is successful. The proponents of the 
project expect that half of the funding for the establishment of such a 
museum would come from the private sector.
    There are 45 million Americans of Hispanic descent in the United 
States. One of every 5th child born in the United States is Hispanic. 
Yet hardly any of the exhibits in the national museums in Washington 
portray Hispanic contributions to the United States. Visitors to these 
museums walk away from them expecting to have a better sense of 
American history and culture. Although this sense is improving due to 
the National Museum of the American Indians and an upcoming National 
Museum of African American History and Culture, we cannot afford to 
continue letting an incomplete story be told.
            Sincerely,
                                   David C. Lizarraga,
                                           Chairman, Board of 
                                               Directors.
                                   Michael L. Barrera,
                                           President and CEO.
                                 ______
                                 
                            William C. Velasquez Institute,
                                   San Antonio, TX, March 19, 2007.
Hon. Ken Salazar,
Senate Hart Office Building, U.S. Senate, Washington, DC.
    Dear Senator Salazar: On behalf of the William C. Velasquez 
Institute, I am writing to thank you for introducing the National 
Museum of the American Latino Community Commission Act of 2007 (S. 
500). We offer our strong and unqualified support of this legislation 
which will establish a federal commission to explore the viability of 
creating the ``National Museum of the American Latino'' in Washington, 
DC.
    The lack of a Latino-focused institution located at the National 
Mall has long been of great concern to the Latino community. As you 
know, some of the most significant museums in our country sideline the 
National Mall between the United States Capitol and the Washington 
Monument. These museums purport to reflect the history, culture, and 
achievements of the people of the United States. Yet scarcely do any of 
the permanent exhibits in these museums represent the American Latino 
community's role in the history and culture of this country.
    Even with the many challenges and opportunities facing the Latino 
community, the importance of proper representation of Latinos and their 
contributions in our nation's foremost cultural institution cannot be 
underestimated. For example, Latino children visiting our nation's 
capital have no place to point to with pride as commemorating the 
Latino presence in this country. Just as troubling is that millions of 
schoolchildren and families as well as tourists from all over the world 
can visit Washington, DC without ever encountering a single museum, 
monument, or collection that helps to educate them about this nation's 
largest minority. Recent experience clearly demonstrates that the 
virtual invisibility of the history, contributions, and status of the 
Latino community to most of their fellow Americans is no longer 
tenable.
    Immediate passage of S. 500 is a critical first step to remedying 
this unfortunate situation and creating an institution devoted to the 
research and study of American Latino life, art, history, and culture. 
Once again, I appreciate your leadership and look forward to working 
with you on advancing this historic effort.
            Sincerely,
                                          Antonio Gonzalez,
                                                         President.
                                 ______
                                 
       Mexican American Legal Defense and Educational Fund,
                                                    March 20, 2007.
Hon. Ken Salazar,
Senate Hart Office Building, U.S. Senate, Washington, DC.
    Dear Senator Salazar: On behalf of the Mexican American Legal 
Defense and Educational Fund (MALDEF), I am writing to thank you for 
introducing the National Museum of the American Latino Community 
Commission Act of 2007 (S. 500). We strongly support your efforts to 
establish a federal commission to explore the viability of creating the 
``National Museum of the American Latino'' in Washington, D.C.
    The lack of a Latino-focused museum on the National Mall is a 
significant concern. Museums on the National Mall should reflect the 
history, culture, and achievements of all people of the United States. 
The importance of proper representation of Latinos and their 
contributions in our nation's foremost cultural institutions should not 
be underestimated.
    Latinos and all visitors to our nation's capital should be able 
visit a museum that commemorates the many valuable contributions of 
Latinos in the United States. Currently, millions of schoolchildren and 
families as well as tourists from all over the world can visit 
Washington, D.C. without ever encountering a single museum, monument, 
or collection that helps to educate them about this nation's largest 
minority group. The virtual invisibility of Latino history, 
contributions, and status in our nation's cultural institutions is 
untenable.
    Immediate passage of S. 500 is a critical first step to remedying 
the current lack of Latino representation on the National Mall and to 
creating an institution devoted to the research and study of American 
Latino life, art, history, and culture. We commend your leadership and 
look forward to working with you to advance this historic effort.
            Sincerely,
                                             John Trasvina,
                                     President and General Counsel.
                                 ______
                                 
         Hispanic Association of Colleges and Universities,
                                  Washington, DC, February 8, 2007.
Hon. Ken Salazar,
U.S. Senate, Hart Senate Office Building, Washington, DC.
    Dear Senator Salazar: On behalf of the Hispanic Association of 
Colleges and Universities (HACU), I want to express our gratitude and 
full support for your Senate Bill S. 500 to establish the ``Commission 
to Study the Potential Creation of a National Museum of the American 
Latino Community,'' The proposed Commission will have as its major 
function the development of a plan of action for the establishment and 
maintenance of a National Museum of the American Latino Community to be 
located in Washington, D.C.
    The proposed Latino Museum will exhibit and display the richness 
and diversity of the Latino culture within the United States and the 18 
Latin American countries of origin from which Latino people immigrate. 
Clearly the proposed museum will provide a venue for our nation to 
learn more about the many Latino groups that make up the fastest-
growing and second oldest population in the United States.
    Currently the Latino community represents 14% of the U.S. 
population; by 2050, it is projected to exceed 96 million, 25% of the 
total U.S. population. The proposed museum will be an important 
addition to the Smithsonian and other museums in Washington, D.C., that 
introduce visitors to the nation's capitol and highlight the 
contributions of the various peoples living and working in the U.S.
    We applaud your foresight and wisdom in introducing this important 
piece of legislation. We strongly endorse any efforts by Congress to 
provide appropriate support to institutions through which we can all 
learn about the many peoples that have made the United States one of 
the most culturally rich and diverse countries in the world.
    We stand ready to assist your leadership in moving S. 500 through 
the Senate during this Congressional session. Please call upon us and 
our membership if we can provide any information, testimony or other 
support to help you win swift passage of this bill celebrating the 
contributions of Hispanic Americans.
            Respectfully,
                                         Antonio R. Flores,
                                                 President and CEO.
                                 ______
                                 
       Edmund G. ``Pat'' Brown Institute of Public 
                                           Affairs,
                  California State University, Los Angeles,
                                   Los Angeles, CA, March 19, 2007.
Hon. Ken Salazar,
Senate Hart Office Building, U.S. Senate, Washington, DC.
    Dear Senator Salazar: On behalf of the Edmund G. ``Pat'' Brown 
Institute of Public Affairs. we are writing to thank you for 
introducing the National Museum of the American Latino Community 
Commission Act of 2007 (S. 500). We offer our strong and unqualified 
support of this legislation which will establish a federal commission 
to explore the viability of creating the ``National Museum of the 
American Latino'' in Washington, DC.
    The lack of a Latino-focused institution located at the National 
Mall has long been of great concern to the Latino community. As you 
know. some of the most significant museums in our country sideline the 
National Mall between the United States Capitol and the Washington 
Monument. These museums purport to reflect the history. culture. and 
achievements of the people of the United States. Yet scarcely do any of 
the permanent exhibits in these museums represent the American Latino 
community's role in the history and culture of this country.
    Even with the many challenges and opportunities facing the Latino 
community, the importance of proper representation of Latinos and their 
contributions in our nation's foremost cultural institution cannot be 
underestimated. For example, Latino children visiting our nation's 
capital have no place to point to with pride as commemorating the 
Latino presence in this country. Just as troubling is that millions of 
schoolchildren and families as well as tourists from all over the world 
can visit Washington. DC without ever encountering a single museum. 
monument, or collection that helps to educate them about this nation's 
largest minority. Recent experience clearly demonstrates that the 
virtual invisibility of the history. contributions, and status of the 
Latino community to most of their fellow Americans is no longer 
tenable.
    Immediate passage of S. 500 is a critical first step to remedying 
this unfortunate situation and creating an institution devoted to the 
research and study of American Latino life, art, history, and culture. 
Once again, we appreciate your leadership and look forward to working 
with you on advancing this historic effort.
            Sincerely,
                                  Jaime A. Regalado, Ph.D.,
                                                Executive Director.
                                 ______
                                 
   Statement of Dr. Jonathan Lorenzo Yorba, Arts & Cultural Affairs 
           Manager, Development Department, City of Riverside
    Thank you, Senator Bingaman, Senator Akaka, and Members of the 
Committee, for inviting me to submit testimony on S. 500/H.R. 512, 
which would authorize the establishment of a National Commission to 
study the potential creation of a new museum for the United States: The 
National Museum of the American Latino.
    My name is Jonathan Yorba, and I am honored to provide you with 
this testimony from the perspective of several professional positions 
that I hold. First and foremost, I am the Arts & Cultural Affairs 
Manager in the Development Department of the City of Riverside. We are 
the ``City of the Arts'' and the capital of arts and culture in the 
Inland Empire of Southern California. Second, I am Adjunct Professor of 
Museum Studies at John F. Kennedy University in Berkeley, California. 
Third, I am Chair Emeritus of the American Association of Museums 
Latino Network Professional Interest Committee, a national group of 
professionals that is dedicated to fostering a greater understanding 
and exchange of cross-cultural dialogue on issues pertinent to Latinos 
and Latino art and culture. And last but not least, I am Chair of the 
Ford Foundation Fellows Fund, which works to increase the diversity of 
the nation's professoriate--whether that is in the arts, culture, and 
the humanities or in the sciences.
    My hope is that my brief testimony will help you consider, at a 
future point, approving legislation that would establish the 
Commission. In thinking carefully about my charge, I bear in mind a 
lesson that continues to resonate with me personally and 
professionally: The humanities are referential, dialectic and 
tentative. In the same way, a National Commission would need to 
carefully and thoughtfully consider a number of critical factors 
related to the establishment of a National Museum of the American 
Latino, by placing such factors in comparative perspective to other 
regional and national cultural institutions, by engaging in considered 
dialogue with a number of stakeholders, and then presenting to the 
President a more richly informed perspective than what the Commission 
Members began with.
    I respectfully address below a few of these considerations that I 
imagine the Commission would need to explore. They are: need, 
viability, programs, and community reception and impact.
    On the idea of whether the nation needs a new museum and, in 
particular, a Latino museum, two ideas come to mind. The first is from 
the report Excellence and Equity: Education and the Public Dimension of 
Museums, whose principles state in general that museums have the power 
to nurture an enlightened and humane citizenry that appreciates the 
value of knowing about its past, is resourcefully and sensitively 
engaged in the present, and is determined to shape a future in which a 
variety of experiences and points of view are given voice. This speaks 
to one of the unique features of the American museum: its educational 
dimension.
    The second is a provocative quote that I once heard ethnic studies 
scholar Dr. Ronald Takaki paraphrase: ``What happens when someone with 
the authority of, say, a teacher describes the world and you are not in 
it? There is a moment of psychic disequilibrium, as though you looked 
into a mirror and saw nothing.'' If museums are indeed at their core 
educational institutions, then current residents of and visitors to 
Washington, D.C. would not be able to find a single, prominent cultural 
institution on the scale of a museum of the United States, whose 
primary purpose is to educate visitors about the many contributions of 
Latinos through permanent exhibitions and educational programs.
    But were a National Museum of the American Latino to be considered, 
its viability would then need to be examined. This could include such 
elements as structure, site, and support. There are a number of 
existing models to draw upon for examples which, again, a National 
Commission would need to explore.
    In reading through the Congressional Record regarding the creation 
of such a museum for the United States, various findings of Congress on 
the subject are presented. Therefore, through the nation's many Arts & 
Cultural Affairs offices, and organizations such as the American 
Association of Museums Latino Network and other related organizations, 
the Commission would surely discover the tremendous variety of Latino 
cultures and potential exhibitions and collections that are available 
for possible display in such a National Museum of the American Latino. 
The key will be to determine how such primary issues as representation 
and (re)presentation--that is, the interpretive component--are taken 
into consideration.
    Last but not least, in the American museums' move towards community 
and civic engagement, the National Commission would need to listen to 
the voices of many communities--from Riverside in California to San 
Antonio in Texas, and from Chicago, Illinois and beyond--to understand 
how such a national museum would be received. In talking with a number 
of stakeholders around the nation, the Commission Members would learn 
about the existence of a number of Latino museums--whether they are 
focused on a single culture or their mission is to serve pan-Latino 
audiences. The Commission Members would then have to explore what 
effect the establishment of a National Latino Museum would have on 
these institutions.
    Museums began as cabinets of curiosity, assumed a civilizing 
function, asserted their educational importance, have become forums for 
cultural exchange, and are determined to play a significant role in 
community and civic engagement. In order to explore the factors I have 
briefly raised, as well as others that will emerge, I overwhelmingly 
support the establishment of a National Commission to establish a 
National Museum of the American Latino. Thank you.
                                 ______
                                 
Statement of C. Allen Sachse, President/Executive Director, Delaware & 
Lehigh NHC, Incorporated and the Delaware and Lehigh National Heritage 
                          Corridor Commission
    Mr. Chairman and distinguished members of the Subcommittee, my name 
is Allen Sachse and I am Executive Director of the Delaware and Lehigh 
National Heritage Corridor Commission (Commission) and President of the 
Delaware & Lehigh National Heritage Corridor, Incorporated (D&L)--a 
501(c)(3) non-profit. Together they serve as the `managing partners' of 
the Delaware and Lehigh National Heritage Corridor (Corridor). I 
appreciate this opportunity to submit written testimony on behalf of 
the Corridor partnership and ask for your approval of S. 817.
    Congress designated the Corridor as the nation's third national 
heritage corridor in November 1988. The Corridor's authorizing 
legislation also established the Commission to assist the state and 
local agencies in preserving and interpreting the Corridor's historic, 
cultural and natural resources, while fostering economic development 
focused on those resources. The Management Action Plan, approved by the 
Secretary of Interior in 1993, recognized the Corridor's stories and 
related resources as nationally significant.
    Located in eastern Pennsylvania, the Corridor passes through five 
counties following an historic transportation system of overland 
railroads and canals for 165 miles. The system was innovative in its 
day, and continued to operate for over 100 years, becoming the nation's 
longest operating canal system. From the Wyoming Valley in the north to 
the port town of Bristol in the south, the system moved anthracite coal 
that fueled the industrial revolution. Along the route a diversity of 
industries flourished, including iron and steel, cement, 
transportation, textile, slate, zinc and others.
    The last two decades have seen the emergence of heritage 
partnerships throughout the United States. I have observed that there 
are some very common similarities among the more successful heritage 
partnerships:

  <bullet> A strong local pride of cultural and natural heritage and 
        belief that the region has an important story and the 
        responsibility to share the story;
  <bullet> The region exhibits a distinctive landscape, clearly 
        reflecting its cultural natural heritage;
  <bullet> This pride of heritage is embraced by the broadest range of 
        community leaders and there is a consensus that the practice of 
        heritage development will improve the quality of life and 
        enhance the region's economy;
  <bullet> A partnership network evolves focused on a common vision and 
        led by creativity, dedication and the ability to reach across 
        traditional boundaries.

    In 2005, the Commission determined the time had come to have an 
independent evaluation of our accomplishments and an assessment of the 
Corridor partnership network. Recognizing there were few examples of 
appropriate research models to follow, the Commission engaged the 
services of the Conservation Study Institute (CSI), Northeast Region of 
the National Park Service to accomplish the task. The findings are 
detailed in the report titled Connecting Stories, Landscapes, and 
People: Exploring the Delaware & Lehigh National Heritage Corridor 
Partnership, which was completed and published in spring of 2006. (A 
copy of the report is attached for reference and documentation.)
    The CSI was asked by the Commission to address the following 
specific issues:

  <bullet> Evaluate progress toward accomplishing the purposes of the 
        Corridor's authorizing legislation and the strategies set forth 
        in the Corridor's Management Action Plan of 1993.
  <bullet> Identify additional actions and work needed to protect, 
        enhance, and interpret the Corridor and its nationally 
        significant resources.
  <bullet> Analyze the National Park Service and Pennsylvania Heritage 
        Park Program (PHPP) investments to determine the leverage and 
        impacts of these investments.
  <bullet> Examine models, options, and opportunities to enhance state 
        and local partnerships and to continue the NPS relationship, 
        including the possibility of a permanent NPS designation or a 
        new framework to support the work of the Corridor initiative.

    The CSI was not asked to provide specific recommendations regarding 
the future management of the Corridor partnership network. Instead, 
through rigorous research CSI was to identify the strengths, weaknesses 
and opportunities for the partnership--so that the managing partners 
could make informed decision regarding the future of the Corridor 
partnership.
    We found that of the 175 actions in the Management Action Plan, 145 
(or 83%) were acted upon; almost half of these projects being Corridor 
wide in scope; and 67 were determined to be ``ongoing'' activities that 
will require ongoing commitment to maintain the achievements to date. 
The findings make it apparent that time is important, as well as, the 
careful selection and seeding of early projects. Approximately two 
thirds of all projects have been initiated in the last six years. Also, 
as the momentum builds, the managing partners continue to be challenged 
with the task of building the capacity and sustainability of the 
numerous local partners.
    The partnership's ability to leverage funding and other resources 
has been impressive. The study substantiated that for each dollar 
provided through the National Park Service, the Corridor was able to 
directly leverage almost 12 dollars from other sources. In addition, a 
considerable amount of indirect funding and volunteer services were 
leveraged, but not counted.
    Looking to the future the CSI identified critical ingredients 
necessary for sustained success of the partnership network. Foremost 
among the ingredients was the NPS role, ``The anchoring state and 
federal government connections provided by the DCNR and the NPS are 
extremely important to the stability and sustainability of the D&L 
partnership system. These two partners have played critical and 
complementary roles in the Corridor partnership for a long time--the 
DCNR since it was formed in 1993 and the NPS since the Corridor's 
formative stages. They provide credibility and reinforce the importance 
of the Corridor initiative for partners and communities. . . . Other 
critical structural ingredients include secure, stable funding from 
diverse sources and the ability to leverage funds, resources, and 
ideas. It is important to note that the ability to leverage derives 
primarily from the funding and participation of the two anchoring state 
and federal partners.'' (1)
    All future management options recognized the importance of a 
continuing relationship with the anchoring partners--DCNR and the NPS. 
However, one option addressed the possibility of moving forward without 
a federally authorized management entity and dedicated federal funding. 
If this were to become a reality, the study team concluded, ``this 
scenario would be a significant setback for the Corridor initiative and 
in all likelihood would substantially slow the progress toward 
achieving its broad mandate. Without federal authorization, D&L, Inc., 
and the partnership overall could have reduced stature, clout, and 
credibility with government agencies and other stakeholders. Perhaps 
more importantly, the loss of dedicated federal funding would leave a 
substantial void--both in direct terms for Corridor operations and 
management plan implementation, and indirectly in leveraging support 
from others.'' (2)
    Among the various other options for the future, the managing 
partners have concluded the time is appropriate to fully shift the 
responsibility for managing the partnership network to the D&L, thus, 
allowing the federal Commission to sunset. Such a move should provide 
for additional administrative flexibility, while also expanding the 
potential base of funding support.
    Also, the Corridor intends to pursue opportunities to strengthen 
the existing partnership with the NPS. This will include technical 
assistance and other services; developing working relationships with 
nearby NPS units; and possibly seeking a Congressional ``authorization 
of a `special resource study' to explore potential permanent NO'S 
involvement and additional designations'' for the Corridor. (3)
    The Corridor managing partners have committed a substantial amount 
of time and effort evaluating accomplishments and weighting options for 
the future. We remain focused on the vision of a strong partnership 
network preserving and sharing the nationally significant resources and 
stories of the Corridor. We continue to seek out ways to empower our 
partners' creativity, to support their work, to share their 
accomplishments and strengthen their capacity. As an organization we 
recognize that our partnership network and their accomplishments is our 
measurement of success. We must serve our partners well by focusing on 
the vision of the Corridor; by minimizing the bureaucracy often 
associated with state and federal programs; by providing quality 
programs and services; and by being creative, flexible and innovative.
    Again, I appreciate the opportunity to review the work of the 
Corridor and share with you what we believe will make the Corridor 
stronger and more efficient. The managing partners have taken the 
evaluation process very seriously and are using the findings to help 
shape our future. I ask for your approval of S. 817, which will provide 
the time, resources and support necessary to continue the work of the 
Corridor.
    Excerpts taken from:
    Connecting Stories, Landscapes, and People: Exploring the Delaware 
& Lehigh National Heritage Corridor Partnership--A Technical Assistance 
Project for the Delaware & Lehigh National Heritage Corridor Commission 
and the Delaware & Lehigh National Heritage Corridor, Inc.

--completed by the Conservation Study Institute, Northeast Region, 
National Park Service
        1. page 59
        2. page 62
        3. page 65
                                 ______
                                 
  Statement of Daniel M. Rice, President and Chief Executive Officer, 
Ohio & Erie Canalway Coalition, Ohio & Erie National Heritage Canalway, 
                              Akron, Ohio
    Mr. Chairman and distinguished members of the Committee, my name is 
Daniel M. Rice. I am the President and Chief Executive Officer of the 
Ohio & Erie Canalway Coalition, a regional private non-profit 
organization working on the development of the Ohio & Erie National 
Heritage Canalway from Cleveland to New Philadelphia, Ohio in northeast 
Ohio. I appreciate the opportunity to offer testimony in support of S. 
817, a bill to amend the Omnibus Parks and Public Lands Management Act 
of 1996 to provide additional reauthorizations for certain National 
Heritage Areas, and for other purposes. I want to thank Senator 
Voinovich, Senator Kennedy and Senator Spector and their staffs for 
their leadership in drafting the legislation with the staff of the 
Subcommittee. I also wish to thank Senator Brown, Senator Casey, 
Senator Graham and Senator Kerry for cosponsoring S. 817.
    Mr. Chairman, now, more than ever, we need to maintain our 
partnership with the National Park Service and renew our shared 
commitment to the Ohio & Erie National Heritage Canalway, and the five 
National Heritage Areas listed in S. 817. National Heritage Areas 
successfully promote and export the National Park Service ethic of 
resource conservation without significant permanent investment. Through 
the National Heritage Area designation, we are building permanent 
community partnerships and developing funding diversification and 
sustainability strategies for the conservation of nationally 
significant resources. Most importantly, National Heritage Areas expand 
the reach of the National Park Service and allows the Service to affect 
the lives of ordinary citizens, in urban areas and townships, across 
this country in extraordinary ways, without the burden and 
responsibility of ownership and long-term maintenance by the National 
Park Service.
    The Ohio & Erie Canalway is a regional and national treasure that 
celebrates the unique natural, historical and recreational resources 
along the Ohio & Erie Canal from Cleveland to New Philadelphia in 
northeast Ohio. Through the leadership of Ohio Canal Corridor, Ohio & 
Erie Canalway Association and Ohio & Erie Canalway Coalition, we are 
developing a 101-mile multi-use recreational trail, conserving hundreds 
of acres of natural areas, preserving historic structures and 
stimulating over $270,000,000 of community and economic development 
activity. For every $1 of federal seed funding, we are leveraging over 
$12 of private, local, and state investment.
    As one of the 37 Congressionally-designated National Heritage 
Areas, the Ohio & Erie Canalway is a successful example of the national 
heritage area concept of the conservation and interpretation of 
nationally significant resources through local management and 
investment. Some examples of our resource conservation accomplishments 
include:

  <bullet> Development of 75 miles of the multi-use recreational 
        Towpath Trail from Cleveland to New Philadelphia, Ohio. To 
        date, over $53,000,000 of private, local, state and federal 
        resources have been invested in this regional greenway. Over 3 
        million users utilized the Ohio & Erie Canal Towpath Trail in 
        2006.
  <bullet> Implementation of four county trail and green space plans 
        with over 400 miles of connecting trails and 1,000 acres of 
        green space.
  <bullet> The relocation of the world headquarters of Advanced 
        Elastomers Systems from St. Louis, Missouri to Akron, Ohio, 
        along the banks of the Ohio & Erie Canal. Local developer Paul 
        Tell invested $25 million in a former BFGoodrich headquarters 
        building and generated over 300 new jobs in downtown Akron.
  <bullet> Over 175,000 volunteer hours on National Heritage Area 
        related programs and projects, and over 250,000 participants in 
        educational programs.
  <bullet> Preservation and restoration of historic canal resources 
        including, the Mustill House and Store, Henniger House, Zoar 
        Hotel, Zoar Town Hall, Jackson Township School and the Richard 
        Howe House.
  <bullet> Local developer Frank Sinito invested over $13 million 
        dollars in the mixed-use development, Thornburg Station, along 
        the banks of the Ohio & Erie Canal and Towpath Trail in 
        Independence, Ohio in Cuyahoga County. Through a combination of 
        upscale restaurants, offices and shops, Thornburg Station has 
        generated over 50 jobs and is a destination Trailhead along the 
        Ohio & Erie Canal Towpath Trail.
  <bullet> Designation of the Canalway Ohio Scenic Byway as a State and 
        National Scenic Byway.
  <bullet> Extending the Cuyahoga Valley Scenic Railroad from the 
        Cuyahoga Valley National Park to the City of Akron and the City 
        of Canton.
  <bullet> Creation of a Communications Plan, including a comprehensive 
        Interpretation Plan, Signage Plan and Marketing Plan. In April 
        2006, we introduced a ``first-of-its-kind'' Visitors Guide for 
        the entire Ohio & Erie Canalway, in partnership with our 
        Convention & Visitors Bureaus.
  <bullet> Provided technical assistance and planning support for the 
        four main Canalway Center Visitors facilities. The first of our 
        facilities, the Stark County Canalway Learning Center is 
        scheduled to open in summer 2007.

    Through the development of public/private partnerships, we are 
exporting the National Park Service ethic of resource conservation to 
thousands of citizens, cultivating stewardship and investment of the 
unique resources and most importantly, creating a legacy for future 
generations.
    All of these accomplishments would not have been possible without 
the designation, as a National Heritage Area, by Congress in 1996.
    The National Heritage Area designation provides an organized 
regional structure and forum for the promotion of resource 
conservation, interpretation and development of the natural, historical 
and recreational resources along the Ohio & Erie Canalway. With the 
development of the Corridor Management Plan, we obtained the 
investment, commitment and support from our private, local, state and 
federal partners for the Ohio & Erie Canalway. These partners, 
including the National Park Service, endorsed the Corridor Management 
Plan and committed their resources to the completion of the 20-year 
plan.
    For the first three years of our designation, we completed our 
resource inventories and developed the Corridor Management Plan. From 
2000 to 2006, we established the identity for the Ohio & Erie Canalway 
and worked on its three main regional linkages--the Towpath Trail, the 
Scenic Byway and the Scenic Railroad. Through the hard work and 
dedication of over 90 partners, I am proud to tell you that we are 
ahead of schedule and are poised to move into the second phase of the 
development of the Ohio & Erie Canalway.
    According the Corridor Management Plan, approved by the Secretary 
of the Interior, over the next six years, we will work on the following 
items:

  <bullet> Complete the key regional linkages, including the Towpath 
        Trail, Scenic Byway and Scenic Railroad.
  <bullet> Expand the connecting trail network.
  <bullet> Market locally and regionally the entire Ohio & Erie 
        Canalway and its journeys.
  <bullet> Assist the Canalway Center project partners to complete 
        construction.
  <bullet> Continue coordination with the National Park Service for 
        program involvement.
  <bullet> Develop Corridor-wide programs and mechanisms for their 
        continued operations.

    As you can see, Mr. Chairman, we are at a critical crossroads in 
the development of the Ohio & Erie National Heritage Canalway, and that 
is why we are requesting reauthorization of this nationally significant 
project. Just as much of the past accomplishments of the Ohio & Erie 
Canalway have been due to the participation and involvement of the 
National Park Service, much of our future success depends on the 
continued partnership and participation of the National Park Service. 
As the Corridor Management Plan for the Ohio & Erie Canalway states, 
``Alliances and regional coalitions are critical to the long-term 
success of the National Heritage Corridor as well as to the 
accomplishment of short-term projects.''
    Without reauthorization of the Ohio & Erie Canalway, we will be 
unable to fulfill the commitments and obligations outlined in the 
Corridor Management Plan. If our federal partners abandon the 
partnership and their commitment to the Corridor Management Plan, the 
private, local and state partners may take the same approach and 
withdraw their commitment and support. If this occurs, the public/
private partnership will dissolve; the foundation for the regional 
resource conservation strategy will cease to exist; and the previous 
investments by private, local, state and other partners will be put at 
risk. Continued federal investment is necessary to maintain the 
momentum and provide the critical seed funding components of the 
Corridor Management Plan.
    All of the National Heritage Areas included in S. 817 were 
established with Management Plans to guide the work of the National 
Heritage Areas. National Heritage Areas were established as long-term 
conservation tools to protect America's heritage in places where sole 
federal government ownership, i.e., units of the National Park Service, 
were not feasible or practicable. These National Heritage Areas need to 
be reauthorized in order to fulfill their Management Plans. Selecting a 
pre-determined termination, as it has been suggested, endangers what 
has been created and what is planned.
    S. 817 incorporates components of the National Park System Advisory 
Board report titled, ``Charting a Future for National Heritage Areas.'' 
This ground breaking report examines in great detail, the intricate 
relationship between National Heritage Areas and the National Park 
Service, and the importance of embracing National Heritage Areas as 
part of the family of the National Park System. One of the components 
of the Advisory Board report, included in S. 817, is the establishment 
of an evaluation and analysis process that evaluates the need for 
continued federal involvement with the National Heritage Area. This is 
an important component in defining, and embracing National Heritage 
Areas as part of the National Park System.
    Reauthorization of the Ohio & Erie Canalway, allows us to complete 
our Corridor Management Plan, fulfill our commitments to the 
communities and develop the necessary funding diversification 
strategies. In essence, reauthorization enables the National Heritage 
Areas identified in S. 817 to move towards a decreased dependence on 
the National Park Service for long-term funding.
    In closing, Mr. Chairman, I believe that National Heritage Areas 
are an innovative approach to resource conservation and they represent 
the future direction of the National Park Service in the 21st century. 
That is why I strongly urge your support for the passage of S. 817 so 
we can continue our successful partnership for resource conservation 
and the celebration of our nationally significant resources. Working 
together, we are creating legacies for future generations.
    Thank you again for the opportunity to offer testimony in support 
of S. 817.

                                <all>






</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
